<html>
<title> - NHTSA OVERSIGHT: AN EXAMINATION OF THE HIGHWAY SAFETY PROVISIONS OF SAFETEA-LU</title>
<body><pre>[Senate Hearing 111-1068]
[From the U.S. Government Publishing Office]


                                                       S. Hrg. 111-1068
 
  NHTSA OVERSIGHT: AN EXAMINATION OF THE HIGHWAY SAFETY PROVISIONS OF 
                               SAFETEA-LU 

=======================================================================

                                HEARING

                               before the

   SUBCOMMITTEE ON CONSUMER PROTECTION, PRODUCT SAFETY, AND INSURANCE

                                 of the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 28, 2010

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

68-403 PDF                       WASHINGTON : 2011 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 


















       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

            JOHN D. ROCKEFELLER IV, West Virginia, Chairman
DANIEL K. INOUYE, Hawaii             KAY BAILEY HUTCHISON, Texas, 
JOHN F. KERRY, Massachusetts             Ranking
BYRON L. DORGAN, North Dakota        OLYMPIA J. SNOWE, Maine
BARBARA BOXER, California            JOHN ENSIGN, Nevada
BILL NELSON, Florida                 JIM DeMINT, South Carolina
MARIA CANTWELL, Washington           JOHN THUNE, South Dakota
FRANK R. LAUTENBERG, New Jersey      ROGER F. WICKER, Mississippi
MARK PRYOR, Arkansas                 GEORGE S. LeMIEUX, Florida
CLAIRE McCASKILL, Missouri           JOHNNY ISAKSON, Georgia
AMY KLOBUCHAR, Minnesota             DAVID VITTER, Louisiana
TOM UDALL, New Mexico                SAM BROWNBACK, Kansas
MARK WARNER, Virginia                MIKE JOHANNS, Nebraska
MARK BEGICH, Alaska
                    Ellen L. Doneski, Staff Director
                   James Reid, Deputy Staff Director
                   Bruce H. Andrews, General Counsel
                 Ann Begeman, Republican Staff Director
             Brian M. Hendricks, Republican General Counsel
                  Nick Rossi, Republican Chief Counsel
                                 ------                                

   SUBCOMMITTEE ON CONSUMER PROTECTION, PRODUCT SAFETY, AND INSURANCE

MARK PRYOR, Arkansas, Chairman       ROGER F. WICKER, Mississippi, 
BYRON L. DORGAN, North Dakota            Ranking
BARBARA BOXER, California            OLYMPIA J. SNOWE, Maine
BILL NELSON, Florida                 JIM DeMINT, South Carolina
CLAIRE McCASKILL, Missouri           JOHN THUNE, South Dakota
AMY KLOBUCHAR, Minnesota             JOHNNY ISAKSON, Georgia
TOM UDALL, New Mexico                DAVID VITTER, Louisiana

























                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on September 28, 2010...............................     1
Statement of Senator Pryor.......................................     1
    Letter, dated September 23, 2010, to Hon. Mark Pryor, from 
      Colonel Winford E. Phillips, Governor's Highway Safety 
      Representative, Arkansas State Police......................    12
Statement of Senator Nelson......................................     3
Statement of Senator Wicker......................................     4
Statement of Senator Udall.......................................     5
    Prepared statement...........................................     6
Statement of Senator Klobuchar...................................    17

                               Witnesses

Hon. David L. Strickland, Administrator, National Highway Traffic 
  Safety Administration..........................................     7
    Prepared statement...........................................     8
Jacqueline S. Gillan, Vice President, Advocates for Highway and 
  Auto Safety....................................................    22
    Prepared statement...........................................    24
Robert Strassburger, Vice President, Vehicle Safety and 
  Harmonization, Alliance of Automobile Manufacturers............    38
    Prepared statement...........................................    40
Laura Dean-Mooney, National President, Mothers Against Drunk 
  Driving (MADD).................................................    44
    Prepared statement...........................................    46
Neil Pedersen, Administrator, Maryland State Highway 
  Administration; and Representative, Governor's Highway Safety 
  Association (GHSA).............................................    52
    Prepared statement...........................................    53
Ethan Ruby, Accident Victim, New York, New York..................    70
    Prepared statement...........................................    72
Ira H. Leesfield, Past President, Academy of Florida Trial 
  Lawyers........................................................    73
    Prepared statement...........................................    75
Thomas M. James, President and CEO, Truck Renting and Leasing 
  Association....................................................    81
    Prepared statement...........................................    83

                                Appendix

Hon. John D. Rockefeller IV, U.S. Senator from West Virginia, 
  prepared statement.............................................   105
National Automobile Dealers Association, prepared statement......   106
Letter, dated October 12, 2010, to Hon. John D. Rockefeller IV 
  and Hon. Kay Bailey Hutchison from Sam Graves, Member of 
  Congress; and Rick Boucher, Member of Congress.................   109
Response to written questions submitted to Hon. David L. 
  Strickland by:
    Hon. John D. Rockefeller IV..................................   110
    Hon. Roger F. Wicker.........................................   111
Response to written questions submitted by Hon. Claire McCaskill 
  to Ethan Ruby and Responded to by David C. Cook, Marc S. Moller 
  Kreindler & Kreindler LLP......................................   112
Response to written question submitted by Hon. Byron Dorgan to 
  Ira H. Leesfield...............................................   114
Response to written questions submitted to Thomas M. James by:
    Hon. Claire McCaskill........................................   115
    Hon. Byron Dorgan............................................   115
Letter, dated October 12, 2010, to Hon. John D. Rockefeller IV, 
  Hon. Kay Bailey Hutchison, Hon. Mark Pryor, and Hon. Roger 
  Wicker from Thomas M. James, President and CEO, Truck Renting 
  and Leasing Association........................................   116


                            NHTSA OVERSIGHT:

     AN EXAMINATION OF THE HIGHWAY SAFETY PROVISIONS OF SAFETEA-LU

                              ----------                              


                      TUESDAY, SEPTEMBER 28, 2010

                               U.S. Senate,
      Subcommittee on Consumer Protection, Product 
                             Safety, and Insurance,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 10:29 a.m. in 
room SR-253, Russell Senate Office Building, Hon. Mark Pryor, 
Chairman of the Subcommittee, presiding.

             OPENING STATEMENT OF HON. MARK PRYOR, 
                   U.S. SENATOR FROM ARKANSAS

    Senator Pryor. I'll go ahead and call the Subcommittee to 
order.
    I want to thank everyone for coming to the Senate Committee 
on Commerce, Science, and Transportation's Subcommittee on 
Consumer Protection, Public Safety--excuse me, Product Safety, 
and Insurance Subcommittee.
    I want to thank all of my colleagues for being here. We 
have a few more on the way. And I'm going to give a brief 
opening statement here, and then I'll let others give opening 
statements if they prefer. And the witnesses will have 5 
minutes to give their opening remarks.
    We're going to leave the record--we're going to put all of 
your opening statements in the record, so don't feel like you 
have to cover everything, because we'll put in the record. And 
also, we're going to leave the record open for a few days 
afterwards for follow-up questions.
    Let me go ahead and get underway. The other little 
housekeeping issue is, in about an hour we're going to have a 
couple of rollcall votes on the floor, so we may have to recess 
this subcommittee briefly, and run over and vote, and come 
back. But, we'll work through that at the appropriate time.
    NHTSA has two core missions: vehicle safety and highway 
safety. Today's hearing will focus mostly on highway safety. 
The highway safety mission consists of safety and research 
programs designed to decrease vehicle deaths and injuries by 
changing driver behavior regarding seatbelt use, drunk driving, 
speeding, motorcycle safety, child restraints, and, most 
recently, distracted driving, as well as other areas.
    NHTSA addresses driver behavior with safety grants to 
States that enact certain laws or carry out enforcement 
activities such as police patrols. NHTSA also conducts national 
advertising programs related to seatbelts and drunk driving as 
part of its coordination with the States. In addition, NHTSA 
conducts research into driver behavior safety concerns such as 
impaired driving, distracted driving, teen driving, and the 
emerging problem of older drivers now that the baby-boomers 
have begun to retire.
    The vast majority of these programs and grants are funded 
through the Highway Trust Fund. While we will not get into a 
debate over the Highway Trust Fund in this hearing, it is 
important that we recognize its current shortcomings as we 
consider plans to adequately fund important highway safety 
initiatives.
    In 2005, Congress enacted SAFETEA-LU, a reauthorization of 
the Federal Highway programs, including NHTSA's highway safety 
programs. This authorization expired in September 2009, and has 
been extended now by the Congress five times. The most recent 
extension is scheduled to expire on December 31 of this year. 
New legislation is being--is needed to reauthorize these 
programs and other NHTSA functions, and it's clear that funding 
levels are currently inadequate. NHTSA is in need of additional 
funding and resources to not only implement existing programs, 
but also to implement new programs related to drunk driving, 
distracted driving, and others that may need to be included in 
the upcoming reauthorization.
    This hearing will provide the Subcommittee with the 
opportunity to examine the Safety Grant programs as they exist 
under the current authorization, and to consider new strategies 
for funding programs to improve driver safety.
    I look forward to receiving input from all of our witnesses 
today. And I look forward to working with each of them as this 
committee and subcommittee begin to develop the NHTSA 
reauthorization bill as part of the larger surface 
transportation reauthorization legislation in the coming weeks 
and months.
    And I also want to thank all of my colleagues for their 
participation and their attention to these very important 
public safety matters.
    Another issue that we will address today, in our third 
panel, is vicarious liability. And the subject is something 
that I know Senator Nelson and others have been interested in. 
We'll review a provision in the 2005 SAFETEA-LU bill, added by 
Congressman Graves of Missouri, that preempted State tort laws, 
as they relate to liability for vehicle rental companies. So, I 
look forward to hearing about the impact of that amendment and 
how it has impacted citizens and companies in the various 
states.
    Now what I'd like to I'd like to do at this point, I know 
that Senator Nelson has other committees he has to get to, so 
why don't I recognize Senator Nelson for his opening statement, 
and then we'll go to the witnesses.
    Thank you.

                STATEMENT OF HON. BILL NELSON, 
                   U.S. SENATOR FROM FLORIDA

    Senator Nelson. Thank you, Mr. Chairman.
    I want to thank all the witnesses for participating today. 
And one particular witness, a personal friend of mine, Ira 
Leesfield, is a tireless advocate of justice. He is from 
Florida and he's a tireless advocate, both in the courtroom, as 
well as, outside of the courtroom. For example, he received the 
AJC's Judge Learned Hand Award for preferred excellent--
excellence, in honor of the memory of Judge Learned Hand and 
the principles that that judge stood for, and that was the 
rights of the individual and the importance of democratic 
values in an orderly society.
    Now, Mr. Chairman and Ranking Member Senator Wicker, we 
have a unique situation in Florida, and you're going to touch 
on it in the third panel. We have about 40--minimum 40 million, 
and it's probably approaching 60 million, visitors a year to 
Florida. Of course, our tourism industry is one of our large 
industries. And a lot of those guests come from foreign 
countries. And when they get to Florida, they rent a car. In 
the wisdom of the State legislature, under Governor Jeb Bush, 
they lowered the tort limits, lowering it to $500,000 for 
damage and $100,000 for pain and suffering. That was Governor 
Bush and a Republican legislature.
    But, along comes the Graves Amendment, and it wipes out 
States' rights. A State that has a unique situation, unlike 
Arkansas and unlike Mississippi, tens of millions of visitors, 
many of whom are foreign guests that rent a car, get in an 
accident, and leave the country, and the injured is left 
without compensation. That's why, in the wisdom of Governor 
Bush, in wanting to put limits on tort liability, they lowered 
it, but they lowered it to that 500/100 level.
    But, what happens now, as we--and you've heard me say this 
before; Florida is not only a microcosm of the country, it's 
now a microcosm of the Western Hemisphere--with so many 
visitors coming in from Latin America, Europe--and, of course, 
what are the draws? The draws are our beaches. The draws are 
Miami, an international city. The draws are, obviously, the 
attractions in Orlando. Orlando and Miami are two of the 
largest international airports in the world. And when one of 
those foreign guests gets in an accident, and there is no 
financial liability of the guest, because they're gone, then 
the injured person is up-creek without a paddle.
    I would ask you to consider as this third panel deliberates 
this--this is going to be opposed, of course, by the rental car 
companies, and I understand that. But, rental car companies, 
because of the number of customers that they have, make tens of 
billions of dollars in the State of Florida. And for trying to 
protect people, I would urge that you consider States' rights, 
in the State lawmaking body and its Governor, to know what 
should apply best to the unique circumstances of that State. 
That's not the present situation, with the Graves Amendment, 
and that thoughtful balance was completely overturned.
    Now, let me just say, in closing, before I came here to the 
Senate, I was the elected Insurance Commissioner of Florida. 
And I stood on States' rights for States to have the ability to 
judge what were their best consumer law protections. We count 
on members of the legislature and our elected officials.
    Now, on this committee, you've got former Governors, you've 
got former members of the legislature, you've got former law 
enforcement officers on this committee, all of whom have real-
world experience in preserving the delicate balance of States' 
rights and Federal power. And I hope that this committee will 
draw on that experience in determining this.
    And I believe that, given the unique circumstances that we 
find in our State, that this ought to be an exception to the 
Graves Amendment.
    So, thank you, Mr. Chairman.
    I'm going to go on to these committee meetings, and I will 
try to get back.
    Senator Pryor. Thank you.
    Senator Nelson. If my voice holds out.
    Senator Pryor. I understand. Thank you very much.
    Senator Wicker.

              STATEMENT OF HON. ROGER F. WICKER, 
                 U.S. SENATOR FROM MISSISSIPPI

    Senator Wicker. Senator Nelson's voice has held out very 
well so far.
    Mr. Chairman, I have a very brief statement that I would 
like to give before we allow our witnesses to testify.
    Of course we're holding a hearing today into the safety 
provisions of our last highway bill and the way it is 
administered through NHTSA. These are important programs that 
have a significant impact on highway safety in each of our 
States. The Highway Safety Grant programs have a budget of over 
$600 million for Fiscal Year 2010, so it is very important to 
ensure that the funds are being used effectively and 
efficiently.
    I want to thank Chairman Pryor, for taking this opportunity 
to do oversight.
    Transportation Secretary LaHood recently announced that in 
2009, highway deaths fell to 33,808, the lowest number since 
1950. This decline follows an encouraging trend, as fatalities 
have decreased every year since 2005. Last year's decline 
occurred even though the estimated vehicle miles traveled for 
the year actually increased above the 2008 levels. Forty-one 
states, including my home State of Mississippi, saw a reduction 
in the total number of highway fatalities. The number of people 
injured in a crash also fell for the 10th straight year.
    While these numbers are encouraging and show continuing 
improvement, there are still far too many deaths and injuries 
that occur on our roads. Statistics show that motor vehicle 
crashes remain the leading cause of death for those between the 
ages of 3 and 34.
    The goal of everyone here today is to continue the decline 
in highway deaths each year, and the Federal grants provided to 
the States to implement safety plans play an important role.
    Today, we will learn more about the grants and how they are 
used. We need to discover where they're working well and where 
they could be made more efficient. This should help us make the 
program more efficient for the States and for the drivers and 
passengers on our roads.
    It is important to examine how the States report data and 
how NHTSA utilizes that data to administer the grants 
appropriately. It is also important to learn from NHTSA about 
their plans for the future; how the administration intends to 
continue seeing this decline in accidents.
    There are many exciting developments occurring in vehicle 
safety technology. Each day, it seems we're moving more toward 
the futuristic cars previously only seen in movies, with 
vehicles able to sense trouble before it happens, and in some 
cases, to react for drivers to help keep them safe. It will be 
important to hear from our witnesses as to how these 
technologies are being utilized and what NHTSA's role should be 
in facilitating the next-generation vehicle safety measures.
    We're fortunate to have expert witnesses here today who can 
tell us more about these programs. In our first panel, we will 
hear from NHTSA Administrator Strickland; in our second panel, 
from stakeholders in the vehicle highway safety community.
    I, too, may not be able to make the third panel, but I 
appreciate the insight that my colleague from Florida has 
provided there.
    I want to thank all of our witnesses for being with us 
today and sharing their knowledge and experience. They are 
important resources for us as we review the highway safety 
provisions of SAFETEA-LU, and I look forward to a productive 
hearing.
    Thank you, Mr. Chairman.
    Senator Pryor. Thank you, Senator Wicker.
    And we've been joined by Senator Udall, who I understand 
has to go preside in the Senate, here, in a just a minute.
    So, go ahead----
    Senator Udall. That is----
    Senator Pryor.--make your statement please.
    Senator Udall.--correct, Senator Pryor.

                 STATEMENT OF HON. TOM UDALL, 
                  U.S. SENATOR FROM NEW MEXICO

    Senator Udall. And I thank you for holding this hearing 
today on highway safety programs.
    Highway safety is critical; and, while great steps have 
been made since the enactment of SAFETEA, it's important for us 
to continue to evaluate the safety programs for effectiveness. 
It's also important that we continue to identify ways to 
improve highway safety in the future.
    Combating drunk driving has been a focus of mine for nearly 
20 years, and it will stay a focus until it's eliminated. While 
the existing programs to reduce drunk driving are helping move 
us forward, drunk driving remains the primary cause of fatal 
crashes. Additionally, despite their positive track record of 
reducing recidivism, only 11 States have enacted ignition 
interlock laws for convicted DUI offenders. That's why I've 
introduced the ROADS SAFE legislation that was incorporated 
into the Motor Vehicle Safety Act.
    ROADS SAFE authorizes and increases funding for research 
being conducted by NHTSA and leading automakers as they develop 
vehicle safety technologies to prevent drunk-driving crashes. 
Some describe this effort as a Manhattan Project to end drunk 
driving. The technologies developed in this program could one 
day be used to prevent anyone from driving any vehicle if their 
blood alcohol content is above .08.
    But, drunk driving isn't our only highway safety challenge. 
Our highways can be made safer for all through simple changes 
in behavior. What is critical to understand is how we can help 
encourage these daily changes across the Nation every day so 
that lives will be saved.
    And it's good to see the Honorable David Strickland here, 
Senator Pryor. As Administrator, I know that he, with his 
experience here at the Commerce Committee, is going to put a 
priority on drunk driving and highway safety. And sorry I'm 
going to miss his testimony, since I'm headed off to preside.
    But, I'd also ask to put my full statement in the record.
    Thank you.
    Senator Pryor. Without objection. Thank you for being here.
    [The prepared statement of Senator Udall follows:]

   Prepared Statement of Hon. Tom Udall, U.S. Senator from New Mexico
    Senator Pryor, thank you holding this hearing on highway safety 
programs.
    Highway safety is critical and while great steps have been made 
since the enactment of SAFETEA it is important for us to continue to 
evaluate the safety programs for effectiveness. It is also important 
that we continue to identify ways to further improve highway safety in 
the future.
    Combating drunk driving has been a focus of mine for nearly twenty 
years and it will stay a focus until it is eliminated. While the 
existing programs to reduce drunk driving are helping move us forward, 
drunk driving remains the primary cause of fatal crashes. Additionally 
despite their positive track record of reducing recidivism, only 11 
states have enacted ignition interlock laws for convicted DUI 
offenders. That is why I have introduced the ROADS SAFE legislation 
that was incorporated into the Motor Vehicle Safety Act.
    ROADS SAFE authorizes and increases funding for research being 
conducted by NHTSA and leading automakers as they develop vehicle 
safety technologies to prevent drunk driving crashes. Some describe 
this effort as a ``Manhattan Project'' to end drunk driving. The 
technologies developed in this program could 1 day be used to prevent 
anyone from driving any vehicle if their blood alcohol content is above 
0.08.
    But drunk driving isn't our only highway safety challenge. Our 
highways can be made safer for all through simple changes in behavior. 
What is critical to understand is how we can help encourage these daily 
changes across the Nation everyday so that lives will be saved. NHTSA 
is leading the effort in guiding those changes and I look forward to 
hearing from the witnesses today on how NHTSA will continue to address 
changes needed to improve safety on our roads.

    Senator Pryor. Now, this brings us to our first panel and 
our first witness. And our--this witness, here, is no stranger 
to this committee.
    [Laughter.]
    Senator Pryor. He lived in this committee, was this 
committee, for years and years, and we appreciate his service 
here, and we certainly appreciate his service over at NHTSA. 
So, I'd like to introduce the Honorable David Strickland, 
Administrator, National Highway Traffic Safety Administration 
of the U.S. Department of Transportation.
    Go ahead.

             STATEMENT OF HON. DAVID L. STRICKLAND,

         ADMINISTRATOR, NATIONAL HIGHWAY TRAFFIC SAFETY

          ADMINISTRATION, DEPARTMENT OF TRANSPORTATION

    Mr. Strickland. Thank you so much, Chairman Pryor, Ranking 
Member Wicker.
    This is my first time back before my old subcommittee. It's 
an honor and a privilege to be before you as the Administrator 
of NHTSA. And I look forward to working with this committee and 
the Congress in the going-forward days on preparing for 
reauthorization.
    NHTSA recently released data showing that in 2009 the 
Nation continued to make dramatic progress in motor vehicle 
safety. Fatalities fell almost 10 percent between 2008 and 
2009, and injuries fell by more than 5 percent. There are many 
reasons for this improvement, but Congressional leadership was 
key, for I believe that the grants, research, and other 
programs authorized by SAFETEA-LU, played a key role in the 
significant reduction in highway fatalities. Overall, both the 
number and the rate of fatalities on our roadways have fallen 
by more than 20 percent between 2004 and 2009. Some of the key 
indicators include seatbelt use being up by 6 percent, and 
child passenger restraint use for children 8-years-old and 
younger is up by 6 percent.
    There is one indicator that is moving in the wrong 
direction: motorcycle fatalities. Between 2004 and 2009, the 
number of motorcycle riders killed increased by 11 percent, to 
4,462 riders. However, we did see the first decrease in 
motorcycle fatalities in more than a decade between 2008 and 
2009. We need to build on last year's progress. The most 
important step we could take is to assure that all riders wear 
Department of Transportation-compliant helmets, which are 37 
percent effective in reducing fatalities.
    We estimate that helmets prevented over 1,800 fatalities in 
2008, and at least 800 additional fatalities could have been 
avoided if those riders wore helmets. NHTSA will actively work 
with the Congress to promote helmet use.
    The Nation has enjoyed 17 consecutive quarters of reduction 
in highway crash fatalities, an unprecedented occurrence. Aside 
from the admittedly important exception of motorcyclists, all 
the data is moving in the correct direction.
    It is important to acknowledge that this progress may be 
partly attributable to the economic downturn that this country 
is currently suffering. While overall miles driven have 
increased, we believe that discretionary travel may have 
fallen. Data suggests that these trips are higher risk than 
daily commuting trips. So, as the economy improves, crashes may 
increase somewhat. That makes it all the more important that we 
continue to promote programs that work, and continue to modify 
and revise our approach to further enhance safety.
    Therefore, I'd like to highlight a couple of the programs 
that work very well in SAFETEA-LU.
    The Section 406 Safety Belt Incentive Program provided a 
sizable incentive for States to adopt primary belt laws, and 14 
states either adopted or upgraded their primary belt laws. 
Another 7 states qualify for 406 funds by achieving 2 
consecutive years of observed belt use of 85 percent.
    In addition, 18 states enacted new booster-seat laws, up 
from the 5 states and the District of Columbia that had such 
laws in 2006.
    The Section 410 Impaired Driving Countermeasure Program 
made approximately $650 million available in grants to the 
states between 2006 and 2010. From 2004 and 2009, alcohol-
related fatalities on our roadways declined by 17 percent.
    This Congress also provided $29 million each year to fund 
high-visibility enforcement campaigns to support on-the-ground 
enforcement efforts to reduce impaired driving and increase 
seatbelt use. These funds are used to place paid advertising to 
educate the public, which includes our campaigns ``Over the 
Limit, Under Arrest'' and, for seatbelts, ``Click It or 
Ticket.''
    In addition to building on the successes we have seen in 
SAFETEA-LU, we at NHTSA are looking forward to continuing to 
work with this committee and the Congress on addressing 
evolving risks that we have observed in the traffic safety 
arena, as well as improving countermeasures for our more mature 
risks.
    We have ongoing concerns about pedestrian safety and 
distraction. And we have initiated pilot programs in each of 
these areas in the hope to use the results to guide policy 
recommendations for the next reauthorization.
    We also feel very strongly that encouraging and expanding 
the use of interlocks for those convicted of drunk driving 
would make significant strides in protecting the driving public 
from the ravages of this criminal act.
    Under the leadership of Secretary LaHood, the Department 
looks forward to working with this committee to address highway 
safety challenges of today and in the future.
    Thank you so much for this opportunity to appear before you 
today, and I look forward to answering your questions.
    [The prepared statement of Mr. Strickland follows:]

    Prepared Statement of Hon. David L. Strickland, Administrator, 
             National Highway Traffic Safety Administration
    Mr. Chairman, members of the Committee, it is a great pleasure to 
be back in familiar surroundings to talk with you today about SAFETEA-
LU. Just as previous authorizations have structured NHTSA's safety 
programs in the past--by establishing grant programs, funding research 
areas, and highlighting key issues--the next authorization will shape 
Federal and States safety programs for years to come. Therefore, I am 
very pleased to be invited to share my thoughts on SAFETEA-LU and its 
results.
    Secretary LaHood recently released data showing that in 2009, the 
Nation continued to make dramatic progress in motor vehicle safety. 
Fatalities fell almost 10 percent between 2008 and 2009, and injuries 
declined by more than 5 percent. Fatalities fell in 41 States, the 
District of Columbia, and Puerto Rico. Many factors help account for 
this broad-based, nationwide improvement. Secretary LaHood has been 
focused on safety since his first day in office, and his example and 
persistence have inspired me and all of NHTSA to redouble our efforts 
to fight unsafe driving behaviors. Our State and local partners, who 
are in the field every day, enforcing traffic laws, training new 
drivers, developing local outreach campaigns, and otherwise promoting 
safety, are obviously crucial in the progress we have seen. But part of 
the progress is attributable to Congress, for I believe that the 
grants, research, and other programs authorized by SAFETEA-LU played an 
important role in the significant reduction in highway fatalities.
    As the chart (See last page) shows, almost all the safety 
indicators we monitor indicate that safety has improved since the 
passage of SAFETEA-LU. Overall, both the number and the rate of traffic 
fatalities have fallen by about 21 percent between 2004 and 2009. Some 
of the other rows in the chart suggest why the number may be falling: 
seat belt use is up by 5 percent, and child passenger restraint use 
among occupants 8 years old or younger is up by 6 percent.
    However, you will notice that there is one indicator that is moving 
in the wrong direction, motorcycle fatalities. Between 2004 and 2009, 
the number of motorcycle riders killed increased from just over 4,200 
to almost 4,462, an 11 percent increase. The number of motorcycle 
fatalities did fall between 2008 and 2009, the first time we have seen 
a decrease in more than a decade. We need to work to build on last 
year's progress. The most important step we could take would be to 
assure that all riders wear a DOT-compliant helmet, which are 37 
percent effective in reducing fatalities. We estimate that helmets 
prevented over 1,800 fatalities in 2008, and that more than 800 
additional fatalities could have been avoided if all riders wore 
helmets. NHTSA will actively work with Congress to promote helmet use.
    This chart demonstrates that overall, the programs Congress created 
in SAFETEA-LU, and the tools that were provided to NHTSA, had the 
intended effect. The Nation has enjoyed sixteen (16) consecutive 
quarters of reduction in highway crash fatalities, an unprecedented 
occurrence. Aside from the admittedly important exception of 
motorcyclists, the data are moving in the correct direction: belt use 
is up, alcohol impaired fatalities are down, and overall fatalities and 
injuries are falling.
    It is important to acknowledge that this progress may be partly 
attributable to the economic downturn the country continues to suffer 
through. While overall traffic has increased, we believe discretionary 
travel may have fallen. Data suggests these trips are higher risk than 
daily commuting trips. So as the economy improves, crashes may increase 
somewhat. That makes it all the more important that we continue to 
promote programs that work, and continue to modify and revise our 
approach to further enhance safety. Therefore, I would like to spend a 
minute discussing why that is, what we think worked in SAFETEA-LU.
    First, SAFETEA-LU established the Section 406 Safety Belt Incentive 
program. This program provided a sizable incentive for States to adopt 
primary belt laws, and fourteen (14) States have either adopted new 
primary belt laws (PBLs), or upgraded existing laws because of this 
incentive. Another seven (7) States qualified for Section 406 grants by 
achieving two consecutive years of eighty-five percent (85 percent) 
observed safety belt usage. Enactment of a primary safety belt use law 
is one of the most important safety countermeasures available. States 
enacting primary belt laws typically see about a 10 percent increase in 
belt use, and belts have been shown to be about 50 percent effective in 
reducing fatalities, still the single most important piece of safety 
equipment in a vehicle. The Section 406 incentive program clearly had a 
positive effect in increasing safety belt usage across the Nation and 
contributing to the reduction in highway fatalities through the 
authorization period.
    In addition, 18 states enacted new booster seat laws, up from the 5 
States and DC that had such laws in 2006. These laws are crucial in 
protecting our youngest and most vulnerable citizens.
    The Section 410 Impaired Driving Countermeasure Program made 
approximately $650 million in grants available to the States from 2006-
2010. During the same period, alcohol-related fatalities on the 
Nation's highways declined by seventeen percent (17%) from 13,099 to 
10,839. This reduction reflects the hard work of the agency, States and 
communities, law enforcement agencies across the nation, and the non-
governmental organizations that work so hard to prevent impaired 
driving crashes.
    Congress also provided in SAFETEA-LU, $29 million each year to fund 
high visibility enforcement campaigns to support law enforcement 
efforts on-the-ground to reduce impaired driving and increase safety 
belt use. These funds are used to place paid advertising to educate the 
public about the ``Over the Limit. Under Arrest.,'' impaired driving 
national crackdown, and the Click It or Ticket, national safety belt 
usage mobilization. High visibility enforcement is a very successful 
model for achieving highway safety behavior modification and our 
national enforcement campaigns, particularly Click It or Ticket, have 
become a part of the national lexicon. We are piloting this approach 
for dealing with distracted driving in Hartford and Syracuse, and the 
early results look very promising.
    SAFETEA-LU also had some special emphasis areas including annual 
funding for older driver safety and for law enforcement training on 
police pursuits. The older driver program has resulted in the creation 
of a variety of programs aimed at older drivers, particularly related 
to improving the scientific basis of driver licensing decisions through 
the development and promotion of driver fitness medical guidelines. 
During the authorization period, fatalities involving drivers age 65 
and older dropped by 16 percent even while the population of older 
drivers continued to increase. While older individuals exhibit safer 
behavior--in fatal crashes, they are less likely to be alcohol impaired 
and more likely to be buckled--too many older citizens continue to die 
in fatal crashes. NHTSA has also worked with law enforcement 
organizations to develop vehicular pursuit training, which helps 
promote the safety of public, the violator, and the officer. NHTSA and 
the International Association of Directors of Law Enforcement Standards 
and Training (IADLEST) have partnered to develop and provide a 
comprehensive pursuit policy program. Over 400 instructors have been 
trained, and workshops are in progress which, among other components, 
encourage law enforcement agencies to analyze current pursuit policies 
and training requirements.
    Apart from safety countermeasure programs, SAFETEA-LU continued a 
grant program structure with multiple grant programs addressing 
individual countermeasures such as impaired driving, occupant 
protection, motorcycle safety, child and booster seats, data 
improvement, and the highway safety formula grant program. These 
multiple grants often come with different application deadlines, 
different State matching requirements, and different types of 
eligibility requirements. While providing maximum flexibility to States 
to qualify for grant funding during a Fiscal Year, and ably advancing 
programmatic objectives in each area, these multiple application and 
matching requirements create resource administration problems for the 
States, as well as the Department of Transportation. In SAFETEA-LU, 
Congress directed the DOT to consolidate grant applications, by 
establishing a process whereby States could apply for all grants with a 
single application. Unfortunately, the Department was unable to meet 
this mandate, due to the large number of grant programs and the wide 
variation in grant criteria. In particular, some grants depend on 
States passing a certain law to be eligible for a grant that year. The 
potential to qualify for different grants at different points of the 
Fiscal Year makes establishing a consolidated grant application 
impossible.
    We look forward to a fruitful dialogue with the Committee and our 
State and non-governmental partners on potential methods for dealing 
with the administrative as well as programmatic requirements of our 
national highway safety program. NHTSA has worked with, and will 
continue to work with, other U.S. DOT agencies that have a role in 
improving highway safety within the Department. That includes RITA 
regarding the ITS Program; FMCSA regarding commercial vehicle safety; 
and FHWA regarding the roadway infrastructure design and operations, as 
well as for the Strategic Highway Research Program (SHRP2).
    SAFETEA-LU has been a very successful piece of legislation. The 
Committee, the Congress, the multiple constituencies with an interest 
in the transportation program and we at the Department can look back on 
SAFETEA-LU and know that it helped our Nation make significant strides 
in improving highway safety.
    We can be proud of what has been accomplished but also recognize 
that so much more needs to be done. Clearly, even with the lowest 
absolute fatality number since 1950 and the lowest fatality rate number 
in our Nation's history, more than 33,000 fatalities a year on our 
highways is not a number that we can accept. We need to renew our 
commitment to finding new and better ways to reach those difficult to 
reach populations to change their behavior, to make vehicles safer, to 
develop new technologies to improve our safety margin, so that we can 
continue to make steady progress in reducing this preventable epidemic 
of roadway crashes.
    We must also anticipate new areas for fruitful effort, such as 
initiatives to address driver distraction, to address issues before 
they become serious, national problems.
    Under the leadership of Secretary LaHood, the Department looks 
forward to working with this Committee to address the highway safety 
challenges of today and into the future. I appreciate the opportunity 
to be with you today and will be happy to try to answer any questions 
you may have.

                SAFETEA-LU Safety Performance Indicators
------------------------------------------------------------------------
                                              2004     Current   Change
------------------------------------------------------------------------
Total Fatalities                              42,836    33,808      -21%
MC Fatalities                                  4,028     4,462      +11%
Fatality Rate                                   1.44      1.13      -22%
Alcohol Impaired Fatalities                   13,099    10,839      -17%
Belt Use Rate                                    80%       85%       +6%
Child Restraint Use, <8                          82%       87%       +6%
Universal Helmet Laws                          20+DC     20+DC        NA
PBL                                            21+DC     31+DC      +48%
------------------------------------------------------------------------


    Senator Pryor. Thank you very, very much. And thank you for 
your statement.
    And you, along with all the other witnesses, will submit 
your written testimony for the record. So, thank you for 
providing that to the Committee.
    Let me just dive in here with a few questions. I actually 
have prepared, literally, 9 pages of questions about these 
various grant programs, and we can go through a lot of detail 
and a lot of minutia on it. I may submit some of those for the 
record and let you respond to those so I don't take up some of 
my colleagues' time here. But, I do have an overall question 
first, and that is: I know the Administration is looking at the 
next highway bill, and I'm wondering, if you know--and you may 
not know--but is the idea of increasing the fuel tax to fund 
more infrastructure and more highway safety programs--is that 
being discussed within the Administration, and could you give 
us a quick update on that?
    Mr. Strickland. Well, there's really not too much of an 
update, Senator. I apologize for that. But, I can say that 
there are active and ongoing conversations about the funding 
mechanisms of the next highway bill. The successes of the fuel 
economy laws and rules that this Congress passed, and that 
NHTSA and EPA have implemented, have clearly reduced our fuel 
consumption in America, which has impacted the gas tax. So we 
recognize that we'll have to find a way forward in funding our 
next reauthorization. Those conversations are ongoing between 
all of the agencies affected, and we will definitely return to 
the Congress when we have that answer.
    Senator Pryor. You know, one of the things I pick up in my 
State, even from the folks who want lower taxes and less 
government, they still are comfortable with us investing in 
infrastructure. That's a--it's kind of a fundamental government 
responsibility, and it works, you know, to the overall good of 
society and to the various communities around the State--I mean 
around the country.
    Mr. Strickland. Actually, I'd like to add one thing about 
infrastructure, Senator. I think it's absolutely right in terms 
of our investment for the state of good repair, and obviously 
in the areas that clearly need new infrastructure for growth 
and efficiency. But, infrastructure is just a part in the 
safety calculus. The changes that have been made by the Federal 
Highway Administration in support of the States--good 
infrastructure has actually saved thousands of lives, as well, 
and that cannot be overlooked as we have this overall 
discussion about NHTSA's programs and the work of this 
committee.
    Senator Pryor. Right, I agree with that. And I think that 
there's no question that we should put more money in 
infrastructure, and I think we ought to put more money into the 
safety programs, as well. And my guess is that we'd have a lot 
of safety groups and folks from all over the country who would 
agree with that. But, the balance we have to find is, you know, 
How much is enough? I mean--in one way, there's never enough. 
We can always put more and more and more into it.
    Mr. Strickland. That's true.
    Senator Pryor. But, we have to find that balance, and 
that'll be a challenge for us as we go through this. But, one 
question I have for you is the issue of collecting accurate 
data and accurate information from the States. We've heard from 
various States. In fact, I'd like to submit a letter, for the 
record, from the Arkansas State Police.
    [The information referred to follows:]

                   State of Arkansas--Arkansas State Police
                                Little Rock, AR, September 23, 2010

Hon. Mark Pryor,
Senate Consumer Protection, Product Safety, and Insurance Subcommittee,
Senate Commerce, Science, and Transportation Committee,
Washington, DC.

Dear Chairman Pryor:

    In advance of the September 28, 2010 Subcommittee hearing on the 
Federal highway safety programs, I would like to submit comments for 
the record. As the Director of the Arkansas State Police and the 
Governor's Highway Safety Representative for Arkansas, I am a member of 
the Governors Highway Safety Association (GHSA). GHSA is a non-profit 
association that represents state highway safety agencies. GHSA's 
members administer Federal behavioral highway safety grant programs.
    Highway Safety continues to be an important issue in the State of 
Arkansas. Traffic related fatalities and injuries continue to be a 
major public health problem in this country and in Arkansas. Although 
we have made some progress, there were still more than 500 traffic 
fatalities and 13,000 injuries in Arkansas last year. Traffic crashes 
not only cause devastation to families and individuals, but they also 
cost the State an estimated $2 billion in economic loss annually.
    To address this problem, the Federal Government must make highway 
safety a national priority and play a strong role in developing highway 
safety policies and programs. I concur with GHSA's position on 
reauthorizing the Federal highway safety programs. Specifically, GHSA 
urges Congress to:

  <bullet> Maintain a Strong Federal Role in Highway Safety

  <bullet> Develop a National Strategic Highway Safety Plan

  <bullet> Emphasize performance-based planning

  <bullet> Enhance funding for data improvements

  <bullet> Consolidate grant programs and streamline grant program 
        administration

  <bullet> Enhance flexibility

  <bullet> Improve incentive programs and address such areas as 
        aggressive driving and speeding, teen driving and distracted 
        driving

  <bullet> Strengthen state programs through accountability, training 
        and research

    One area of particular importance to Arkansas is the recommendation 
to enhance funding for data improvements. To set appropriate 
performance goals and measure progress, states need adequate data. 
Unfortunately, obtaining good data is not a simple task. The Section 
408 (23 U.S.C. 408) data improvement incentive grant program has helped 
states improve their highway safety information (traffic records) 
systems, with particular focus on improvements to the crash data 
systems. However, this program is funded at only $34.5 million a year 
and Arkansas receives only the minimum $500,000 annually. 
Unfortunately, enhancements to data systems are very expensive and 
require sustained resources. Improvements to automate our crash 
database alone cost millions.
    Furthermore, in Arkansas, as in other states, we are increasingly 
funding improvements to other components of our traffic records 
systems, such as electronic citation and emergency medical services 
information systems. With the expectation to collect performance data 
from the various systems comes a great need for adequate funding to 
automate data collection and make other improvements to enhance data 
sharing.
    Also, I would like to emphasize opposition to new sanctions. I 
concur with GHSA's position that incentives are a more appropriate 
method to encourage state action. In Arkansas, the Section 406 (23 
U.S.C. 406), Safety Belt Performance Grant, proved successful by 
providing additional incentive for the state to pass a primary seat 
belt law in 2009. The State received a one-time grant award for highway 
programs. These funds are being put to good use in addressing the 
State's highway safety problems, especially in program areas where 
there is little or no available funding. First of all, the state was 
able to use these funds to educate the public about the new primary 
seat belt law. In addition, the funds are providing resources in other 
needed areas such as for the implementation of the State's electronic 
citation system, to formulate a program to combat aggressive driving, 
and for teen driver safety.
    Lastly, I would encourage Congress to carefully consider the 
pending distracted driving proposal, S. 1938, which would provide 
incentives to states that satisfy certain eligibility criteria. 
Currently, there are only eight potentially eligible states (Arkansas 
is not included). However, even those states would not qualify because 
the criteria are too stringent. We concur with GHSA's recommendation 
that this proposal be reexamined and adjustments made to allow more 
states to qualify and receive the necessary funds to implement 
appropriate countermeasures to address this emerging problem. The 
reauthorization provides an opportunity for Congress to address 
distracted driving in a thoughtful and comprehensive manner.
    I applaud you and the Subcommittee for your work on highway safety 
and I appreciate the opportunity to provide these comments for your 
consideration.
            Sincerely,
                               Colonel Winford E. Phillips,
                          Governor's Highway Safety Representative.

    Senator Pryor. And I know other Senators here may have 
other documents to submit. We'll be glad to do that.
    But, I know that collecting accurate data is a challenge, 
and I know that there is a program; you know, it's probably 
underfunded, because, you know, I think my State only gets 
$500,000, and that's not a whole lot of money to really try to 
improve your technology and make your data more accurate.
    But, are you finding that with other states? And what is 
NHTSA's view on how we can improve the accurate collection of 
data?
    Mr. Strickland. Oh, certainly. Data is the backbone of what 
we do, in terms of being able to identify risks and being able 
to find the proper countermeasures, and seeing the 
effectiveness of those countermeasures. Traffic records is one 
of them. As we funded traffic records in the Section 408 Grant 
and the National Driver Register, we've been hearing from all 
the states, of needing more resources in this area, not only 
for better collection, but the ability to share that data with 
the Federal Government and with the States. So, it's something 
that we look forward to working with this committee on in 
trying to make sure we can improve the efficiency and the usage 
of the resources and trying to find a way forward to continue 
our work in modernizing all of our data collection, whether 
it's the FARS or the NASS or if it's in traffic records.
    Senator Pryor. OK. And my last question, until I turn it 
over to Senator Wicker, is--there's this new, emerging 
challenge of distracted driving. And I think that--obviously, 
with cell phones and other things, but now, with text and just 
general mobile Internet access, et cetera, it has become a real 
challenge. I know that Secretary LaHood has been on this issue. 
I know he has had it--at least one, maybe many conferences on 
this to try to bring awareness and try to bring consensus on 
this issue. And Senator Rockefeller has filed a bill, as well.
    And I don't know if you've had a chance to look over the 
Rockefeller bill and if you think that that's a good starting 
point, or if you think Senator Rockefeller has, you know, 
figured it out and we just ought to adopt it as-is. Or, I 
didn't know if you had a--any thoughts on the Rockefeller bill 
or any recommendations at this point.
    Mr. Strickland. Well, you've sort of put me on the spot, in 
terms----
    [Laughter.]
    Mr. Strickland.--of Senator Rockefeller's legislation. And 
I was----
    [Laughter.]
    Senator Pryor. That's why you're here.
    Mr. Strickland.--I was his Senior Counsel in the Consumer 
Protection Committee--and part of the drafting of that piece of 
legislation, so I'm officially meeting myself around the corner 
on that particular question.
    We believe, at DOT, that anything that incentivizes the 
creation of strong texting and hand-held cell phone laws should 
be supported. Senator Rockefeller's bill definitely does that, 
providing incentives of up to $50 million to the States to 
encourage hand-held cell phone bans and texting bans. We are 
very much in support of that proposition, and we're supportive 
of all of the efforts that may move the fight on distractive 
driving forward.
    Secretary LaHood has been very fixated on distraction. In 
addition to the second Summit that we held, on the 21st, which 
was very well attended--over 600 people from around the country 
came and met to discuss about the way forward on distraction--
NHTSA's also in the process of working with the State of New 
York and the State of Connecticut on two pilot programs with a 
high-visibility enforcement campaign. It's called ``Phone in 
One Hand, Ticket in the Other.'' We've had amazing results in 
the reduction of drivers that are texting and using hand-held 
cell phones. I am happy to talk about that in more detail, but 
thank you so much for the question.
    Senator Pryor. Great, thank you.
    Senator Wicker.
    Senator Wicker. Well, thank you very much, and thank you 
for your testimony.
    Senator Nelson, before he left, was speaking about the 
wisdom of State governments. So, let me follow up on that with 
a couple of claims from the Governors Highway Safety 
Association.
    First of all, each State has a strategic highway safety 
plan, but, in their testimony that will follow, the Governors 
Association discusses the lack of a national highway safety 
plan. Do you believe that the lack of such a plan has resulted 
in fragmentation of Federal behavioral highway safety 
resources? And should we have such a national plan?
    Mr. Strickland. Well, Senator Wicker, the work of NHTSA and 
the Department of Transportation is dealing with our long-term 
goal-setting for both the States and the country. Our 
activities, in terms of our management reviews, in terms of us 
providing data and guidance to the States, effectively creates 
that national framework to which you are alluding to. Now, do 
we have a stated overarching national plan like some of the 
European countries have? We do not. But, we also have a much 
different system, in terms of how we organize and we work with 
the States. The one thing that we have learned over the years 
is the waxing and waning of how the Federal Government 
interacts with the States. And, over our several highway bills, 
that relationship has evolved and improved. I think that 
keeping the flexibility of the States, while at the same time 
having the leadership of the Department of Transportation, 
creates the coordination where I think we gain those 
efficiencies of scale.
    However, any notion of improving that coordination is 
always a good thing, and we're happy to work with this 
committee, working with our stakeholders, and GHSA, in trying 
to find a way forward in better coordination in that area.
    Senator Wicker. It does seem a bit ironic, that States are 
coming forward and saying we need more of a Federal plan, and 
the Federal Government is seemingly talking about State 
flexibility and federalism.
    But, I'll move on to the next question--again with regard 
to the Governors Association. They somewhat complained that 
there are too many incentive grants and there are too many 
different applications and deadlines. Are you familiar with 
that----
    Mr. Strickland. Very.
    Senator Wicker.--complaint? The Governors Association 
testifies that the behavioral grants should be consolidated 
into one program with earmarks for specific issues. So, what do 
you say to that? Would this be a better way to administer the 
behavioral highway safety grants?
    Mr. Strickland. The work in SAFETEA-LU that was taken up in 
this committee, and in the Congress ultimately, worked to 
consolidate the number of incentive grants, for this very 
reason. And I know----
    Senator Wicker. So, there were more before----
    Mr. Strickland. Yes, there were.
    Senator Wicker.--SAFETEA-LU?
    Mr. Strickland. Absolutely.
    Senator Wicker. Yes.
    Mr. Strickland. We consolidated several of them. And as we 
walk into this reauthorization, we are looking to once again 
lower the administrative burdens for the States and to 
consolidate and make things more efficient, in the right way. 
The one thing we have to be mindful of is that, as we are 
providing these resources and these programs that are backed by 
research, that it has to be data-driven. We want to provide the 
right flexibility, but, if you consolidate too much, you may 
end up having improper allocation of resources.
    I think that we need to have an ongoing conversation with 
the States in how we consolidate, but we, at NHTSA and the 
Department, do believe that we can make this process more 
efficient and less burdensome to the States, and we're looking 
forward to working with them, to find a way to do that going 
forward.
    Senator Wicker. And one other thing, Mr. Chairman, and then 
I'll turn it over to Senator Klobuchar; and that is to follow 
up on the Chair's statement about distracted driving.
    Let me make it clear, every member of this committee is 
interested in doing what we can to prevent accidents caused by 
distracted driving. It's just important, in my judgment, that 
whatever we do and whatever scarce resources we have, be spent 
on research-based results--research-based facts.
    The Highway Loss Data Institute just released a new study 
claiming that they have not found a reduction in crashes after 
laws take effect that ban texting by all drivers. As a matter 
of fact, there's some research to indicate that, in those 
States, drivers actually take steps to hide their texting, and 
it results in higher claims and higher accidents. If that's the 
case, then we need to know that. It may seem counterintuitive, 
but I think we need to base our funding and base our actions on 
the real research.
    Also, the Insurance Institute for Highway Safety found a 
four-fold increase in the risk of injury crashes associated 
with phoning. Their hypothesis is, not only are drivers not 
complying with the ban, but they are recognizing that using 
their cell phones is illegal, and they're trying to hide their 
behavior, which, I mentioned earlier, could exacerbate the risk 
of drivers taking their eyes off the road.
    There are a lot of forms of distracted driving. I know that 
the young people, who are perhaps the age of my staffers, can 
take an iPod now into the car, and play that iPod, and there 
may not be a law against that, but it would very severely 
distract someone of my technical knowledge.
    My daughter was injured in a distracted-driving accident. 
In that case, the driver was changing a CD, which strikes me as 
a very dangerous maneuver that, obviously, is done every day, 
tens of thousands of times, by drivers. It may be that working 
with an iPod or changing a CD in your CD player is more 
dangerous than talking on a telephone or texting on a 
telephone. I don't know. But, I think if we're going to go at 
the problem, we need to go at it based on real research and not 
just what seems to us to be the best way to handle that.
    So, I can assure you, having had my first-born child 
injured in a car accident caused by distracted driving, I want 
to get at the worst kinds of distracted driving. I don't hear 
anybody talking about changing CDs or playing music or changing 
the time on a clock, or eating while driving down the road. I 
just want to make sure that we are targeting the most dangerous 
kinds of distracted driving.
    Mr. Strickland. Mr. Wicker, I could not have said it better 
myself, in terms of following----
    Senator Wicker. Oh, you probably could have.
    Mr. Strickland.--and following the research. That's what we 
are committed to do. We have a long-term research plan that we 
have provided to the Congress, in terms of how we are going to 
approach our research. I want to address a couple things that 
you mentioned in your question to me.
    First, about the Insurance Institute for Highway Safety's 
research. My staff and I are very familiar with this. We have a 
lot of concerns about how the study was conducted, because 
their methodology did not control for factors that affect the 
number of crashes, like enforcement, like education programs, 
like high-visibility campaigns, which we are currently 
undertaking in Hartford, Connecticut, and in Syracuse. In those 
two States where we have had high visibility campaigns along 
with strong enforcement, we have seen, in Hartford a 56-percent 
drop in hand-held use; and in Syracuse, New York, we had a 38-
percent reduction in hand-held cell phone usage. For texting, 
it was 68 percent in Hartford, and 42 percent in Syracuse.
    Frankly, I think that the Insurance Institute's analysis 
really is taking a look at data that is based on a lot of laws 
that may not necessarily be strictly enforced. There are a lot 
of other factors that are in play, and we have several 
questions out to the Insurance Institute about their 
methodology. Frankly, we take a lot of this to task, and we 
believe that our research, ongoing and what we know right now, 
actually does identify the proper risk.
    So, while we stand forward and we are willing to take any 
research, we want to make sure that it is scientifically valid 
and sound, and we have significant questions about that HLDI 
study.
    On your second point, about other issues that may be 
distracting, you're absolutely right. Actually, the most 
distracting thing in your car that we found in our statistics 
is an insect. Insects are off the charts. The number of crashes 
correlated to having a bee or something in your car is well 
above texting and handling a cell phone. Eating, having active 
teenagers in the backseat of the car, with the teenage driver, 
there are all kinds of things that are distractions. Bottom 
line being is this----
    Senator Wicker. That little pig going ``wee, wee, wee.''
    [Laughter.]
    Mr. Strickland.--oh, that little pig, exactly, that----
    [Laughter.]
    Mr. Strickland.--he's especially annoying.
    But, the point being--is this. The driver's job behind the 
wheel is to drive. Hands at 10 and 2, and being alert and 
aware. Whether you're handling a CD, handling an iPod, eating a 
double cheeseburger, or playing with your radio, all of those 
things are distracting. You should have your eyes on the road. 
Our statistics have shown that if your eyes are off the road 
for more than 4 seconds, your risk of accidents are just 
exponentially higher.
    So, you're absolutely right. It isn't just about texting 
and driving using your phone; it's about all distractions. Our 
work at NHTSA is encompassing education and enforcement 
programs to deal with all of that.
    Senator Wicker. Just briefly, you're not suggesting that 
the Insurance Institute for Highway Safety would have a reason 
to skew their numbers or cook the research----
    Mr. Strickland. Oh, no, I'm not saying that they're having 
their fingers on influencing research in any particular way. I 
just think their data is wrong.
    Senator Wicker. I see. Thank you.
    Mr. Strickland. Thank you.
    Senator Pryor. Senator Klobuchar.

               STATEMENT OF HON. AMY KLOBUCHAR, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Klobuchar. Well, thank you very much.
    And thank you also for bringing that up, Senator Wicker.
    And I think you got a sense--Administrator Strickland came 
to my State and kicked off a Distracted Driving Summit, and 
there were hundreds and hundreds of teenagers, and he not only 
impressed them with how cool he was, because he read his whole 
notes off the iPad--they were literally, like, ``Whoa''----
    [Laughter.]
    Senator Klobuchar.--but then just his passion for the issue 
and the way he could relate to these kids by talking about 
double cheeseburgers, it really worked. And so, I think that, 
if I could paraphrase what you were talking about here, it's 
just--it is--putting these laws on the books can never be a bad 
thing, but it's what you do with those laws. And so, that's 
what I want to approach, a little bit. And you want to get the 
message out that it's--you don't want to be texting while 
you're driving. I actually think it would be helpful for 
certain enhanced penalties for when people get--just--I'm 
looking at my old prosecutor's job--sometimes it's a per se 
violation, if someone's killed or maimed, if you have a DW---a 
blood alcohol above a certain level. You could say the same 
thing with texting; if you're texting, it's a per se. I think 
that would be helpful. But--and those are actually easier to 
enforce and prove, because when someone's--dies or killed, 
that--someone's killed or is hurt, then that's a huge police 
investigation.
    But, for the everyday driver, could you talk a little bit 
about the enforcement? And we know we're not going to be able 
to pick up every single person who's texting. But, I've seen, 
with seatbelts, having those days where people know they're 
going to do--that the cops are going to do it, it can have a 
long-term effect.
    And I guess, just with the seatbelt issue, if you could 
talk, or maybe look for me, on data showing that--when they 
first put out seatbelt laws, I bet you it didn't change 
anything the next year.
    Mr. Strickland. You're right.
    Senator Klobuchar. But, over time, as there was enforcement 
mechanisms, as things happened, it did change seatbelt use, 
which I understand is one of the main reasons we're having less 
fatalities on the road.
    So, do you want to talk about this in the context of 
history with seatbelts?
    Mr. Strickland. Absolutely, happy to, Senator Klobuchar, 
and thank you for the opportunity.
    The seatbelt program, actually, the ``Click It or Ticket'' 
program, began in North Carolina in 1984. We adopted it at the 
national level and really began putting resources and taking it 
nationwide in 2001. Before we began our wide enforcement 
messaging on seatbelts, seatbelt usage was at 60 percent in 
America--six-zero. Today for 2009, our seatbelt rate use is up 
to 85 percent now. That's because, when you have high-
visibility campaigns advertising at the times when people are 
watching TV during major television events, sporting events, 
and then you have cops everywhere enforcing the law, and you do 
it on a regular basis, people get the message. They recognize 
the fact that it's points on your license, it's a huge fine, 
and behavior changes. We've seen that.
    We've only been at it for about a few months with the same 
type of campaign, on distracted driving, ``A Phone in One Hand, 
Ticket in the Other.'' But, as I conveyed to Senator Wicker, 
just a few moments ago, our results are just fantastic. We are 
looking at huge reductions in people using their hand-held cell 
phone and people texting, because when you have waves of police 
officers giving tickets--they've given over 4,500 tickets in 
Syracuse, New York, and they've given about 4,200 tickets out 
in Hartford, Connecticut. The first day we kicked that campaign 
off, they gave out 250 tickets in an hour in Syracuse, New 
York. I'll guarantee you that people spread the word. When 
people know that you're getting pulled over for using your 
phone, people stop using their phone. That's what we're seeing.
    We're going to wait for the full pilot to complete. It 
takes a year for us to finish the pilot, but I am very 
heartened by these results and what we've seen from belts and 
what we've seen from impaired driving--``Over the Limit and 
Under Arrest''--I feel very strongly that this exact type of 
process and campaign and enforcement will work for distracted 
driving.
    One last note. The captain from Syracuse, New York, 
actually came to the Distracted Driving Summit, last week, and 
talked about how they are learning countermeasures and evolving 
and figuring out how drivers adopt behavior and try to sneak 
in--they figured out how to position themselves and how to look 
into the cars. Not only are they effective, but they're getting 
better. The more that we do this type of thing, and the more 
that we do it in more States around the country, I think the 
more effective this program will be, and we're going to see 
huge numbers move, just like we did in seatbelts.
    Senator Klobuchar. Yes, I mean, it just goes without--
anyone who has driven and has tried doing this--and I know a 
lot of people in this room have--and you've had that moment 
where you sort of veer off the road a little bit, and you get 
back on, and you think, ``If someone had been standing there, 
if someone had been on a bicycle, if another car had been 
there, that would have been it.''
    So, it just--for me, we don't need the evidence that it's a 
problem. We know that. And we have the decrease in fatalities, 
due to seatbelt laws and due to DWI laws. But I think what I 
remembered from speaking at your conference, and the research 
we did, there still had been some increase with teen accidents 
and teen driving that people believe is related to this, the 
texting.
    There are two approaches--was brought up--Senator 
Rockefeller's bill--as we look at how to get States to come 
onboard with this. One is the carrot approach. I support both 
of these, am on both bills. One is the stick approach. I 
wondered if you wanted to comment, weigh in on these two 
different approaches. The stick being with highway funds, to 
try to get States to move on distracted driving laws, who 
haven't moved; and the other is incentives.
    Mr. Strickland. The Department of Transportation believes 
in any methodology that improves safety. We find that 
incentives have worked. We've found that sanctions have worked. 
We support both.
    Senator Klobuchar. OK, very good. Thank you for that.
    The other bill that I wanted to mention was a bill I have 
with Senators Gillibrand and Dodd, the STANDUP bill, with--it 
looks like graduated driving standards. This isn't just about 
texting; this is about realizing that there is such a much 
higher accident fatality rate with teenaged drivers, and 
especially when they're younger.
    Many States, like mine, have graduated drivers licenses 
and--where you get--you know, you can only drive with a parent 
at first, and then you work your way up.
    What do you think? Do you think those work? And do you want 
to comment on graduated licensing?
    Mr. Strickland. Absolutely, the STANDUP Act is a great 
piece of legislation, and we're very supportive of what you're 
trying to do in that bill.
    Graduated drivers licenses is the foundation for teaching 
young drivers how to be good citizens of the road. Now, we've 
seen variance in the rigidity and the strictness of graduated 
drivers license laws around the country. We support good, 
strong ones, which really have younger drivers driving with 
adults, making sure that they don't have other teen passengers 
in the car to distract them, that there is good educational 
component along with the on-road experience. There are real 
opportunities for graduated drivers licenses, and the States 
that have good laws have shown remarkable increases in safety 
of teens, and we are very supportive of all GDL laws that take 
that really strong approach.
    Senator Klobuchar. Well, I will report that to my 15-year-
old daughter, because she smiled when I told her, and said 
``I'll be driving for a long time before you ever get that 
through Congress.''
    [Laughter.]
    Senator Klobuchar. The other thing, I wanted to thank you 
again for including me in that Distracted Driving Summit. I 
thought it was incredible. I think Secretary LaHood's 
leadership, your leadership, has been just so strong on this. 
And, to me, a lot of this--we've got to get these laws in 
place. It's pretty simple. Then we have to get that education 
campaign; and that, combined with enforcement.
    We've got a roadmap from work with seatbelts. We know how 
we can do this, where it won't be that expensive. What's 
expensive is all the lost lives and the accidents and 
everything that's happening because of this distracted driving. 
So, I want to thank you for that.
    And also, I will tell you, Mark, if--Senator Pryor--if you 
ever go to the Distracted Driving Summit, it is the most 
attentive audience in the world.
    [Laughter.]
    Senator Klobuchar. No one is doing a BlackBerry, and they 
all listen. So, I highly recommend it.
    Thank you very much.
    Mr. Strickland. No, Senator, thank you. And thank you for 
your attendance at the Summit. We really did appreciate that 
and thank you for your ongoing leadership in this area.
    Senator Pryor. Mr. Strickland, thank you for being here 
today. And, like I said, I have some follow-up questions that 
I'll submit in writing. We're going to leave the record open 
for 2 weeks, so we'd love to get those to you as quick as 
possible. And I'm sure some others have those, as well.
    Thank you.
    Mr. Strickland. Yes, sir. Senator, I'd also like to submit 
for the record this chart, on our SAFETEA-LU Performance 
Measures, that I have on display. It gives a summation of all 
of our programs and the impact they've had on moving safety 
forward.
    Senator Pryor. OK, great. Well I appreciate that. Yes, 
we'll make that part of the record.
    [The information referred to follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    

    Senator Pryor. And I do have one follow-up question. Again, 
it relates to Senator Rockefeller, who couldn't be here today. 
But, I--there's a--NHTSA is undergoing the Occupant Ejection 
Mitigation Rule.
    Mr. Strickland. Yes.
    Senator Pryor. Do you have an update on that for the----
    Mr. Strickland. Yes, I do, actually.
    Senator Pryor. I know that you guys are looking at trying 
to reduce the number of ejections and, you know--you know the--
--
    Mr. Strickland. Absolutely.
    Senator Pryor.--statistics better than I do. But, I know 
that you guys are in process, so if you could give us that 
update, that'd be great.
    Mr. Strickland. Absolutely. In December 2009, we issued our 
Notice of Proposed Rulemaking on the ejection mitigation 
standard. What this deals with is protecting people against 
full and partial ejections through side windows, especially 
those that happen in rollover crashes.
    The comment period closed in February of this year and we 
intend on issuing the final rule by January of 2011, and we are 
on pace to do that.
    Senator Pryor. Good. Well, thank you. And again, we may 
have some more follow-ups there, as well, but thank you.
    Mr. Strickland. Thank you so much, Senator. I appreciate 
it.
    Senator Pryor. You bet. Thank you.
    And what we'll do now is bring up our second panel. And 
what I'll--would like to do is just go ahead and introduce them 
very briefly as the staff is swapping out the microphones and 
all that.
    And we have a vote on the floor, here, in about 10 minutes, 
so--we have four witnesses. I'd love for the--each one to keep 
their opening statements to 5 minutes or less, emphasis on the 
``less.'' That'd be great, if we could. And then what I'll do 
is probably recess the Subcommittee, run and vote. I think we 
have two votes. And I'll come right back. So, we may take a 10-
, 15-, whatever it may take, but a few-minute recess, and then 
come back in for the testimony on that second panel.
    Our first witness is Ms. Jacqueline Gillan, Vice President, 
Advocates for Highway and Auto Safety. Our second will be Mr. 
Robert Strassburger, Vice President, Vehicle Safety & 
Harmonization Alliance of Automobile Manufacturers. Third will 
be Ms. Laura Dean-Mooney, President, Mothers Against Drunk 
Driving. And fourth is Mr. Neil Pedersen, Administrator of the 
Maryland State Highway Administration, on behalf of the 
Governors Highway Safety Association.
    So, what I'd like to do is, Ms. Gillan, ask you to make 
your statement, and again, remind all the witnesses that we'll 
put your written statement in the record, and if we could be 5 
minutes or less, that'd be great.

 STATEMENT OF JACQUELINE S. GILLAN, VICE PRESIDENT, ADVOCATES 
                  FOR HIGHWAY AND AUTO SAFETY

    Ms. Gillan. OK, thank you.
    Is this on? OK. There it is. Thank you.
    Good morning, Chairman Pryor and Senator Klobuchar. Thank 
you for inviting me to testify.
    First of all, let me commend this committee for being an 
important bipartisan force in advancing highway and auto safety 
issues. In fact, you've had a very busy last year, in moving 
several pieces of key legislation, which advocates in the 
safety community strongly support: the Motor Carrier--the 
Motorcoach Enhanced Safety Act, the Motor Vehicle Safety Act of 
2010, in response to sudden unintended acceleration in Toyota 
vehicles, and the Distracted Driving Prevention Act. And we 
strongly hope that these bills will be passed before the end of 
the 111th Congress.
    Clearly, the recent announcement about a significant drop 
in highway fatalities is great news for all of us. However, 
annual motor vehicle deaths are still equivalent to a major 
airplane crash every single day of the year. Recent declines in 
highway deaths these past 2 years are almost certainly related 
to the economic downturn, high gas prices, and a decrease in 
discretionary driving. In fact, I have a chart, in my 
testimony, which shows how declines in highway fatality 
corresponds with economic downturns.
    Currently, we have at hand both traffic safety 
technological solutions and safety programs that have the 
potential to make drastic reductions. But, the problem is, 
we're waiting too long to act on some of these proven and 
effective safety solutions.
    Over the past 15 years, through different authorization, 
we've spent billions of dollars on State traffic safety 
programs and various issue-specific incentive grants. And, 
while these are worthwhile efforts and have resulted in some 
really terrific State and local law enforcement campaigns, they 
suffer from two major flaws. First, the Highway Safety 
Program's grant programs generally lack safety performance 
measures to provide accountability and ensure effectiveness. 
And second, the various incentive grant programs have not 
resulted in the adoption of the most effective highway safety 
laws by every State. And over time, the States have 
successfully insisted on program flexibility, both in terms of 
funding and performance, at the expense of accountability and 
effectiveness.
    And we strongly support the approach taken in the House 
Transportation Infrastructure Committee draft authorization 
bill to establish performance measures for these traffic safety 
grant programs, so that we can increase accountability and we 
can direct resources that have the best opportunity for high 
payoff.
    Another significant obstacle in reducing highway deaths and 
injuries is this lack of uniform traffic safety laws. And 
included in my testimony are various maps which show which 
States have motorcycle helmet laws, primary seatbelt laws, 
tough drunk-driving laws, and teen driving laws. And right now, 
we have this patchwork quilt, and it's really essential that we 
have Federal leadership in this area. And it was Federal 
leadership that resulted in every single State passing a 
minimum-21 drinking age, because of Senator Lautenberg's 
efforts, and .08 BAC, as well as minimum licensing standards 
for commercial drivers, sponsored by former Senator Danforth, 
and a zero-tolerance BAC law to combat underage drinking and 
driving, sponsored by the late Senator Byrd.
    Every time Congress has used a sanction, every State has 
adopted the law, and not a single State has ever lost a single 
dollar of Federal aid highway funds, and thousands of lives 
have been saved. There are--no question that sanctions work.
    And, while incentive grants may be the appropriate means to 
start the process of encouraging States to act, sanctions have 
always been successful in finishing the job. And there are 
several examples of that in SAFETEA-LU, where we have a primary 
incentive grant program, a half a billion dollars, and we still 
don't have every State with a primary enforcement seatbelt law. 
And every State needs that.
    We also commend Senator Klobuchar for the STANDUP Act. 
Motor vehicle crashes remain the leading cause of death for 
teenagers in every State. That's really an important bill that 
starts out with incentive grant programs and then moves to 
sanctions.
    Some advice. as a former mother of two teens, I tried 
desperately to get Maryland--the State of Maryland to toughen 
their laws before my children started driving. It didn't work 
out that way, so there were two laws in our house. There was 
Maryland law and Mom's law. And Mom's law prevailed. And I can 
say I safely got them through that period. So.
    But, definitely, we want to make sure that every teen in 
every State is covered by a strong graduated drivers licensing 
law. We know too much about how successful these laws--and we 
know that, right now, too many teens are dying every day on our 
highways.
    Another important issue is impaired driving. It is still a 
scourge on our highways, and we strongly support legislation, 
introduced by Senator Lautenberg, on requiring States to pass 
ignition interlock laws.
    I could go on. As you know, we have worked very closely 
with this committee on the Distracted Driving Prevention Act, 
which we support, and also the Alert Drivers Act, by Senator 
Schumer.
    In conclusion, there are really no acceptable excuses 
anymore for delaying, any longer, the adoption of these 
lifesaving laws. It's really like withholding a vaccination. 
And we also need to improve the effectiveness of traffic safety 
programs, and particularly some of the incentive grant 
programs.
    I appreciate the opportunity to testify. We look forward to 
working with you. Clearly, the reauthorization bills have 
always had an important and strong safety component, and we're 
very happy with the bills that are moving through this 
committee right now.
    Thank you.
    [The prepared statement of Ms. Gillan follows:]

      Prepared Statement of Jacqueline S. Gillan, Vice President, 
                 Advocates for Highway and Auto Safety
    Good morning Mr. Chairman, Ranking Member, and Members of the 
Senate Committee on Commerce, Science, and Transportation. I am 
Jacqueline Gillan, Vice President of Advocates for Highway and Auto 
Safety (Advocates). Advocates is a coalition of public health, safety, 
and consumer organizations, insurers and insurance agents working 
together to prevent highway deaths and injuries through the adoption of 
safety policies and regulations and the enactment of state and Federal 
safety laws. This year, Advocates celebrated 20 years as a unique 
coalition dedicated to improving highway and auto safety by addressing 
it as a public health issue.
    Thank you for the opportunity to testify before the Commerce, 
Science, and Transportation Committee, which has been an important 
force in advancing highway and auto safety laws these past two decades. 
Members of this Committee, Democrats and Republicans, have been leaders 
on numerous safety legislative efforts addressing impaired driving, 
occupant protection and motor carrier safety. In fact, there are 
several critically important safety bills that this Committee is 
advancing and Advocates strongly supports that we hope will be enacted 
into law during the remaining days of the 111th Congress, including S. 
554, the Motorcoach Enhanced Safety Act of 2009, S. 3302, the Motor 
Vehicle Safety Act of 2010 (MVSA) and S. 1938, the Distracted Driver 
Prevention Act of 2009. In every prior surface transportation 
authorization bill enacted by Congress in the past 20 years, Advocates' 
safety priorities have focused on supporting enactment of programs, 
policies and laws that lead to safer roads, safer vehicles and safer 
drivers. As I discuss in this testimony, significant progress in 
achieving reductions in highway fatalities and injuries, and in 
preventing a return to higher fatality levels, will require Congress to 
adopt new safety countermeasures in all three areas. As the Committee 
considers the needs for traffic safety programs in the next surface 
transportation authorization bill there are a number of issues that we 
urge you to consider that will improve safety nationwide and ensure 
that the recent downward trend in traffic fatalities is not merely a 
short-term statistical blip. All of our proposals are effective both in 
terms of preventing crashes, saving lives, reducing disabling injuries, 
and saving billions of dollars for our Nation.
Overview of Traffic Safety
    Traffic safety for the past two decades reflects both our successes 
and failures as a nation to protect our citizens from the tragic loss 
of life, serious physical injuries and enormous costs imposed by motor 
vehicle crashes. We have been successful in driving down the annual 
fatality rate over the long-term by increasing seat belt use and child 
occupant protection, enacting tough drunk driving countermeasures, 
adopting truck size limits, requiring vehicles to be equipped with 
proven safety technologies like airbags and electronic stability 
control, and designing more crashworthy vehicles.
    At the same time, however, there is a major unfinished safety 
agenda that Congress needs to address. Recent deaths and recalls 
involving Toyota vehicles have revealed resource and regulatory gaps in 
our government's oversight and enforcement of safety defects, revolving 
door concerns involving agency staff, overdue vehicle safety standards 
and the lack of transparency that has blocked consumers from access to 
essential information that affects their safety.
    Additionally, we have failed to close gaps in state traffic safety 
laws that would prevent many drunk drivers from getting behind the 
wheel, protect novice teen drivers by enacting strong graduated driver 
licensing (GDL) programs in every state, stop the huge number of 
occupant fatalities by requiring seat belt and motorcycle helmet use, 
and protect the public from emerging safety threats such as distracted 
driving and dangerous overweight trucks. All of these safety problems 
result in thousands of preventable highway fatalities each year. The 
failure of all states to adopt the most effective safety requirements 
in these areas is a national tragedy that impedes the best intentioned 
programs from achieving national safety goals.
Recent Data Trends
    For 15 years, from 1993 through 2007, the annual national traffic 
fatality total exceeded 40,000 deaths a year. Despite improvements in 
the fatality rate, the actual number of highway deaths remained 
relatively static, creeping up to as many as 44,000 deaths per year, 
with a cumulative total of more than 630,000 traffic deaths in that 
decade and a half.\1\ Yes, the continual decline in the overall 
fatality rate meant that despite annual increases in registered 
vehicles and vehicle miles traveled (VMT), our efforts were holding the 
fatality total in check. However, it also signaled an inability to make 
sufficient and sustained progress on the core safety issues that 
contribute to the unacceptably large annual death toll. The fact that 
the annual number of fatalities remained constant meant that the core 
safety problem was not getting any smaller. Not only does this level of 
tragic, needless loss translate into over 100 persons killed each and 
every day--the equivalent of a daily commercial passenger airline 
crash--but it exacts an annual economic toll of more than $230 billion 
\2\ in economic costs--a yearly crash ``tax'' of about $800 for every 
child, woman and man in the United States.
---------------------------------------------------------------------------
    \1\ Traffic Safety Facts 2007, Table 4, p. 18, DOT HS 811 002, 
National Highway Traffic Safety Administration (NHTSA).
    \2\ The Economic Impact of Motor Vehicle Crashes 2000, DOT HS 809 
446, National Highway Traffic Safety Administration (NHTSA) (May 2002) 
available at http://www.nhtsa.dot.gov/staticfiles/DOT/NHTSA/
Communication%20&%20Consumer%20Information/Articles/Associated%20Files/
EconomicImpact2000.pdf.
---------------------------------------------------------------------------
    The most recent safety data provides welcome news--deaths are down 
and many lives have been saved. Traffic fatality and other indicators 
in the past 2 years have dropped below 40,000 deaths for the first time 
since 1992. In the past 2 years reductions in fatalities exceeded all 
predictions with traffic deaths dropping to 37,423 in 2008 and to 
33,808 in 2009.\3\ While these improvements are gratifying because they 
mean fewer lives were lost on our highways, it does not necessarily 
mean that we have permanently broken through the 40,000 fatality 
barrier and can relax our efforts to improve public safety. Even with 
the recent decreases in annual fatalities, motor vehicle crashes remain 
the leading cause of death for Americans ages 3 to 34.\4\ If history is 
our guide, the 2008-2009 fatality decrease is likely to be only a 
temporary decline that will certainly reverse, as has occurred 
following each previous decrease in fatalities that accompanied 
economic downturns. Unless Congress takes additional steps to ensure 
effective safety programs are in place to prevent a return to fatality 
levels that exceed 40,000 deaths per year, history will be repeated.
---------------------------------------------------------------------------
    \3\ Highlights of 2009 Motor Vehicle Crashes, Traffic Safety Facts 
Research Note, DOT HS 811 363, NHTSA (Aug. 2010).
    \4\ 10 Leading Causes of Injury Death by Age Group Highlighting 
Unintentional Injury Deaths, United States--2006, National Vital 
Statistics System, National Center for Health Statistics, Center for 
Injury Prevention and Control, CDC.
---------------------------------------------------------------------------
Drops in Highway Deaths Correlate with Economic Downturns
    A significant portion of the current fatality reduction is due to 
the recessionary downturn in the national economy beginning in 2007. 
Historically, declines in traffic fatalities are correlated with 
reductions in economic activity and disruptions to the national 
economy. It is well documented that the economic impact of events such 
as high gas prices, extensive unemployment and recession are 
accompanied by large decreases in fatality statistics due to reduced 
discretionary driving and economic activity. To place the recent 
fatality figures in perspective, the chart included in my testimony 
indicates that at least since 1971, highway traffic deaths have 
temporarily declined each time the national economy has experienced a 
recession, only to increase again as the economy recovered.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    In June, the National Highway Traffic Safety Administration (NHTSA) 
issued a report that found ``similar significant declines in fatalities 
were seen during the early 1980s and the early 1990s. Both of these 
periods coincided with significant economic recessions in the United 
States.'' \5\ The NHTSA report goes on to document the striking 
association between the decline in fatalities, especially among younger 
drivers ages 16 to 24, and unemployment rates in major cities.\6\ 
``[L]arge fatality declines tended to coincide with areas that had 
higher increases in rates of unemployment.'' \7\
---------------------------------------------------------------------------
    \5\ An Analysis of the Significant Decline in Motor Vehicle Traffic 
Fatalities in 2008 (Significant Decline Report), pp. 1-2, DOT HS 811 
346, NHTSA (June 2010).
    \6\ Id., pp. 17-22, using Bureau of Labor Statistics unemployment 
rates for Metropolitan Statistical Areas.
    \7\ Id. at p. 2.
---------------------------------------------------------------------------
    There is good reason to believe that there is a cause and effect 
relationship because as economic conditions deteriorate, especially 
when accompanied by high unemployment rates, spending on gasoline and 
travel decline as well. Even before the agency report was issued, the 
NHTSA Administrator, David Strickland, cautioned that while the 
downward trend in fatalities is encouraging, ``do not expect [it] to 
continue once the country rebounds from its current economic hardships. 
With any rebound, the expectation is that discretionary driving will 
increase, which in turn may reverse fatality reductions with increased 
exposure.'' \8\ The question for the safety community, government 
leaders and elected officials is how can we sustain and improve the 
windfall reduction in fatalities as the economy rebounds.
---------------------------------------------------------------------------
    \8\ Budget Estimates, Fiscal Year 2011, Statement of the 
Administrator at 1-2, NHTSA (Feb. 2011).
---------------------------------------------------------------------------
The Unfinished Safety Agenda
    As the economy recovers and economic activity, employment and 
discretionary driving return to pre-recession levels, so too will the 
number of motor vehicle crashes and the traffic fatality total. NHTSA 
has noted, however, that following past recoveries while traffic 
fatalities increased to higher levels the fatality total did not return 
to the levels that existed prior to the recession.\9\ While true, this 
outcome is not guaranteed. Most likely, the reduced levels of annual 
fatalities experienced after the previous two recessionary periods were 
the result of improved safety regulations and programs adopted in the 
years preceding the recovery. We have cost-effective, successful safety 
countermeasures at hand that can address both traffic safety and 
technological improvements but we are waiting too long act. For this 
reason, it is critical that Congress adopt strong safety measures in 
the next surface transportation reauthorization bill if we are to 
ensure that the annual fatality total remains at or below the 2009 
level of 34,000 traffic fatalities.
---------------------------------------------------------------------------
    \9\ Significant Decline Report, p. 2.
---------------------------------------------------------------------------
The Traffic Safety and Incentive Grant Programs
    Over the past 15 years, through three separate authorization 
laws,\10\ the Nation has spent billions of dollars on traffic safety 
programs comprised of the Highway Safety Programs (Section 402) \11\ 
and various issue-specific incentive grant programs.\12\ The dollar 
amounts are huge: more than $3.5 billion has been authorized for 
highway safety and various incentive grant programs over the past 10 
years. The highway safety and incentive grant programs have supported 
many worthwhile efforts, especially state and local enforcement 
campaigns that have been the bulwark of local safety initiatives. Also, 
several states have adopted optimal safety laws in response to the 
incentive grant programs. In part as a result of these efforts, NHTSA 
estimates that many lives have been saved through seat belt and child 
restraint use.\13\ Yet, no discernable progress was made in bringing 
down the total number of traffic deaths until 2008. While these 
programs are the cornerstones of Federal and state traffic safety 
efforts, they suffer from two major flaws. First, the highway safety 
grant programs generally lack safety performance measures to provide 
accountability and ensure effectiveness. Second, the various incentive 
grant programs have not resulted in the adoption of the most effective 
traffic safety laws in all states.
---------------------------------------------------------------------------
    \10\ The Safe, Accountable, Flexible, Efficient Transportation 
Equity Act: A Legacy for Users (SAFETEA-LU), Pub. L. 109-59 (Aug. 10, 
2005); the Transportation Equity Act for the 21st Century (TEA-21), 
Pub. L. 105-178 (June 9, 1998); and, the Intermodal Surface 
Transportation Efficiency Act of 1991 (ISTEA), Pub. L. 102-240 (Dec. 
18, 1991).
    \11\ 23 U.S.C.  402.
    \12\ SAFETEA-LU included incentive grant programs for occupant 
protection, safety belt performance, traffic safety information 
systems, alcohol-impaired driving countermeasures, motorcyclist safety, 
and child safety and child booster seat safety.
    \13\ Lives Saved in 2008 by Restraint Use and Minimum Drinking Age 
Laws, Traffic Safety Facts, DOT HS 811 153, NHTSA (June 2009).
---------------------------------------------------------------------------
Lack of Performance Measures and Effective Oversight
    The Section 402 highway safety grant program has been the 
traditional means of providing the states with Federal funding to 
support state and local safety initiatives, education and enforcement 
efforts. Over time, however, the insistence on providing greater 
program flexibility, both in terms of funding and performance, has 
complicated program accountability and oversight. By 1998, NHTSA had 
``adopted a performance-based approach to oversight, under which the 
states set their own highway safety goals and targets. . . .'' \14\ 
Even with each state developing an annual safety plan, weaknesses in 
state plans were revised through subsequent ``improvement plans'' but 
agency regional offices made limited and inconsistent use'' of the 
revised plans.\15\ In fact, Congress had to require that NHTSA review 
each state highway safety program at least once every 3 years and 
perform other standard oversight procedures.\16\
---------------------------------------------------------------------------
    \14\ Highway Safety: Better Guidance Could Improve Oversight of 
State Highway Safety Programs, p. 1, GAO-03-474, Government 
Accountability Office (GAO) (Apr. 2003).
    \15\ Id., p. 4.
    \16\ 23 U.S.C.  412; enacted as Title II,  2008(a), SAFETEA-LU, 
Pub. L. 109-59 (Aug. 10, 2005).
---------------------------------------------------------------------------
    The incentive grant programs also lack adequate performance 
measures to determine effectiveness. According to the Government 
Accountability Office (GAO), ``state performance is generally not tied 
to the receipt of the grants. . . .'' \17\ In addition, of the current 
incentive programs, ``three of the five grants [programs] do not 
include performance accountability mechanisms that would link the 
receipt of grant funds to states' ability to meet those performance 
goals.'' \18\ Despite the increased management reviews and oversight of 
state programs required by Congress, GAO found that NHTSA does not 
analyze, at the national level, the agency's recommendations to states 
made as part of the review process or systematically track whether 
states have implemented the agency's recommendations.\19\ Most damning, 
in 2008 GAO concluded that over the previous 10 years a key indicator 
of program effectiveness--traffic fatalities--had not improved.\20\
---------------------------------------------------------------------------
    \17\ Traffic Safety: Grants Generally Address Key Safety Issues, 
Despite State Eligibility and Management Difficulties, p. 4, GAO-08-
398, GAO (Mar. 2008).
    \18\ Id.
    \19\ Traffic Safety Programs: Progress, States' Challenges, and 
Issues for Reauthorization, Statement of Katherine Siggerud, Managing 
Director Physical infrastructure, p. 3, Testimony Before the 
Subcommittee on Highways and Transit, Committee on Transportation and 
Infrastructure House of Representatives, p. 3, GAO (July 16, 2008).
    \20\ Id.
---------------------------------------------------------------------------
    Although in the 2-years since the GAO report there has been a 
downturn in total traffic fatalities, Advocates remains convinced that 
the traffic safety programs are in desperate need of clear and specific 
performance measures. The approach taken in the House Transportation 
and Infrastructure Committee draft reauthorization bill has merit. It 
requires state safety plans to include ``quantifiable performance 
targets' and also directs the Secretary of Transportation to establish 
performance targets in each safety category.\21\ This will go a long 
way toward placing the grant programs on a sounder footing in terms of 
providing greater accountability and will, ultimately, improve the 
effectiveness of the highway safety and incentive grant programs.
---------------------------------------------------------------------------
    \21\ Surface Transportation Authorization Act of 2009,  2003, 
Transportation and Infrastructure Committee, markup draft [Committee 
Print] (June, 2009).
---------------------------------------------------------------------------
Grant Programs Have Not Resulted in All States Adopting Basic Safety 
        Laws
    The traffic safety and incentive programs have not resulted in the 
adoption of optimal safety laws by all states. Advocates ``2010 Roadmap 
Report'' \22\ evaluating state adoption of 15 basic traffic safety laws 
makes it abundantly evident that many states have not taken the vitally 
important and proven safety actions that are urgently needed to save 
lives on our highways. Because states receive funding, irrespective of 
whether the state has adopted primary enforcement seat belt, strong GDL 
programs, alcohol ignition interlock, all-rider motorcycle helmet, and 
other effective traffic safety laws, the program cannot achieve maximum 
lifesaving benefits. New York was the first state to adopt a primary 
enforcement seat belt law in 1984--over 25 years ago--yet today only 31 
states and the District of Columbia have adopted this critical safety 
law. Despite the fact that Congress provided an incentive grant program 
with $500 million to encourage states to adopt primary enforcement seat 
belt laws in the Safe, Accountable, Flexible, Efficient Transportation 
Equity Act: A Legacy for Users (SAFETEA-LU),\23\ only 10 states have 
enacted primary enforcement laws since 2005.\24\
---------------------------------------------------------------------------
    \22\ Teens, Texting, Tragedy, The 2010 Roadmap To State Highway 
Safety Laws, Advocates (Jan. 2010) (2010 Roadmap Report) available at 
http://www.saferoads.org/2010-roadmap-state-highway-safety-laws.
    \23\ Grants for primary safety belt use laws, Title II,  2005, 
SAFETEA-LU, codified at 23 U.S.C.  406.
    \24\ Grants Generally Address Key Safety Issues, Despite State 
Eligibility and Management Issues, Government Accountability Office 
(Mar. 2008), available at http://www.gao.gov/new.items/d08398.pdf.
---------------------------------------------------------------------------
    States that have adopted primary enforcement laws have maximized 
the effort to increase belt use rates and use the program grants to 
reinforce the message through public information, education and 
enforcement. It is well documented that states with primary enforcement 
seat belt use laws generally increase seat belt use rates by 10 
percentage points or more after enactment of the law.\25\ However, 
states that have not enacted primary enforcement laws are not making 
the maximum effort to increase belt use rates. This is of critical 
importance because each year thousands of people die needlessly just 
because they did not buckle up.\26\
---------------------------------------------------------------------------
    \25\ Adoption of primary enforcement seat belt laws increased seat 
belt use rates by 11 percent in New Jersey, 13 percent in Alabama and 
14 percent in Michigan. Strengthening Safety Belt Use Laws--Increase 
Belt Use, Decrease Crash Fatalities and Injuries, Traffic Safety Facts, 
Laws, NHTSA (Apr. 2004) available at http://www.nhtsa.gov/people/
injury/new-fact-sheet03/SeatBeltLaws.pdf.
    \26\ In 2008, NHTSA estimated that an additional 4,152 lives could 
have been saved with 100 percent belt use. Lives Saved in 2008 by 
Restraint Use and Minimum Drinking Age Laws, p. 1, Traffic Safety 
Facts, DOT HS 811 153, NHTSA (June 2009).
---------------------------------------------------------------------------
    Incentive grant programs should be leveraged with requirements that 
all states must eventually adopt policies that have proven effective in 
improving safety. Experience has shown that the most efficient way to 
increase public awareness and compliance with safety policies is 
through the passage of state laws, coupled with public education and 
local enforcement. Time after time, in state after state, it has been 
shown that education without the law does not accomplish the goal of 
improved traffic safety. We found this out in our early efforts to 
reduce drunk driving. Slogans, public service announcements, and key 
chains were ineffective strategies but tough drunk driving laws with 
strong penalties were effective. While incentive programs are the 
appropriate means to start the process of encouraging states to adopt 
tried and true safety practices, Congress must eventually require 
compliance with proven public safety policies through the use of 
sanctions of Federal-aid highway funding.
    For this reason, Advocates believes it is already time to turn 
incentive grant programs into sanctions in order to advance adoption of 
laws that are proven to dramatically save lives. With regard to primary 
enforcement seat belt laws, all-rider motorcycle helmet laws, 
comprehensive teen driving laws and impaired driving laws, the 
scientific data is overwhelming and it is beyond question that these 
laws save lives and reduce state and Federal health care costs. These 
laws are like a vaccine and every family in every state should be 
protected. The maps included in my testimony show that state adoption 
of optimal safety laws has resulted in a patchwork quilt of lifesaving 
laws across the country. Incentive grants have never been able to 
achieve uniform adoption of critical traffic safety laws and it is time 
to turn the incentives into sanctions. For this reason, Advocates 
supports the House Transportation and Infrastructure Committee highway 
reauthorization bill which includes proposed sanctions for states that 
fail to enact primary seat belt enforcement and alcohol ignition 
interlock laws.\27\ Advocates' supports these provisions because when 
it comes to public safety, sanctions save lives.
---------------------------------------------------------------------------
    \27\ Surface Transportation Authorization Act of 2009,  1516, 
Enforcement of Primary Seat Belt Laws, and  1517, Use of Ignition 
Interlock Devices to Prevent Repeat Intoxicated Driving, Transportation 
and Infrastructure Committee, markup draft, House of Representatives 
[Committee Print] (June, 2009).
---------------------------------------------------------------------------
When Congress Acts, States React and Lives Are Saved
    Congressional leadership is critical and has been effective in 
encouraging state action with the adoption of Federal sanctions. The 
potential withholding of Federal highway construction funds--
sanctions--has been an effective and successful means to expedite state 
passage of safety laws and to create a uniform, national safety policy. 
Over 20 years of legislative history has proven that when Congress 
reinforces the need for states to pass a lifesaving law by invoking 
sanctions, states consistently and promptly enact those life-saving 
laws. It is important to point out that no state has ever lost a single 
dollar of Federal highway funds as a result of a Federal sanction.
    In the 1980s, for example, Americans lacked a uniform law across 
all 50 states that set a minimum drinking age of 21 to eliminate the 
``blood borders'' problem. The differences in drinking age laws 
resulted in young drivers from states with a minimum drinking age of 21 
driving to adjacent states that had a lower legal drinking age, 
consuming alcohol, and then driving home while under the influence. 
This resulted in the deaths of tens of thousands of teen drivers and 
young passengers, earning these areas the designation, ``blood 
borders.'' In 1984, because of the leadership of Sen. Lautenberg (D-
NJ), Congress enacted the Uniform Drinking Age Act,\28\ which required 
states to enact a minimum age 21 law for the purchase and use of 
alcoholic beverages or face a potential decrease in Federal highway 
funds.\29\ The law was also championed by then-Secretary of 
Transportation, Elizabeth Dole, and signed into law by President Ronald 
Reagan. Within 3 years, the District of Columbia and the 28 states that 
lacked an age 21 minimum drinking age law met the Federal standard. 
Since the enactment of the Uniform Drinking Age Act the overall 
alcohol-related traffic fatality rate has been reduced by half,\30\ and 
NHTSA estimates that 27,052 lives have been saved as a result.\31\
---------------------------------------------------------------------------
    \28\ Pub. L. 98-363 (July 17, 1984), codified as National Minimum 
Drinking Age, 23 U.S.C.  158.
    \29\ Determine Why There Are Fewer Young Alcohol-Impaired Drivers, 
What caused the decrease?, DOT HS 809 348. NHTSA (1998), available at 
http://www.nhtsa.dot.gov/people/injury/research/FewerYoungDrivers/
iv_what_caused.htm.
    \30\ Statistical Analysis of Alcohol-Related Driving Trends, 1982-
2005, DOT HS 810 942. NHTSA (2008), available at http://www.nhtsa.gov/
staticfiles/DOT/NHTSA/NCSA/Content/Reports/2008/810942.pdf.
    \31\ Young Drivers. Traffic Safety Facts 2008 , DOT HS 811 169, 
NHTSA (2009), available at http://www-nrd.nhtsa.dot.gov/Pubs/
811169.PDF.
---------------------------------------------------------------------------
    Similarly, in the Commercial Motor Vehicle Safety Act of 1986,\32\ 
Congress included a sanction to encourage states to pass a law 
requiring specific criteria for the testing and licensing of commercial 
drivers.\33\ This provision was authored by the Senate Commerce, 
Science and Transportation Committee. By 1992, every state had passed a 
law requiring the testing and licensing standards outlined by the 
Secretary of Transportation.
---------------------------------------------------------------------------
    \32\ Title XII, Pub. L. 99-570 (Oct. 27, 1986), codified as 49 
U.S.C.  31301 et seq..
    \33\ The Commercial Motor Vehicle Safety Act of 1986 and Classified 
Driver Licensing. Transportation Research Board Publications Index, 
Accession Number 00475965, 1988, p. 14, available at http://
pubsindex.trb.org/view.aspx?id=286034.
---------------------------------------------------------------------------
    In another example, 26 states lacked a zero tolerance law to better 
enforce the age 21 drinking law. Congress responded by including in the 
1995 National Highway Systems Designation Act, a provision authored by 
the late Senator Robert Byrd (D-WV), requiring a portion of Federal 
highway funds be withheld from states that failed to enact a zero 
tolerance law for young drivers.\34\ By 1998, every state and the 
District of Columbia had passed a zero tolerance law.
---------------------------------------------------------------------------
    \34\ Title III,  320, Pub. L. 104-59 (Nov. 28, 1995), codified as 
23 U.S.C.  161.
---------------------------------------------------------------------------
    The experience enacting a uniform drunk driving threshold is also 
instructive. In 1998, Congress initially tried using incentive grants 
to encourage states to pass .08 blood alcohol concentration (BAC) 
limits. After several years, only 2 states and the District of Columbia 
had passed .08 percent BAC laws. Finally, in the Department of 
Transportation Appropriations Act for Fiscal Year 2001, Congress 
required the remaining states without .08 BAC laws to enact the law 
lose a portion of their highway funds.\35\ Ten states passed .08 BAC 
laws within the first year after the sanction was applied and, by 2005, 
all 33 states that lacked a .08 BAC law had adopted the law.
---------------------------------------------------------------------------
    \35\ Title III,  351, Pub. L. 106-346 (Oct. 23, 2000), codified as 
23 U.S.C.  163. See .08 BAC illegal per se level, Traffic Safety 
Facts, vol. 2 No. 1, NHTSA (March 2004), available at http://
www.nhtsa.dot.gov/People/injury/New-fact-sheet03/fact-sheets04/Laws-
08BAC.pdf.
---------------------------------------------------------------------------
    These facts illustrate that the use of sanctions by Congress to 
prompt states to enact lifesaving laws has been universally effective. 
Not only have the states enacted these safety laws in a timely fashion, 
but not one state has lost any Federal highway funds, and thousands 
upon thousands of lives have been saved as a result. As important, 
there is a heavy price to be paid for the failure of states to adopt 
these life-saving laws. According to NHTSA, while many lives have been 
saved by seat belt and motorcycle helmet use over the years, an equal 
or greater number of lives could have been saved (but were not) because 
of the failure of vehicle occupants and motorcycle riders to take basic 
precautions.\36\ The failure of states to enact these safety policies 
as state law has been a major contributing factor in these losses.
---------------------------------------------------------------------------
    \36\ According to the NHTSA, in the 35 year period from 1975 to 
2008 child restraints saved 8,959 children, frontal air bags (in use 
general use since the late 1980s but not universally mandated until the 
mid-1990s) saved 27,840 occupants, and the 21-Year-Old Drinking Age law 
saved 27,052 people. NHTSA estimates that while seat belt use saved 
255,115 occupants, they could have saved an additional 359,845 people 
if all occupants had used seat belts. Likewise, while motorcycle helmet 
use saved 30,495 lives over the 35 year period, another 27,433 lives 
could have been saved if all riders had worn protective helmets. 
Traffic Safety Facts 2008, DOT HS 811 170, Final Edition, Back Cover, 
NHTSA (2009).
---------------------------------------------------------------------------
Five Laws That Will Make American Families Safer
    The opportunities to improve traffic safety are many. This 
testimony addresses five (5) critical safety measures that Congress 
should pass that will protect every family in every state. These 
opportunities will save thousands of lives and, in some cases, include 
incentive grants coupled with sanctions to accelerate state adoption of 
uniform traffic safety laws that require:

  <bullet> optimal graduated driver license requirements for teenage 
        drivers;

  <bullet> primary enforcement seat belt use laws;

  <bullet> alcohol ignition interlock technology for convicted drunk 
        and drugged drivers;

  <bullet> ban on the use of distracting electronic devices while 
        driving; and

  <bullet> all-rider motorcycle helmet use.
Teenage Driving Safety--Strong, Comprehensive Graduated Driver 
        Licensing (GDL) Laws Save Lives
    Motor vehicle crashes remain the leading cause of death for 
teenagers between 15 and 20 years of age.\37\ The number and percentage 
of young licensed drivers in the U.S. population has increased from 
12.6 million (4.8 percent) in 1997, to 13.2 million (6.4 percent) in 
2007.\38\ The teen driver population will continue to increase as the 
current cohort of 12- to 19-year-olds expands to 34.9 million this 
year, increasing the pool of those eligible to obtain drivers 
licenses.\39\ Young drivers also represented 14 percent of all drivers 
involved in police-reported crashes in 2008.\40\
---------------------------------------------------------------------------
    \37\ Young Drivers, Traffic Safety Facts 2008, at 1, DOT HS 811 169 
(2009).
    \38\ Id.
    \39\ U.S. Bureau of the Census (1999).
    \40\ Young Drivers at 2.
---------------------------------------------------------------------------
    Although in 2008 there was a notable 23 percent decline in 
fatalities among 16 to 20 year old vehicle occupants,\41\ 16 to 20 year 
olds still comprised 13 percent of all occupant fatalities,\42\ and 
young drivers remain over-represented in terms of motor vehicle 
crashes. In 2009, 2,336 drivers, ages 15 to 20 years old, were involved 
in fatal crashes, involving a total of 5,623 fatalities, including 
their passengers, pedestrians and the drivers and occupants of other 
vehicles.\43\ Young drivers comprise about 12 percent of all drivers 
who are involved in fatal crashes.\44\
---------------------------------------------------------------------------
    \41\ Significant Decline Report, p. 8.
    \42\ Id.
    \43\ Fatalities in Crashes Involving a Young Driver (Ages 15-20), 
by State and Fatality Type, FARS 2009, NHTSA. Data provided in response 
to NHTSA search request.
    \44\ Young Drivers, Traffic Safety Facts 2008 at 1.
---------------------------------------------------------------------------
    Over the past 5 years, from 2005 through 2009, a staggering total 
of 36,071 fatalities have occurred in motor vehicle crashes involving 
teen drivers nationwide. The map on the next page indicates the 
cumulative number of deaths in crashes involving teen drivers by state. 
More than half of those deaths, 19,826, have occurred in the 24 states 
represented by Members on the Commerce, Science and Transportation 
Committee.\45\ This makes a strong case for the need to protect teen 
drivers in a uniform manner, from state-to-state, regardless of where 
novice drivers learn to drive.
---------------------------------------------------------------------------
    \45\ The state-by-state breakdown of deaths in teen driver fatal 
crash from 2005 to 2009 for states represented on the Senate Commerce, 
Science, and Transportation Committee is: AK (75); AR (596); CA 
(3,385); FL (2,839); GA (1,326); HI (105); KS (404); LA (848); MA 
(365); ME (154); MN (473); MO (1,057); MS (778); ND (116); NE (310); NJ 
(539); NM (351); NV (307); SC (808); SD (144); TX (3,218); VA (813); WA 
(516); and, WV (299).

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Fortunately, there is a proven method for reducing teen driving 
deaths. Graduated driver license (GDL) laws phase-in driving privileges 
over time and in low risk circumstances. This allows teen drivers to be 
introduced slowly to driving and to obtain driving experience under 
safer conditions. Research has shown the effectiveness of state GDL 
programs in reducing teen driver crashes and teenage fatalities. A 
recent study evaluating New Jersey's unique combination of a higher 
licensing age and a strong GDL system applicable to all novice drivers 
shows that after GDL implementation, there were significant reductions 
in the crash rates of 17-year-olds in all reported crashes (16 
percent), injury crashes (14 percent) and fatal crashes (25 
percent).\46\ In Illinois, there has been a dramatic drop--more than 50 
percent--in teen-related fatalities since their comprehensive GDL 
program took effect in January 2008.\47\ Even factoring in fewer 
fatalities due to reduced exposure in an economic downturn, Illinois' 
strong set of GDL laws undoubtedly played a significant role in this 
successful outcome.
---------------------------------------------------------------------------
    \46\ Williams, et al., Evaluation of New Jersey's Graduated Driver 
Licensing Program, Traffic Injury Prevention 11:1-7 (Feb. 2010).
    \47\ Information provided by the Office of the Illinois Secretary 
of State, available at www.cyberdriveillinois.com/press/2009/january/
090128d1.html, and from the Illinois Department of Transportation, 
available at http://www.dot.il.gov/press/r040709.html.
---------------------------------------------------------------------------
    Advocates recommends five components for an optimal GDL law based 
on the National Transportation Safety Board (NTSB) recommendations, 
extensive research conducted on the effectiveness of strong GDL laws, 
and policies supported by the American Academy of Pediatrics and other 
public health and safety organizations:

  <bullet> minimum age limit of 16 years to obtain a learners permit, 
        and age 18 for lifting all restrictions for newly licensed 
        drivers;

  <bullet> minimum six-month holding period for a learners permit and 
        intermediate stage;

  <bullet> ban on non-emergency use of cell phone and other 
        communication devices during learners permit and intermediate 
        stage;

  <bullet> restriction on unsupervised nighttime driving in learners 
        and intermediate stage;

  <bullet> restriction on more than one non-familial teenage passenger 
        in intermediate stage.

    Despite the proven safety effectiveness of GDL laws that meet these 
optimal features, there remains a patchwork quilt of teen driving laws 
in states across the Nation. Some states have weak laws while others 
have stronger laws creating another example of ``blood borders.'' As a 
result, millions of novice teen drivers lack some of the most basic 
protections that could prevent teen crashes and save lives. It is time 
for Congress to act in this public health crisis to encourage state 
adoption of comprehensive GDL laws.
    Legislation that would accomplish this has already been introduced 
in Congress, S. 3269, the Safe Teen And Novice Driver Uniform 
Protection (STANDUP Act) sponsored by Senators Gillibrand (D-NY), Dodd 
(D-CT), Klobuchar (D-MN), Carper (D-DE), Cardin (D-MD), Lieberman (D-
CT) and Whitehouse (D-RI). The House has introduced a companion 
measure, H.R. 1895, with twenty-one co-sponsors including 
Representatives Bishop (D-NY), Castle (R-DE) and Van Hollen (D-MD). The 
legislation requires states to adopt the optimal GDL features mentioned 
above. The bill allows the Secretary of Transportation to consider 
additional requirements, such as minimum hours of behind-the-wheel 
driving time and driver training courses, before full licensure is 
granted. The bill also provides for $25 million per year for 3 years as 
incentive grants to entice states to adopt these laws. Furthermore, the 
bill includes a potential sanction on Federal-aid highway funds to 
ensure that when all is said and done, uniform state GDL laws across 
the Nation will save the lives of our most precious possession--our 
children. This legislation is supported by the Saferoads4teens 
Coalition \48\ whose members include more than 150 national, state and 
local groups representing teens and parents, consumer, health, and 
safety interests, emergency doctors and nurses, the American Academy of 
Pediatrics, Mothers Against Drunk Driving (MADD), firefighters, law 
enforcement, insurance companies and the auto industry. This 
legislation, when passed, has the potential to significantly reduce 
teen crashes, deaths and injuries similar to the safety gains made in 
saving teen lives with enactment of the National Minimum Drinking Age.
---------------------------------------------------------------------------
    \48\ www.saferoads4teens.org.
---------------------------------------------------------------------------
Buckling Up--Primary Enforcement Seat Belt Laws Save Lives
    Seat belts remain the most effective occupant protection safety 
device in motor vehicles. Research shows that when lap/shoulder seat 
belts are used they reduce the risk of fatal injury by 45 percent, and 
the risk of moderate-to-critical injuries by 50 percent to front-seat 
occupants in passenger vehicles. Additionally, seat belts reduce the 
risk of fatal injury by 60 percent, and the risk of moderate-to-
critical injuries by 65 percent, for occupants of light trucks.\49\ 
Yet, in 2008, more than half of the occupants killed in fatal crashes, 
55 percent, were unrestrained in crashes where restraint use was 
known.\50\
---------------------------------------------------------------------------
    \49\ Occupant Protection, Traffic Safety Facts 2008, at 3, DOT HS 
811 160, NHTSA (2009).
    \50\ Id. at 2.
---------------------------------------------------------------------------
    Seat belts save lives by keeping occupants in the vehicle, thus 
preventing complete ejection in a crash. Ejection from the vehicle is 
one of the most serious and deadly events that can occur in a crash. In 
fatal crashes in 2008, 77 percent of occupants who were totally ejected 
from the vehicle were killed.\51\ Nevertheless, the national observed 
seat belt use rate was 84 percent in 2009,\52\ and only 31 states and 
the District of Columbia have enacted primary enforcement seat belt use 
laws, while 19 states have not.
---------------------------------------------------------------------------
    \51\ Id. at 3.
    \52\ Seat Belt Use in 2009--Use Rates in the States and 
Territories, Traffic Safety Facts, Crash Stats, DOT HS 811 324, NHTSA 
(May 2010).

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    In states with primary enforcement laws, belt use is higher. A 
study conducted by the Insurance Institute for Highway Safety (IIHS) 
found that when states strengthen their laws from secondary enforcement 
to primary, driver death rates decline by an estimated 7 percent.\53\ 
Use levels are typically 10 to 15 percentage points higher in these 
states than in states without primary enforcement laws.\54\ Needless 
deaths and injuries that result from a lack of seat belt use cost 
society an estimated $26 billion annually in medical care, lost 
productivity, and other injury-related costs.\55\
---------------------------------------------------------------------------
    \53\ Farmer, C. M. & Williams, A. F., Effect on Fatality Risk of 
Changing from Secondary to Primary Seat Belt Enforcement, Insurance 
Institute for Highway Safety (Dec. 2004), available at http://
www.gahighwaysafety.org/pdf/iihsseatbeltsof.pdf.
    \54\ Strengthening Safety Belt Use Laws--Increase Belt Use, 
Decrease Crash Fatalities and Injuries, Traffic Safety Facts, Laws, 
NHTSA (Apr. 2004).
    \55\ The Economic Impact of Motor Vehicle Crashes, 2000, at 55.
---------------------------------------------------------------------------
    NHTSA estimates that in 2008, seat belts saved 13,250 lives among 
passenger vehicle occupants over age 4.\56\ If all passenger occupants 
over age 4 had worn seat belts in 2008 an estimated 17,402 lives, or an 
additional 4,152 lives, could have been saved.\57\ NHTSA calculates 
that between 1975 and 2008 seat belts saved an estimated total of more 
than 255,000 lives.\58\ Had seat belt use rates been 100 percent over 
the years, more than 350,000 additional lives would have been 
saved.\59\
---------------------------------------------------------------------------
    \56\ Occupant Protection, Traffic Safety Facts 2008, at 3.
    \57\ Id.
    \58\ Id. at 4.
    \59\ Traffic Safety Facts 2008, Lives Saved by Restraint Use and 
21-Year-Old Minimum Legal Drinking Age Laws Chart, Inside Back Cover, 
DOT HS 811 170, NHTSA (2009).
---------------------------------------------------------------------------
    Congress has already tried to persuade states to adopt primary seat 
belt enforcement laws with a generous grant program. As mentioned, the 
2005 SAFETEA-LU Act provided $500 million in incentive grant funding to 
entice states to pass primary enforcement seat belt laws. In the 5 
years that incentive program was in effect, only ten (10) states 
enacted primary seat belt enforcement laws and 19 states still have 
not.
    Incentive grants must be coupled with potential sanctions in order 
to boost the national seat belt use rate and to save thousands more 
lives each year. That is why Advocates supports the measure adopted by 
the House Transportation and Infrastructure Committee to amend existing 
law to include a potential sanction for states that do not adopt a 
primary enforcement seat belt use law by September 30, 2012.\60\
---------------------------------------------------------------------------
    \60\ Surface Transportation Authorization Act of 2009,  1516, 
Transportation and Infrastructure Committee, markup draft [Committee 
Print] (June, 2009).
---------------------------------------------------------------------------
Convicted Drunk Drivers--Alcohol Ignition Interlock Devices Save Lives
    Drinking and driving continues to be a national scourge on our 
Nation's highways. While a number of measures have successfully reduced 
the historically high levels of carnage caused by drunk driving back in 
the 1980s, nearly a third of traffic deaths occur in alcohol involved 
crashes. Although the total number of alcohol-related crash deaths 
declined in 2009 to 10,839 people, 7 percent less than in 2008, alcohol 
involved crashes still accounted for 32 percent of all traffic 
fatalities.\61\ Except for the recent 2008-2009 dip in fatalities 
during the recession, the annual level of alcohol-involved crash 
fatalities has not declined significantly in the past 10 years.\62\ 
Previous decreases in fatalities were in large measure due to a wave of 
enactment of state anti-impaired driving laws, serious enforcement of 
those laws and educational efforts by MADD) and others to raise 
awareness of the problem. In order to continue to reduce the number of 
needless alcohol related crash deaths suffered on our highways each 
year, and to maintain fatality reductions resulting from the 
recessionary downturn, more must be done to keep impaired drivers off 
our streets and roads.
---------------------------------------------------------------------------
    \61\ Highlights of 2009 Motor Vehicle Crashes, Traffic Safety Facts 
Research Note, Table 3, p. 2, DOT HS 811 363, NHTSA (Aug. 2010).
    \62\ Alcohol-Impaired Driving, Traffic Safety Facts 2008, at 1, DOT 
HS 811 155, NHTSA (2009).
---------------------------------------------------------------------------
    One such measure is the required installation of technology to 
prevent drunk driving recidivism. An effort led by MADD and supported 
by Advocates is already underway to urge states to adopt a mandatory 
interlock system to prevent persons convicted of impaired driving, 
including first time offenders who have been convicted of an impaired 
driving offense, from starting their vehicle when they are again 
impaired. A breath alcohol ignition interlock device (IID) is similar 
to a breathalyzer used by police to determine if a driver has an 
illegally high BAC level. The IID is linked to a vehicle's ignition 
system and requires a driver who has previously been convicted of an 
impaired driving offense to breathe into the device. If the analyzed 
result exceeds the programmed BAC limit for the driver, the vehicle 
will not start. But if the alcohol in the driver's system registers 
below the prohibited limit, the driver can start the vehicle and begin 
driving.
    Today, modern technology is used not just to provide drivers with 
vital safety information, but also to allow Internet access and 
entertainment and business communications that can interfere with the 
driving task. There is no reason that technology should not be used to 
prevent impaired drivers who have prior convictions for that offense 
from operating motor vehicles.
    Most Americans support this initiative as well. In 2009, a survey 
conducted by the IIHS found that 84 percent of respondents said that 
ignition interlock devices for convicted drunk drivers is a good 
idea.\63\
---------------------------------------------------------------------------
    \63\ 2010 Roadmap Report at 26.
---------------------------------------------------------------------------
    However, only 13 states have adopted the use of IID technology to 
prevent first time offenders convicted of impaired driving from 
repeating the same dangerous behavior at the expense of others. Thirty-
seven states and the District of Columbia have yet to adopt this life-
saving law.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Senator Lautenberg (D-NJ), has introduced the Drunk Driving Repeat 
Offender Prevention Act of 2009, S. 2920, that advances the cause of 
safety by requiring all states to adopt IID technology to prevent 
traffic crashes. The bill includes the tried and true approach of 
invoking potential sanctions in order to prompt states to enact laws 
that require the use of IIDs following a conviction for impaired 
driving. Advocates strongly supports S. 2920 because taking the keys 
out of the hands of drunk drivers is the most effective action we can 
take to stop convicted drunk drivers from becoming repeat offenders. 
And, as previously mentioned, the House Transportation and 
Infrastructure Committee has adopted this approach in its pending 
reauthorization bill.\64\ Every family deserves to be protected from 
drunk drivers, and every state should have this law.
---------------------------------------------------------------------------
    \64\ Surface Transportation Authorization Act of 2009,  1517, see 
note 25 supra.
---------------------------------------------------------------------------
Distracted Driving--Curb the Use of Electronic Devices While Driving to 
        Save Lives
    Although various kinds of distractions have been a part of driving 
since the automobile was invented, the emergence of personal electronic 
communications devices that can readily be used while operating a 
vehicle has presented a whole new category of driver distraction and 
danger than ever before. The growing use of built-in and after-market 
or nomadic devices by drivers began with cell phone use but has 
proliferated through a myriad of personal electronics that allow 
drivers to access the Internet, perform office work and to send and 
receive text messages while driving. As a result, in 2009, there were 
an estimated 5,474 fatalities and 448,000 injuries in crashes where 
driver distraction was a factor.\65\
---------------------------------------------------------------------------
    \65\ An Examination of Driver Distraction as Recorded in NHTSA Data 
bases, Traffic Safety Facts Research Note, at 1, DOT HS 811 216, NHTSA 
(Sept. 2009).
---------------------------------------------------------------------------
    Text messaging while driving poses the most extreme and evident 
crash risk danger. Diversion of attention from the driving task to 
input or read a text message clearly interferes with drivers' ability 
to safely operate a motor vehicle. A 2009 study found that text 
messaging while driving increases the risk of a safety-critical event 
by more than 23 times compared to drivers who are focused on the 
driving task.\66\
---------------------------------------------------------------------------
    \66\ Olson, et al., Driver Distraction in Commercial Motor Vehicle 
Operations, Virginia Tech Transportation Institute (2009).
---------------------------------------------------------------------------
    A mounting number of research studies and data show that the use of 
a mobile telephone while driving, whether hand-held or hands-free, is 
equivalent to driving under the influence of alcohol at the threshold 
of the legal limit of .08 percent blood alcohol concentration (BAC). 
Hand-held mobile phone use and dialing while driving require drivers to 
divert attention from the road and from the driving task, yet hands-
free phone use has also been shown to involve cognitive distraction 
that is no less dangerous in terms of diverting attention from the 
driving task and the potential risk of crash involvement.
    To date, 30 states and the District of Columbia have enacted all-
driver text messaging bans, although 4 of these states have secondary 
enforcement, but 20 states have no such law.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Two significant pieces of legislation have been introduced in the 
Senate to prohibit drivers from sending, receiving and accessing text 
messages while driving passenger vehicles: The Distracted Driving 
Prevention Act of 2009, S. 1938, introduced by Chairman Rockefeller (D-
WV) and the Avoiding Life-Endangering and Reckless Texting by Drivers, 
or the ALERT Drivers Act, of 2009, S. 1536, introduced by Sen. Schumer 
(D-NY). Each bill is a strong initiative intended to address distracted 
driving, and Advocates supports the goals of both bills. We applaud 
Chairman Rockefeller and Ranking Member Hutchison and the other members 
of this committee for moving this legislation to the Senate floor on 
June 9, 2010. Advocates is convinced that a combination of incentive 
grants and sanctions is the most effective strategy to ensure that text 
messaging prohibitions are expeditiously adopted in all states.
    The Administration has taken some good first steps to reverse the 
rising tide of crashes that involve distracted driving as a factor. 
Last week the Secretary of Transportation convened the second national 
conference on distracted driving,\67\ in an effort to keep the focus on 
this safety problem at the national level. Just after the first such 
conference \68\ President Obama issued a proclamation banning text 
messaging by Federal employees,\69\ and the Department of 
Transportation (DOT) took measures to curb distracted driving in 
commercial vehicles.\70\ However, the problem of distracted driving in 
commercial vehicles is not limited only to text messaging. For that 
reason, Advocates filed a petition for rulemaking with the Federal 
Motor Carrier Safety Administration (FMCSA), which regulates commercial 
vehicle operations, seeking a review of all types of electronic devices 
used in commercial vehicles, not just those that support text 
messaging.\71\
---------------------------------------------------------------------------
    \67\ Distracted Driving Summit, September 21, 2010 (Washington, 
D.C.), information last accessed on Sept. 20, 2010 and available at 
http://www.distraction.gov/2010summit/.
    \68\ Distracted Driving Summit, September 30-October 1, 2009 
(Washington, D.C.)
    \69\ Federal Leadership on Reducing Text Messaging While Driving, 
Executive Order No. 13513 (Oct. 1, 2009), 74 FR 51225 (Oct. 6, 2009).
    \70\ See Limiting the Use of Wireless Communications Devices, Final 
Rule, 75 FR 59118 (Sept. 27, 2010); Regulatory Guidance Concerning the 
Applicability of the Federal Motor Carrier Safety Regulations to 
Texting by Commercial Motor Vehicle Drivers, Notice of Regulatory 
Guidance, 75 FR 4305 (Jan. 27, 2010).
    \71\ Distracted Driving Petition for Rulemaking: Requesting 
Issuance of a Rule to Consider Prohibiting or Restricting the Use of 
Electronic Devices During the Operation of Commercial Motor Vehicles, 
dated September 24, 2009, filed by Advocates for Highway and Auto 
Safety with the FMCSA Administrator.
---------------------------------------------------------------------------
Motorcycle Deaths--Rose for 11 Straight Years and Helmet Laws are Under 
        Attack
    NHTSA estimates that 80 percent of motorcycle crashes injure or 
kill a rider.\72\ 2008 was the 11th straight year in which motorcycle 
crash fatalities increased, rising to 5,290 motorcyclists killed and 
96,000 were injured.\73\ This is more than double the motorcycle 
fatalities in 1998 and a level not seen since 1981.\74\ While 
motorcycle fatalities finally decreased to 4,462 in 2009, that figure 
still represents fatality numbers that are more than double what the 
figure was in 1997, the last year in which motorcycle fatalities 
experienced a decline.\75\ While fatality and injury rates for other 
types of vehicles have dropped over the years, the fatality and injury 
rates for motorcycles have been steadily rising.\76\
---------------------------------------------------------------------------
    \72\ Motorcycle Safety, National Highway and Traffic Safety 
Administration, DOT HS 807 709 (Oct. 1999), available at http://
www.nhtsa.dot.gov/people/injury/pedbimot/motorcycle/moto
safety.html.
    \73\ Motorcycles, Traffic Safety Facts 2008, DOT HS 811 159, at 1, 
NHTSA (2009).
    \74\ A Highway Safety Countermeasures Guide for State Highway 
Safety Offices, DOT HS 810 891, p. 5-4, NHTSA (3d ed., Jan. 2008) 
(NHTSA Safety Countermeasures Guide).
    \75\ Traffic Safety Facts 2008, Table 10, p. 28.
    \76\ Motorcycles, Traffic Safety Facts 2008, at 1.
---------------------------------------------------------------------------
    At present, motorcycles make up less than 3 percent of all 
registered vehicles and only 0.4 percent of all vehicle miles traveled, 
but motorcyclists accounted for 13 percent of total traffic fatalities 
and 19 percent of all occupant fatalities.\77\ NHTSA estimates that 
helmets saved the lives of 1,829 motorcyclists in 2008 and that if all 
motorcyclists had worn helmets, an additional 823 lives could have been 
saved.\78\ NHTSA estimates that 148,000 motorcyclists have been killed 
in traffic crashes since 1966.\79\
---------------------------------------------------------------------------
    \77\ Highlights of 2009 Motor Vehicle Crashes, pp. 1 and 3.
    \78\ Motorcycles, Traffic Safety Facts 2008, at 6.
    \79\ Id. at 3.
---------------------------------------------------------------------------
    In the past, annual motorcycle rider deaths were much lower in part 
because most states had all-rider motorcycle helmet laws. Congress used 
the power of the sanction to require states to enact helmet use 
laws.\80\ When the sanction was repealed by Congress, the states 
followed suit with more than half the states repealing their helmet 
laws.\81\
---------------------------------------------------------------------------
    \80\ The National Motor Vehicle and Traffic Safety Act of 1966, 
Pub. L. 89-563 (Sept. 9, 1966).
    \81\ See e.g., Evaluation of the Reinstatement of the Helmet Law in 
Louisiana, DOT HS 810 956, NHTSA (May 2008), available at http://
www.nhtsa.gov/portal/nhtsa_static_file_
downloader.jsp?file=/staticfiles/DOT/NHTSA/Traffic%20Injury%20Control/
Articles/Associated
%20Files/810956.pdf.
---------------------------------------------------------------------------
    Some motorcycle enthusiasts who oppose motorcycle helmet use laws 
have asserted that training and education alone are the way to improve 
motorcycle safety. However, in SAFETEA-LU, Congress included a number 
of measures aimed at promoting motorcycle training and education. These 
programs have not proven effective in stemming the increasing tide of 
motorcycle fatalities. In 2008, motorcycle crash deaths were still on 
the rise to an all time high of 5,290 deaths \82\ despite the SAFETEA-
LU funded motorcycle education grant program. The 2009 reduction in 
motorcycle deaths may well prove to be only a temporary respite due to 
reduced vehicle miles of travel as a result of the economic downturn.
---------------------------------------------------------------------------
    \82\ Traffic Safety Facts 2008, Table 10, p. 28.
---------------------------------------------------------------------------
    Today, only 20 states and the District of Columbia require helmet 
use by all motorcycle riders. The map below indicates the status of the 
law in each state. This year, 9 of those state laws were under attack 
by repeal attempts. In 2007, the NTSB recommended that all states 
without an all-rider helmet law should adopt one.\83\ Research 
conclusively and convincingly shows that all-rider helmet laws save 
lives and reduce medical costs. While helmets will not prevent crashes 
from occurring, they have a significant and positive effect on 
preventing head and brain injuries during crashes. These are the most 
life-threatening and long-term injuries as well as the most costly.
---------------------------------------------------------------------------
    \83\ NTSB Recommendations H-07-38, available at http://
www.ntsb.gov/Recs/letters/2007/H07_38.pdf, and H-07-39, available at 
http://www.ntsb.gov/Recs/letters/2007/H07_39.pdf.
---------------------------------------------------------------------------
    In 1992, California's all-rider helmet law took effect resulting in 
a 40 percent drop in its Medicaid costs and total hospital charges for 
medical treatment of motorcycle riders.\84\
---------------------------------------------------------------------------
    \84\ Id.

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
Conclusion
    The quality of life for all Americans depends on a safe, reliable, 
economical and environmentally sound surface transportation system. 
Transportation solutions to promote mobility and the economy must 
involve not only financial investments, but investments in safety as 
well. Highway crashes cost our Nation more than $230 billion annually. 
This is money that could be better spent on addressing surface 
transportation needs. Making necessary changes to the performance and 
effectiveness of the highway safety and incentive grant programs, 
including requiring the adoption of proven, practical safety laws and 
policies will dramatically improve traffic safety, reduce deaths and 
injuries and lower societal costs that accompany motor vehicle crashes.
    The significant reduction in highway fatalities that has occurred 
over the last 2 years affords an opportunity to continue the downward 
trend and make substantial and lasting reductions in annual fatalities. 
There are no acceptable excuses for delaying any longer the adoption of 
lifesaving laws that can help secure these lower fatality levels in the 
future. Over the course of the next five-year authorization bill we can 
save thousands of lives each year if we act wisely and act now. If the 
opportunity slips away without action we could suffer more than 200,000 
fatalities and another 10 million injuries in that 5-year timeframe.
    Thank you for the opportunity to testify before you today and I am 
pleased to answer your questions.

    Senator Pryor. Thank you.
    Mr. Strassburger.

   STATEMENT OF ROBERT STRASSBURGER, VICE PRESIDENT, VEHICLE 
 SAFETY AND HARMONIZATION, ALLIANCE OF AUTOMOBILE MANUFACTURERS

    Mr. Strassburger. Thank you, Mr. Chairman.
    As we've already heard this morning, the Nation recorded 
its lowest traffic fatality rate last year. And the decline 
continues in 2010. Some attribute this to the economic 
downturn, but the fact is, it began well before the downturn 
started, and it continues even as vehicle miles traveled 
rebounds.
    We are seeing a sustained declined in fatalities because a 
decade ago, government, industry, and other stakeholders 
stepped up efforts to reduce traffic fatalities and injuries. 
And we are now seeing the payoff.
    For our part, automakers are waging a safety technology 
revolution--conceiving, developing and implementing new safety 
systems with real-world benefits. Still, 33,808 people lost 
their lives last year on our roads, and about 2.2 million were 
injured. Tragically, 53 percent of vehicle occupants killed 
were not restrained by safety belts. Moreover, 32 percent of 
those killed died because of a drunk driver.
    If we are to fully realize the benefits of vehicle safety 
technologies, we must address drivers' most dangerous 
behaviors. As this committee moves forward with reauthorization 
of safety grant programs, we urge you to focus on those that 
provide the greatest safety benefits.
    The Alliance recommends the following:
    Primary enforcement safety belt-use laws result in higher 
usage rates, and that saves lives. The time has come to treat 
safety belt use with the same seriousness as drunk driving, and 
sanction States that have failed to adopt a primary law, in the 
same way the Congress required States to adopt .08 laws. We 
further urge that funding continue for ``Click It or Ticket,'' 
NHTSA's high-visibility enforcement campaign for safety belts.
    Drunk driving remains one of our most pervasive problems. 
While we've made progress over the last three decades, that 
progress pales in comparison to the size of the problem we 
face. That is why the Alliance is working with MADD to 
eliminate drunk driving permanently. We support MADD's campaign 
to eliminate drunk driving, which seeks to mandate the use of a 
Breathalyzer by anyone convicted of drunk driving, and requests 
additional funding for research of in-vehicle technologies that 
could prevent drunk drivers from driving.
    We urge the Senate to include the provisions of the DDROP 
Act and the ROADS SAFE Act in its reauthorization bill. In 
addition, we urge that funding for the high-visibility 
enforcement campaign, ``Over the Limit, Under Arrest,'' 
continue.
    Alliance members take concerns about driver distraction 
very seriously, and we applaud this committee's efforts to 
raise awareness about the dangers of distracted driving. 
Digital technology has created a connected culture that forever 
has changed our society. Automakers are working to manage 
technology to help drivers keep their eyes on the road and 
hands on the wheel. But, as we have learned, to be fully 
effective in addressing a safety problem, we need to supplement 
automakers' actions with consumer education and strong laws, 
visibly enforced.
    The Alliance supports laws banning hand-held texting and 
hand-held calling while driving, to accelerate the transition 
to more advanced, safer ways to communicate. We urge you to 
include the provisions of the Distracted Driving Prevention Act 
in the reauthorization bill, and funding for research to better 
understand driver behaviors, an evaluation of various means to 
addressing distracted driving.
    Obtaining a drivers license is a privilege, and special 
care should be taken in granting that privilege to new drivers. 
A recent Insurance Institute for Highway Safety study found 
that teen graduated licensing laws rated ``good'' by the 
Institute are associated with 30-percent lower fatal crash rate 
among 15- to 17-year-olds, compared with laws that are rated 
``poor.'' We urge you to include the provisions of the STANDUP 
Act in the reauthorization bill.
    NHTSA and safety researchers need robust data systems to 
assess current and future safety needs of adults and children. 
The National Automobile Sampling System, NASS, should be funded 
at a level sufficient to attain its intended design size. The 
Alliance recommends that $40 million annually is needed.
    In conclusion, reducing injuries and fatalities from auto 
crashes is a significant public health challenge. We appreciate 
the leadership shown by the members of this committee to 
address these issues, and we share your goals. We look forward 
to continuing to work with you to make our roads the safest in 
the world.
    Mr. Chairman, members of the Subcommittee, I'd be happy to 
answer any questions you may have.
    [The prepared statement of Mr. Strassburger follows:]

  Prepared Statement of Robert Strassburger, Vice President, Vehicle 
     Safety and Harmonization, Alliance of Automobile Manufacturers
    Thank you, Mr. Chairman and Subcommittee members. My name is Robert 
Strassburger and I am Vice President of Vehicle Safety and 
Harmonization at the Alliance of Automobile Manufacturers (Alliance). 
The Alliance is a trade association of twelve car and light truck 
manufacturers including BMW Group, Chrysler LLC, Ford Motor Company, 
General Motors, Jaguar Land Rover, Mazda, Mercedes-Benz, Mitsubishi 
Motors, Porsche, Toyota, Volkswagen Group of America and Volvo. Within 
Alliance membership, safety is a top priority. We operate in a high-
tech industry that uses cutting-edge safety technology to put people 
first.
    The latest government facts and figures show that U.S. motorists 
have never been safer. Just this month, the National Highway Traffic 
Safety Administration (NHTSA) announced that U.S. traffic fatalities 
dropped to a record low last year: a 9.7 percent decline from the year 
before. In 2009, there were 33,808 fatalities in motor vehicle traffic 
crashes, the lowest fatality number since 1950. 2009 also brought the 
Nation its lowest fatality rate ever: 1.13 fatalities per 100 million 
vehicle miles traveled (VMT).

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    These declines are even more significant in the face of sharp 
increases in other key factors--more drivers driving greater distances. 
In the past 60 years, VMT has more than quadrupled and the number of 
licensed drivers has more than doubled. Vehicle safety technologies 
combined with consumer education and tough laws combating the most 
dangerous driver behaviors have provided us sharp declines in critical 
fatality and injury statistics, all to the benefit of the traveling 
public.
    Nevertheless, we want to continue to reduce the risk of crashes and 
fatalities even further. Advancing real world motor vehicle safety 
remains a public health challenge, and automakers are doing our part. 
Even during the recent economic downturn, the auto industry spent more 
than $86 billion globally in R&D in 2008. Most of the safety features 
on motor vehicles in the U.S.--antilock brakes, stability control, side 
airbags for head and chest protection, side curtains, pre-crash 
occupant positioning, lane departure warning, collision avoidance and 
more, were developed and implemented voluntarily by manufacturers, in 
advance of any regulatory mandates. The industry is moving forward, 
engaging in high-tech research and implementation of new safety 
technologies including autonomous braking systems, vehicle safety 
communications systems for crash avoidance and much more. Our 
commitment is to continuously improve motor vehicle safety.
    However, we also recognize that vehicle improvements alone cannot 
get us to where we need to be as a nation. Even last year's historic 
low fatality figure represents a public health issue that requires us 
to identify the root causes and focus our collective efforts on the 
factors that will provide the biggest real world safety benefits. To 
that end, the single largest cause of fatal crashes is still alcohol-
impaired driving. In fact, even though 2009's actual number of alcohol-
related fatalities fell slightly, the percentage of fatalities caused 
by alcohol-impairment actually increased. And while safety belt use 
levels are at all-time highs, more than half of all people killed in 
traffic crashes last year were not wearing safety belts.
    These are just two examples of why the Alliance aggressively 
supports tough laws, education programs and high-visibility enforcement 
to address drivers' most dangerous behaviors. As this Committee 
prepares for the next authorization of highway safety grant programs, 
the Alliance recommends focusing precious resources on programs that 
will provide the most safety benefits: increasing safety belt usage; 
reducing drunk driving and distracted driving; reducing crashes caused 
by novice drivers; and ensuring NHTSA's traffic safety database 
continues to be the world's best.
Increasing Safety Belt Usage
    No industry sector over the past 25 years has devoted more 
resources to increasing safety belt usage: the automobile industry has 
spent $33 million on these efforts between 1996 and 2007 alone. Safety 
belts are the most effective means immediately available to motorists 
to keep them safe in crashes. The Alliance is proud of the work we have 
done with our traffic safety partners to successfully pass primary 
safety belt enforcement laws in more than 30 states. As soon as 
possible, that needs to be 50 states.
    SAFETEA-LU included the largest incentive grant program in history 
as a way to encourage states to pass these proven and effective belt 
laws. Those incentives helped influence elected officials in 12 states 
to enact primary enforcement laws in recent years. Unfortunately, 
adoption of these laws also failed by narrow margins in many other 
states.
    NHTSA's figures show that the total passenger vehicle occupant 
fatality rate per 100 million VMT is 9 percent higher in non-primary 
enforcement states than it is for states that have primary enforcement 
legislation in place. According to the agency, an additional 4,100 
lives would have been saved in 2008 (the latest year for which data is 
available) if all unrestrained passenger vehicle occupants five and 
older involved in fatal crashes had worn their safety belts.
    It has taken a quarter century to get just over half of the states 
to adopt primary enforcement laws. The Alliance now urges Congress to 
take the next step and include provisions for withholding a percentage 
of Highway Trust Fund monies from states that have failed to adopt 
primary enforcement safety belt laws. And, furthermore, we urge 
Congress to announce its intention to include such a provision as soon 
as possible, as this will induce state legislatures to act now.
    Sanctions have worked effectively to accelerate the process of 
passing laws and creating uniform safety policy in all 50 states and in 
the District of Columbia. Congress employed this tactic to encourage 
states to adopt a minimum legal drinking age of 21 (1984), zero alcohol 
tolerance laws for youth under 21 (1995), and 0.08 percent per se blood 
alcohol content (BAC) laws (2000). It is time to take a similar step 
with primary enforcement laws.
Reducing Drunk Driving
    Another significant traffic safety concern continues to be impaired 
driving, which accounts for more than 32 percent of all motor vehicle 
fatalities. We have made substantial progress in reducing impaired 
driving in the last two decades, but we must do more.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    In November 2006, the Alliance, among others, joined with the U.S. 
Department of Transportation, the Insurance Institute for Highway 
Safety (IIHS), the Governors Highway Safety Association, and the 
International Association of Chiefs of Police, to support MADD's 
Campaign to Eliminate Drunk Driving. The Campaign is pursuing the 
adoption of state laws mandating the installation of alcohol ignition 
interlocks (breathalyzers) on vehicles driven by convicted drunk 
drivers. New Mexico has become the first state to adopt this mandate, 
and has benefited by seeing a 30 percent drop in alcohol-involved 
crashes. Injuries and fatalities are down too, by 32 percent and 22 
percent respectively. The bipartisan reauthorization bill introduced in 
the House by Transportation Committee Chairman Oberstar and Ranking 
Member Mica included a provision requiring states to adopt mandatory 
ignition interlocks for convicted offenders as a condition for 
receiving Section 410 grants. Last December, Senators Lautenberg and 
Udall introduced similar legislation, the Drunk Driving Repeat Offender 
Prevention Act (S. 2920). We urge the Senate to include similar 
provisions in its reauthorization bill.
    In addition, in 2008 the Alliance, working through the Automotive 
Coalition for Traffic Safety (ACTS), joined NHTSA in a five-year, $10 
million cooperative agreement to research in-vehicle alcohol detection 
technologies that could prevent drivers from even starting a vehicle if 
their blood alcohol content is at or above 0.08, which is the legal 
limit. Such technologies hold tremendous promise for keeping alcohol-
impaired drivers off the road and reducing their impact on innocent 
motorists and passengers who lose their lives or are injured in drunk 
driving crashes. An I IHS analysis reveals that if driver blood alcohol 
concentrations can be limited to less than 0.08, approximately 9,000 
lives might be saved annually. We are pleased to support Senator 
Udall's legislation, S. 3039, which would aid the funding of this 
crucial research.
Reducing Distracted Driving
    Alliance members take concerns about driver distraction very 
seriously, and we applaud this Committee's efforts to raise the 
awareness about the dangers of distracted driving. While technology has 
made our world more connected than ever, the ease of connectivity has 
presented us all with new challenges. Alliance members prioritize 
safety in vehicle design, including cutting-edge in-vehicle information 
systems that allow drivers to keep their hands on the wheel and eyes on 
the road.
    This is why we recommend the Congress adopt the proven three-prong 
strategy that has worked so effectively in reducing drunk driving and 
increasing safety belt usage: (1) appropriate laws backed up by high 
visibility enforcement; (2) increased consumer education; and (3) 
increased research dollars to further evaluate driver behavior and 
safety countermeasures.
    The Alliance supports state laws banning hand-held texting and 
hand-held calling while driving, to accelerate the transition to more 
advanced, safer ways to communicate. The Alliance also supports the use 
of texting bans like those proposed by Chairman Rockefeller in S. 1938 
to combat unsafe behavior, and is working with Congress and other 
stakeholders to ensure that the legislation passed allows for 
innovative technologies to be included on the cars of the future to 
provide consumers with important safety benefits.
    We need consumer education so that drivers know that even with the 
cutting-edge technology found in today's cars--driving distractions 
remain a risk. Not just hand-held texting and hand-held calling, but 
eating, drinking, searching for a CD--anything that prolongs a driver's 
``eyes off road'' time presents a risk. This is why the Alliance is 
proud to partner with leading medical associations in launching a 
broad, national, multimedia campaign to raise awareness. The OMG 
Campaign launched this month is a national, multi-media campaign 
designed to help raise awareness of the dangers of distracted driving.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    And third on the distracted driving front, the Alliance recognizes 
the need to fund continued research so that we can further understand 
driver behaviors and evaluate alternative means of addressing the 
concern. This three-pronged approach has worked for 0.08 BAC limits and 
``Click It or Ticket'' safety belt usage campaigns. It will work here 
as well.
    With regard to increasing safety belt usage and preventing drunk 
and distracted driving, we also urge the Committee to continue its 
leadership by providing Federal funding for paid advertising to support 
high visibility enforcement campaigns, like ``Click It or Ticket'' and 
``Over the Limit, Under Arrest.'' This advertising is essential to the 
continuing success of these activities.
Reducing Crashes Caused by Novice Drivers
    Alliance members believe that obtaining a driver's license is a 
privilege and, as such, states should take special care in granting 
that privilege to new drivers. A recent IIHS study found that teen 
licensing laws rated ``good'' are associated with a 30 percent lower 
fatal crash rate among 15-17 year-olds, compared with licensing laws 
that are rated ``poor.'' Examples of helpful teen licensing laws 
include: requiring all occupants to wear safety belts when a teen is 
behind the wheel; restricting the number of passengers for teenage 
drivers; prohibiting impaired driving at any level; and prohibiting all 
portable electronic communication and entertainment devices.
    The Alliance supports inclusion of language similar to S. 3269, the 
STANDUP ACT, co-sponsored by Senator Klobuchar. The STANDUP ACT would 
establish minimum Federal requirements for state graduated driver 
licensing (GDL) laws and provide incentive grants for states to adopt 
GDL laws that meet those minimum requirements within 3 years. After 3 
years, those states that have not adopted these GDL laws would be 
subject to a sanction of their highway funding.
Ensuring NHTSA's Traffic Safety Database Continues to be the World's 
        Best
    Lastly, as we work to further improve real world safety through 
additional advancements in vehicle design, NHTSA and safety researchers 
must have robust databases upon which to assess current and future 
safety needs of adults and children. The National Automotive Sampling 
System (NASS) is an essential nationwide data collection resource that 
provides the department and safety researchers with detailed motor 
vehicle crash and injury information. t is operated by the National 
Center for Statistics and Analysis of NHTSA. NASS--which began in 
1979--is a primary resource for identifying traffic safety issues, 
establishing priorities, assisting in the design of future safety 
countermeasures and for evaluating existing countermeasures.
    The budget for NASS has not kept pace with either the department's 
informational needs or inflation. Moreover, these needs are growing as 
Alliance members reinvent the automobile in response to societal 
demands for ever safer and cleaner vehicles. The capability of NASS has 
been dramatically reduced. Currently, NASS collects in-depth data on 
approximately 4,500 crashes--less than a third of the intended design 
size of 15,000 to 20,000 crash cases annually. Further, NASS lacks 
adequate data on children involved in motor vehicle crashes.
    NASS should be funded at a level sufficient to attain its intended 
design size to ensure critical ``real-world'' data is collected at a 
sufficient number of sites nationwide to provide the statistically 
valid, nationally representative sample originally intended. The 
Alliance also supports enhancing NASS's capacity to collect sufficient 
data concerning our most precious cargo--our children. An additionally 
funded child occupant protection component to NASS is currently in 
pilot development at NHTSA through industry grants to The Children's 
Hospital of Philadelphia. These goals can be accomplished with an 
incremental $40 million annual investment in NASS, which equates to 
$1.73 cents for every $100 of economic loss from traffic injuries and 
fatalities.
    Thank you for your consideration of these recommendations, and we 
look forward to working with this Committee as you move forward in the 
process.

    Senator Pryor. Thank you.
    Ms. Dean-Mooney?

            STATEMENT OF LAURA DEAN-MOONEY, NATIONAL

        PRESIDENT, MOTHERS AGAINST DRUNK DRIVING (MADD)

    Ms. Dean-Mooney. Thank you, Chairman Pryor.
    MADD last week celebrated its 30th anniversary with a rally 
at the Capitol, with hundreds of our volunteers focused on one 
thing: the elimination of drunk driving.
    As you both know, I joined MADD after my husband, Mike 
Dean, was killed in Texas by a drunk driver going--leaving me 
to raise our 8-month-old daughter alone.
    Mike left a business meeting on November 21, 1991, in 
Oklahoma, and drove to the Dallas/Fort Worth area to visit his 
family. At 7:15 p.m. on that Thursday night, a drunk driver met 
Mike's car head-on, killing him instantly, making me a widow 
and a single mom. The offender, who also died at the scene, had 
a blood alcohol concentration of .34 and an empty bottle of 
whiskey in his car.
    For more than 17 years, I have volunteered at--for MADD's 
mission, at the local, State, and national level, and I will 
continue this work until no one has to face the loss that I 
faced due to a drunk driver. Last year, 10,839 real people were 
killed in alcohol-related crashes; almost one-third of all 
fatalities.
    Additional NHTSA statistics paint a startling portrait of 
what's happening on our roads. One Arkansas resident holds the 
record for most DUIs, with 44 convictions. In my home State of 
Texas, over 120,000 motorists are driving with three or more 
DUI convictions, and over 18,000 are driving with five or more 
convictions.
    But, fortunately, MADD does have a plan. MADD's campaign to 
eliminate drunk driving, which, first, supports more resources 
for high visibility law enforcement; second, requires convicted 
drunk drivers to install an ignition interlock device; and, 
lastly, turns cars into the cure, through the development of 
advanced in-vehicle technology. As you all know, an interlock 
is a breath-test device that is linked to a vehicle's ignition 
system. It allows the DUI offender to continue to drive 
wherever they need to go, they just can't drive drunk.
    The research on interlocks is crystal clear and 
irrefutable. Since New Mexico and Arizona implemented all-
offender interlock laws, DUI fatalities in those States have 
been reduced by 30 and 33 percent, respectively. Every American 
should be protected by an all-offender interlock law.
    MADD is now facing roadblocks from the alcohol industry and 
DUI defense attorneys as we try to pass this law in State 
legislatures. We strongly urge the Committee to work with the 
Senate Environment and Public Works Committee to include an 
all-offender interlock Federal standard in the reauthorization 
bill. This lifesaving measure is sound policy.
    While interlocks are currently the most proven technology 
available to stop drunk driving, a program is underway to 
provide an advanced in-vehicle option for consumers. This 
technology could potentially eliminate drunk driving. The DADSS 
system is a result of a research agreement between NHTSA and 
many of the world's leading auto manufacturers. The purpose of 
this agreement is to research, develop, and demonstrate non-
invasive in-vehicle technologies that can very quickly and 
accurately measure a driver's BAC. The Insurance Institute for 
Highway Safety estimates that over 8,000 lives could be saved 
if this technology is widely deployed in the U.S.
    Senator Tom Udall and Senator Bob Corker have introduced 
bipartisan legislation, the ROADS SAFE Act, which would 
authorize an addition--$12 million per year for DADSS. ROADS 
SAFE has been included as part of the Motor Vehicle Safety Act 
in both the House and the Senate.
    On behalf of all DUI victims and potential future victims 
of this violent crime, MADD urges Congress to pass the MVSA 
this year with an authorization for this program.
    Turning to the grant programs, MADD agrees with GHSA, that 
the program needs to be streamlined. It is also critical that 
dollars are spent on programs that work. SAFETEA-LU traffic 
safety grants represent the majority of funds that States spend 
on drunk-driving prevention. With respect to the impaired-
driving grant program, MADD recommends doing away with the 
qualifying criteria, so that all States automatically receive 
their funding. But, funding must be spent on activities that 
can save the most lives, with meaningful performance and 
activity measures in place to gauge program effectiveness. 
NHTSA must have the authority to ensure that the States are 
moving in the right direction.
    A series of IG and GAO reports have been released showing 
what is needed to improve traffic safety grant programs. The IG 
and the GAO have made several recommendations to NHTSA, 
including the development of performance measures, in 
coordination with the States. While NHTSA has since worked with 
the States to develop performance measures, MADD does not feel 
that these measures are meaningful enough to fulfill the intent 
of the IG and the GAO.
    MADD appreciates the work of this committee that you've 
done in the years, directing GAO and the IG to review NHTSA's 
programs, and in outlining steps that NHTSA can take to improve 
its oversight functions and the effectiveness of State 
expenditures. We look forward to working with the Committee to 
make additional improvements.
    To conclude, this committee's leadership is important, and 
we will eliminate drunk driving. MADD asks the Committee to 
consider ways to make ignition interlocks part of the next 
reauthorization bill, and we also thank you for turning cars 
into the cure for drunk driving by passing the ROADS SAFE Act 
and implementing the Highway Safety Grant Program changes to 
ensure that States receive the funding and spend it on 
activities that will save the most lives and prevent injuries.
    Thank you very much.
    [The prepared statement of Ms. Dean-Mooney follows:]

     Prepared Statement of Laura Dean-Mooney, National President, 
                  Mothers Against Drunk Driving (MADD)
    Thank you, Chairman Pryor and Ranking Member Wicker, for the 
opportunity to testify before the Subcommittee on Consumer Protection, 
Product Safety, and Insurance. Your leadership and the leadership of 
this committee are to be commended as we work to save lives and 
eliminate drunk driving in our Nation.
    Just last week, Mothers Against Drunk Driving (MADD) celebrated its 
30th Anniversary with a national conference held here in our Nation's 
Capital. This past Thursday we held a rally on the Hill, with hundreds 
of MADD volunteers focused on one thing: the elimination of drunk 
driving in America.
    Since our founding in 1980, drunk driving fatalities have dropped 
by over 40 percent. We are proud of our successes, but as we reflect on 
30 years of advocacy with the goal of saving lives, we must not accept 
complacency. We all must recommit to saving lives and the elimination 
of drunk driving. The National Highway Traffic Safety Administration 
(NHTSA) recently released its fatality analysis reporting system (FARS) 
statistics. While fatalities are down, there is much more work to be 
done. Every one of us should be outraged that 10,839 people, one-third 
of all highway fatalities, died due to drunk driving.
    Over MADD's 30 year history of advocacy, 300,000 lives have been 
saved since our founding. We have put a face to the crime of drunk 
driving, sharing story after story of lives cut short due to someone's 
senseless actions. It is these stories, including my own, that continue 
to propel our organization forward, moving toward the attainable goal 
of eliminating this public health epidemic once and for all.
    I became involved with MADD after my husband, Mike Dean, was killed 
in Texas by a drunk driver, leaving me to raise our 8-month-old 
daughter alone. On November 21, 1991, Mike left a business meeting in 
Oklahoma and drove to the Dallas-Fort Worth area to visit his family.
    At 7:15 p.m., a drunk driver going the wrong way on a Texas highway 
met Mike's car head on, killing him instantly and simultaneously making 
me both a grieving widow and a single mom. The offender, who died at 
the crash scene, had a blood alcohol concentration (BAC) of .34 and was 
driving with an almost empty bottle of whiskey in his car.
    For more than 17 years, I have worked as a volunteer to advance 
MADD's mission at the local, state, and national level.
    Mr. Chairman, we have made great progress in the fight against 
drunk driving--much of which occurred in the 1980s and through the mid-
1990s--thanks to strong laws like the 21 minimum drinking age, 
administrative license revocation, zero-tolerance for youth, and the 
national .08 BAC standard. These laws coupled with the equally 
important efforts of law enforcement, publicized at certain high-risk 
times of the year through high-visibility crackdown mobilizations, have 
led to tremendous reductions in fatalities and injuries.
    While drunk driving fatalities have decreased, America continues to 
practice a ``catch and release'' program: law enforcement does their 
very best to catch drunk drivers, and we as a society through our 
legislatures and courts, oftentimes let them go with few consequences.
    A couple of statistics collected by the National Highway Traffic 
Safety Administration (NHTSA) paint a startling portrait of what's 
happening on our roads.

  <bullet> One Arkansas resident holds the record for most DUI's with 
        44 convictions.

  <bullet> In my home state of Texas, 124,662 motorists are driving 
        with three or more DUI convictions and 18,271 are driving with 
        five or more convictions.

    Unfortunately, this type of data is not available for all states.
Campaign to Eliminate Drunk Driving
    Fortunately MADD, with support from Members of Congress, NHTSA and 
others in the highway safety community, has a plan.
    Following only those solutions proven to work, MADD announced the 
Campaign to Eliminate Drunk Driving in November 2006.
    The Campaign consists of three parts, all singularly focused on 
putting a long-overdue end to drunk driving tragedies of our roads:

  <bullet> Support the heroes who keep our roads safe. High-visibility 
        law enforcement catches drunk drivers and discourages others 
        from driving drunk.

  <bullet> Require convicted drunk drivers to blow before they go. 
        Ignition interlock devices, or in-car breathalyzers, require 
        all convicted drunk drivers to prove they are sober before the 
        car will start.

  <bullet> Turn cars into the cure. Tomorrow's cars will protect each 
        of us, automatically determining whether or not the driver is 
        at or above the legal limit of .08 and failing to operate if 
        the driver is impaired.
High-Visibility Law Enforcement: A Proven Solution
    Studies show that the combination of paid media ads combined with 
high visibility law enforcement is proven to deter drunk drivers from 
getting behind the wheel. MADD advocated authorizing $29 million per 
year for NHTSA to conduct three annual mobilization efforts as part of 
SAFETEA-LU. We thank the Committee for authorizing the program, and we 
hope to see it continue at even more robust funding levels. Drunk 
Driving: Over the Limit, Under Arrest is conducted twice yearly and 
Click it or Ticket once per year. Both campaigns have been highly-
effective.
    The paid ads target audiences at the highest risk to drive drunk. 
While the ads are running on television and radio, law enforcement 
conducts sobriety checkpoints and saturation patrols. Would-be 
offenders see the advertisements, see law enforcement out in force, and 
realize that they will be caught if they drive drunk.
    MADD recommends that the next reauthorization bill include 
increased funding for up to 5 yearly crackdowns focusing on drunk 
driving and seatbelt enforcement.
Interlocks Save Lives
    In the past, we as a society have focused on license revocation as 
the primary countermeasure to drunk driving. If you're caught driving 
drunk, you'll lose your driver's license. The reality is that 50 to 75 
percent of these offenders will continue to drive illegally. In 
addition, unless you live in an area with accessible mass transit 
options, you need a car to get to and from work, school, treatment and 
other everyday destinations.
    An alcohol ignition interlock is a breath test device linked to a 
vehicle's ignition system. When a driver wishes to start their vehicle, 
they must first blow into the device. The vehicle will not start unless 
the driver's BAC is below a pre-set standard.
    The alcohol ignition interlock allows a DUI offender to continue to 
drive wherever they need to go. He or she just can't drive drunk and 
hurt your family or mine.
    Studies overwhelmingly show that interlocks work. The Centers for 
Disease Control (CDC) has reviewed ignition interlocks and has stated 
that ``based on strong evidence of the effectiveness of interlocks in 
reducing re-arrest rates, the (CDC) Task Force recommended that 
ignition interlock programs be implemented.'' In addition to the CDC, 
there are more than 15 published studies on interlock effectiveness 
which show that interlocks are associated with substantial and 
impressive reductions in recidivism, ranging from 50 percent to 90 
percent. The evaluations involve a diversity of programs, accounting 
for the variation in results.
    The research on ignition interlocks is crystal clear and 
irrefutable. Beyond the research, we have fatality data that proves 
interlocks are effective. In 2005, New Mexico became the first state to 
require interlocks for all convicted DUI offenders. Since this time, 
DUI fatalities in the state have been reduced by over 30 percent. 
Arizona passed a similar law in 2006 and has seen a 33 percent 
reduction in DUI fatalities.
    Today, thanks in part to MADD's campaign, 11 states require all DUI 
offenders to use an ignition interlock device. Two states highly 
incentivize DUI offenders to use an interlock and California passed a 
pilot program requiring all convicted DUI offenders in four counties 
(with a total population of 14 million people) to use an ignition 
interlock device.
    The population in these states and counties covers over 84 million 
Americans--a subset of America that is now under the protection of all 
offender ignition interlock laws.
    Every American should be protected by this lifesaving policy. It is 
the right thing to do be. That is why MADD is calling for a Federal 
standard which would require interlocks for all convicted DUI 
offenders. This is the same approach the Congress took with the 21 
minimum drinking age law and the .08 per se BAC law. No state has ever 
lost money as a result of the national standards.
    While MADD has made great progress in state advocacy work, we have 
encountered several roadblocks to progress. Therefore, we must turn to 
the Congress for help.
    An example of this roadblock is in Maryland where an ignition 
interlock law was considered in a legislature dominated by criminal 
defense attorneys. The Senate President, Michael Miller, is a DUI 
defense attorney who, according to his law firm's website ``practices 
in the areas of criminal law, traffic law, DWI and personal injury.'' 
Senator Miller worked to amend interlock legislation to remove the 
interlock penalty for DUI offenders who plead down to a lesser 
punishment, known as probation before judgment. Roughly half of those 
arrested for DUI in Maryland will plead to this lesser offense.
    In the House of Delegates, the Judiciary Chairman is also a well 
known DUI defense attorney who routinely amends sound DUI law in favor 
of significant judicial discretion. The Washington Post Editorial Board 
commented on this fact in a March 30, 2010 editorial which I will 
submit for the record. It is titled Maryland Lawmakers Need to Stop 
Coddling Drunk Drivers.
    Maryland is but one example. The truth is that these patterns exist 
across the country. The need for a Federal interlock standard could not 
be more clear.
    In the House, Chairman Oberstar and Ranking Member Mica have 
included just such a standard in their version of the highway 
reauthorization bill. In the Senate, Senators Lautenberg and Tom Udall 
have introduced the Drunk Driving Repeat Offender Prevention Act, or 
DDROP, which mirrors language in the House reauthorization bill by 
requiring all DUI offenders to use an interlock for at least 6 months.
    MADD strongly urges this committee to work with the Senate 
Environment and Public Works Committee to include an all offender 
ignition interlock standard in the Senate version of the highway 
reauthorization bill. The Insurance Institute for Highway Safety 
estimates that 1,100 lives could be saved if every state required all 
drunk drivers to use an ignition interlock device. This is due to 
specific deterrence. MADD expects that more lives could be saved as New 
Mexico and Arizona both experienced over 30 percent reductions in DUI 
fatalities due to general and specific deterrence from widespread use 
of ignition interlocks.
Advanced Alcohol Detection Technology
    While interlocks are currently the most proven technology available 
to stop drunk driving, a program is underway which could one day 
literally eliminate drunk driving. During a 2007 Senate Environment and 
Public Works hearing, Chairman Barbara Boxer referred to this effort as 
the ``Manhattan Project'' for drunk driving.
    The Driver Alcohol Detection System for Safety, or DADSS, is the 
result of a cooperative research agreement currently underway between 
NHTSA and the Automotive Coalition for Traffic Safety (ACTS), comprised 
of many of the world's leading auto manufacturers. The agreement is a 
public-private partnership with both entities providing $1 million per 
year for 5 years.
    The purpose of this $10 million agreement is to research, develop, 
and demonstrate non-invasive in-vehicle alcohol detection technologies 
that can very quickly and accurately measure a driver's BAC. The 
Insurance Institute for Highway Safety estimates that over 8,000 lives 
could be saved if advanced alcohol technology is widely deployed in the 
United States. These advanced technologies offer the potential for a 
system that could prevent the vehicle from being driven when the 
driver's BAC exceeds the legal limit.
    Any technology which is developed must be highly accurate, nearly 
instantaneous, and not hassle the sober driver. If the technology is 
successful, a sober driver would notice no difference in his or her 
driving experience. Any technology developed must be set to detect 
blood alcohol concentrations of .08 or above.
    In the first phase of technology development, three companies have 
been selected through a request for proposal process and testing will 
be performed in conjunction with the Harvard Medical School. While we 
are encouraged and hopeful that DADSS will succeed in identifying a 
technology to one day eliminate drunk driving, we need the help of 
Congress to guarantee that this technology becomes a reality.
    Senator Tom Udall and Senator Bob Corker have introduced bipartisan 
legislation, the Research of Alcohol Detection Systems for Stopping 
Alcohol-related Fatalities Everywhere Act, or ROADS SAFE, which would 
authorize an additional $12 million per year for DADSS. Many Senators 
on this Committee are cosponsors of the legislation, and we thank them 
for their leadership and support. In the House, Representatives Ehlers 
and Sarbanes have introduced similar legislation.
    ROADS SAFE has been included as part of the Motor Vehicle Safety 
Act (MVSA) in both the House and the Senate. On behalf of all DUI 
victims, and potential future victims of this violent crime, MADD urges 
Congress to pass the MVSA this year with an authorization for this 
program. The additional funding would provide an essential financial 
boost to the development of this technology, as well as ensure a 
greater Federal commitment toward eliminating drunk driving.
    It is of vital importance that ROADS SAFE be authorized as soon as 
possible. Every year that we allow drunk drivers to continue to drive 
on our roads, there are thousands of unnecessary deaths and injuries. 
MADD urges Congress to provide $12 million a year to address a problem 
that costs the United States $130 billion each year. This is an 
excellent return on taxpayer investment.
Reevaluating the Highway Safety Grant Formula Program
    MADD looks forward to working with you and your staff to provide 
specific policy recommendations to strengthen the current highway 
safety grant programs.
    MADD agrees with our friends at the Governors Highway Safety 
Administration (GHSA) that the highway safety grant program needs to be 
streamlined. It is logical to combine programs into one large ``pot'' 
with funding allocated to those areas of critical importance to highway 
safety. This allows states to use one application yearly instead of 
applying for numerous different grants at various times throughout the 
year. Because funding is limited, it is critical that dollars be spent 
in key areas such as impaired driving, safety belts and data 
collection.
    MADD would like to offer some particular recommendations toward the 
impaired driving countermeasure program, commonly known as the 410 
program.
    First, it is imperative that impaired driving funds be distributed 
to all states. Taxpayer's pay into the highway trust fund and it is 
important that this funding go back to the states to be spent on proven 
impaired driving countermeasures. Currently, the 410 program requires 
states to meet certain criteria each year in order to qualify for this 
funding. In addition, the 10 best and 10 worst states automatically 
receive funding. MADD would like to do away with this current 
structure. While well intended, the 410 program creates an unnecessary 
burden to states in order to receive funds. We do not want to withhold 
this funding from any state since it serves as such a large portion of 
all funds spent on impaired driving efforts. What we do want is to make 
sure that funds are spent wisely and effectively.
    MADD recommends that funding be spent on activities that work, and 
performance and activity measures should be in place to gauge program 
effectiveness. In the impaired driving category, this means activities 
like implementation of alcohol ignition interlock programs, law 
enforcement activities, DUI data collection, and DUI judicial education 
such as through the Traffic Safety Resource Prosecutor (TSRP) program.
    In return for receiving funds, states must create specific, 
meaningful performance and activity measures that will show progress, 
or lack thereof, in reducing DUI fatalities year to year. States should 
be measured against themselves year to year.
    MADD also asks the Committee to consider giving NHTSA more 
authority in working with states as they develop their strategic 
highway safety plan. In the past, NHTSA had plan approval authority to 
ensure that states were spending funds effectively. That authority was 
taken away in the late 1990s, and as a result there have been concerns 
that NHTSA does not have enough recourse to effectively work with 
states which are trending in the wrong direction.
    Concerns that grew as a result of the removal of NHTSA's plan 
approval authority led this committee and others to consult with the 
Office of the Inspector General (OIG) and the Government Accountability 
Office (GAO). A series of OIG and GAO reports have been released, 
showing what is needed to improve traffic safety grant programs. Some 
of these reports focus specifically on impaired driving resources.
    In the OIG's Department of Transportation (DOT) FY 2007 Top 
Management Report, the OIG states that:

        ``[N]o appreciable improvement in the number of highway 
        fatalities can be achieved until alcohol-related fatalities 
        drop dramatically. States are the linchpin in achieving this 
        drop and ensuring that $555 million in Federal funding 
        authorized for state alcohol-impaired driving incentive grants 
        are targeted toward strategies that have the most impact.''

    One of the OIG's recommended actions from the FY07 report was: 
``Promoting Improved Performance Measures and Enhanced State 
Accountability to Maximize Efforts to Reduce Fatalities Caused by 
Impaired Driving.'' The report goes on to state the following:

        ``NHTSA--the lead Federal agency responsible for reducing 
        alcohol-impaired driving--could assist in this effort by 
        ensuring that the states include more meaningful measures 
        linked to key program strategies in their performance plans.''

    While NHTSA has since worked with the states to develop indicators 
to measure performance in priority program areas, MADD does not feel 
that these measures are meaningful enough to fulfill the intent of the 
OIG.
    In a March 2007 OIG report titled ``Audit of the National Highway 
Traffic Safety Administration's Alcohol-Impaired Driving Traffic Safety 
Program'' (report #MH-2007-036), the OIG states:

        ``Officials in NHTSA and the 10 states we reviewed attributed 
        success in combating alcohol-impaired driving to many factors. 
        They agreed that, while other strategies may be important, a 
        successful traffic safety program should include strategies 
        focusing on two key elements: (1) sustained enforcement of laws 
        (to include highly visible police presence and media efforts) 
        and (2) effective prosecution and full application of available 
        sanctions . . . we concluded that NHTSA should do more to 
        measure state implementation of these strategies so that 
        additional funding for countering alcohol-impaired driving is 
        effectively used.''

    The OIG includes the following table as an example of potential 
improved performance measures:

     Table 3. Benefits From Potential Improved Performance Measures
------------------------------------------------------------------------
                    Potential Improved
     Strategy           Performance      Potential Benefits for NHTSA if
                          Measure           States Used Such Measures
------------------------------------------------------------------------
Sustained           Accomplish          NHTSA could better determine the
 Enforcement         sustained           degree to which states were
                     enforcement at a    carrying out SAFETEA-LU
                     set percentage*     required assurances to pursue
                     of at-risk areas    this strategy.
                     in the state.
                                        NHTSA could better determine
                                         whether emphasis on sustained
                                         enforcement had an impact on
                                         alcohol-related fatalities and
                                         injuries in at-risk areas.
Prosecution and     Achieve a set       NHTSA could better determine
Sanctions            percentage* of      whether specialized training
                     successful          programs for prosecutors had an
                     convictions for     impact on conviction rates.
                     alcohol-impaired
                     driving offenses.
                                        NHTSA could better determine the
                                         impact of structural change,
                                         such as the establishment of
                                         courts specializing in alcohol-
                                         impaired driving cases.
------------------------------------------------------------------------
Source: OIG.
* Percentage to be determined by NHTSA and the states.

    To demonstrate the lack of NHTSA's ability to fully gauge the 
impact of Federal resources on traffic safety, and the way in which 
establishing more meaningful performance measures and goals would help, 
the OIG points out that:

        ``According to NHTSA, sustained enforcement was defined as `at 
        least one enforcement event conducted weekly in areas of a 
        state where 60 percent or more of the alcohol-related 
        fatalities occurred.' Yet, none of the states included this 
        measure in their annual plans or reports provided to NHTSA . . 
        . Regarding effective prosecution, NHTSA had not yet 
        established a specific measure, although one state did report 
        to a limited extent on improvements in conviction rates for 
        alcohol-impaired driving offenses.''

    The GAO has also reviewed NHTSA's programs, highlighting management 
difficulties in a March 2008 and stating that:

        ``NHTSA's intermediate outcome measures do not include measures 
        to track behaviors that influence alcohol-related fatalities. 
        Such measures could include the numbers of impaired driving 
        citations issues, arrests, and convictions.''

    The OIG and GAO have made several recommendations to NHTSA, 
including the development of intermediate performance measures in 
coordination with the states. Since that time, MADD is pleased that 
NHTSA and the states have moved forward with the development of 
performance and activity measures. However, the report that resulted 
from this collaborative effort, in MADD's opinion, has not resulted in 
the establishment of meaningful performance and activity measures that 
respond to serious concerns raised by this Committee and the OIG and 
GAO. The August 2008 NHTSA/DOT report, titled ``Traffic Safety 
Performance Measures for States and Federal Agencies'' (DOT HS 811 025) 
is a starting point, setting forth a ``minimum set of performance 
measures'' (emphasis added), but does not go far enough.
    MADD appreciates the work this Committee has done over the years in 
directing GAO and the IG to review NHTSA's programs, and outlining 
steps that NHTSA can take to improve its oversight functions and the 
effectiveness of state expenditures. We look forward to working with 
the Committee to make additional improvements, with the ultimate goal 
of eliminating drunk driving.
    MADD has one final recommendation that we would urge the Committee 
to consider: we believe it would be beneficial to encourage all states 
to hire a statewide DUI coordinator. This is based on the highly 
successful model of New Mexico's appointment of a DUI Czar. Drunk 
driving is an enormous problem that encompasses many jurisdictions: law 
enforcement, the judiciary, administrative offices, probation, 
treatment, etc. Often times these jurisdictions do not effectively 
coordinate and communicate their efforts, making it difficult to have a 
functional system in place. A DUI coordinator would also bring greater 
accountability and minimize finger pointing between state agencies. We 
believe that if every state had a DUI coordinator we would see great 
improvements in state efforts to combat drunk driving, much like in New 
Mexico.
Conclusion
    The Campaign to Eliminate Drunk Driving started as a lofty goal in 
2006 and has rapidly progressed to being on the verge of reality. In 
2006, just 2 million Americans were protected by all offender interlock 
laws. Today, 84 million people are protected by these laws, but MADD 
will not stop until interlocks for all offenders becomes the law of the 
land.
    With this Committee's leadership, we will eliminate drunk driving. 
MADD asks the Committee to consider ways to make alcohol ignition 
interlocks an important part of the next reauthorization bill.
    We also ask for the support of Congress to turn cars into the cure 
for drunk driving by passing the ROADS SAFE Act.
    Finally, by streamlining and revamping the current highway safety 
formula grant program, we can make changes which will ensure states 
receive their funding and spend it on activities that will save the 
most lives and prevent the most injuries.
    Thank you to this Committee, and thank you to Chairman Pryor, and 
Ranking Member Wicker, for holding this important hearing, and for your 
leadership on this issue.

    Senator Pryor. Thank you.
    Mr. Pedersen, can you give your opening statement in, say, 
3 to 5 minutes? Is that----
    Mr. Pedersen. I had certainly----
    Senator Pryor. If that's possible, then I'll stay, and then 
we'll recess as soon as you finish. Thank you very much.

           STATEMENT OF NEIL PEDERSEN, ADMINISTRATOR,

             MARYLAND STATE HIGHWAY ADMINISTRATION;

   AND REPRESENTATIVE, GOVERNOR'S HIGHWAY SAFETY ASSOCIATION 
                             (GHSA)

    Mr. Pedersen. Thank you, Mr. Chairman.
    My name is Neil Pedersen. I'm the Maryland State Highway 
Administrator, as you said, and also the Governors Highway 
Safety Representative from Maryland. And I thank you for the 
opportunity to testify today on behalf of the Governors Highway 
Safety Association.
    Governors Highway Safety Association members administer one 
formula grant program, seven incentive grant programs, and two 
penalty transfer fund programs. And, as you heard earlier from 
Senator Wicker, we're very concerned about the fact that these 
all have different schedules, they all have been put together 
in a piecemeal fashion. So, our first recommendation is that 
there be a national plan developed that takes a more strategic 
approach toward highway traffic safety. A national plan should 
be developed under NHTSA's leadership, but working together 
with State, local, and private-sector input.
    We also strongly recommend that there be a single Highway 
Safety Grant Program, with earmarks for impaired driving, 
occupant protection, and motorcycle safety, with a single 
application date at the beginning of the Federal fiscal year, 
and support, in concept, the approach taken by the House 
Transportation Infrastructure Committee.
    We also would like to spend less of our time on the 
administrative parts of having to apply for funds, and have 
more of our time and money be going into, actually, the 
programs themselves.
    We're very much in favor of a performance-based approach. 
We have worked together with NHTSA on a core set of 15 
performance measures. We would like to see the programs really 
be far more focused on where the performance data is saying we 
have our biggest problems, and also based on where research is 
saying that we will have the greatest effect, in terms of where 
we have invested our dollars, as well.
    In terms of specific program changes, we support expanding 
the purpose and scope of the 2010 Motorcyclist Safety Program, 
combining the three occupant protection programs into a single, 
more-performance-based program, and focusing the 410 Impaired 
Driving Incentive Program and the countermeasures that have 
been proven to be most effective; that is really letting the 
data and the research results drive where the money is being 
spent in the 410 Program itself.
    We'd also support authorization of funding to combat 
aggressive driving and excessive speeding. We believe, today, 
there is not enough Federal funding focus on the speed problem 
itself. Speed accounts for approximately one-third of all 
crashes, yet there are no funds dedicated to combat speed.
    We also support funding to encourage States to improve 
their graduated driver licensing programs. We're very 
supportive, in concept, of the incentives that Senator 
Klobuchar has proposed.
    GHSA very strongly supports substantially increased funding 
for data improvements. We believe that that's really the basis 
for a sound performance-based approach. Today, we do not get 
nearly enough money, in terms of supporting data programs and 
data improvements. If we're going to be most effective in a 
performance-based approach, we really do have to have a sound 
data basis for the programs themselves.
    And finally--and there's more detail in my written 
testimony--we would really like to see more emphasis on funding 
both of research and training. Really, today, the key, from my 
perspective and from GHSA's perspective, is, we should be 
putting our money where research has told us we'd get the 
greatest results. In the many, many different programs, only 
about a third of them really are based on what I would call 
sound scientific-research basis. And we need to have more money 
for research telling us where our money should be going.
    And as many of the baby-boomers, who are leading the safety 
efforts, are reaching retirement age, we really have to be 
training the next generation of safety professionals.
    In summary, GHSA has recommended that the current grant 
planning and application process should be consolidated and 
streamlined; programs should be more performance-based, with 
greater flexibility, and some programmatic changes should be 
made.
    And I appreciate the opportunity to testify before you 
today.
    Thank you.
    [The prepared statement of Mr. Pedersen follows:]

  Prepared Statement of Neil Pedersen, Administrator, Maryland State 
 Highway Administration; and Representative, Governor's Highway Safety 
                           Association (GHSA)
I. Introduction
    Good morning. My name is Neil Pedersen and I am Administrator of 
the Maryland State Highway Administration and Governor's Highway Safety 
Representative for Maryland. This morning I am representing the 
Governors Highway Safety Association. GHSA is a nonprofit association 
that represents state highway safety agencies. Its members administer 
Federal behavioral highway safety grant programs that are authorized 
under Title II of the Safe, Accountable, Flexible, Efficient 
Transportation Equity Act: A Legacy for Users (SAFETEA-LU). They are 
appointed by their Governors to administer these grant programs and 
implement statewide highway safety programs. Areas of focus include: 
impaired driving; occupant protection; speeding and aggressive driving; 
distracted driving; younger and older drivers; bicycle, motorcycle and 
pedestrian safety; traffic records and highway safety workforce 
development.
    As you know, traffic-related fatalities and injuries continue to be 
a major public health problem in this country. Although we have made 
some progress, there were still more than 33,000 fatalities and 2.2 
million injuries in 2009--the last year for which complete statistics 
are available. Traffic crashes not only cause devastation to families 
and individuals, but they also cost the Nation an estimated $230 
billion annually. Unfortunately, these crashes happen in one's and 
two's, so there is little public awareness about them and even less 
public outcry against them.
    To address this problem, the Federal Government must make the 
reduction of highway fatalities and injuries a national priority and 
play a strong role in developing highway safety policies and programs. 
The Federal Government has played such a role since the enactment of 
the Highway Safety Act of 1966. This Act solidified the Federal 
leadership position on highway safety while also establishing a 
partnership with state governments. The Act created the Section 402 
State and Community Highway Safety grant program (23 U.S.C. 402) which 
provided funding to states on a formula basis for developing and 
implementing state highway safety programs. As the Congress develops 
the highway safety programs under the next reauthorization, it is 
important to maintain this strong Federal role. Just as the Federal 
Government deems it important to prevent tobacco and drug use, underage 
drinking or obesity, it must also protect the public on the roadways. 
Without Federal assistance and leadership, especially in these 
difficult economic times, it is unlikely that states would be able to 
provide the necessary resources to enhance roadway safety and prevent 
injuries and fatalities.
II. National Strategic Highway Safety Plan
    As noted above, the Federal behavioral highway safety program has 
grown since the Highway Safety Act was first enacted in 1966. New 
programs have been added, others dropped. Under the Transportation 
Equity Act of the 21st Century (TEA-21), five new incentive programs 
and two penalty transfer programs were added to the existing Section 
402 program and the Section 410 (23 U.S.C. 410) impaired driving 
incentive grant program. Under SAFETEA-LU, four of those incentive 
programs were dropped and five new incentive programs were added. Since 
enactment of SAFETEA-LU, two new incentive programs have been proposed: 
one addressing distracted driving and one supporting teen empowerment 
programs. Vocal constituencies have pressured Congress to authorize new 
Federal behavioral incentive grant programs that meet the narrow needs 
of those constituencies. As a result, the Federal highway safety 
program has been developed in a piecemeal fashion without an overall 
plan, resulting in tremendous fragmentation of Federal behavioral 
highway safety resources at the Federal level and administrative and 
programmatic difficulties at the state level.
    It is time, as the National Surface Transportation and Revenue 
Policy Study Commission recommended in its 2009 report, to develop a 
national highway safety strategic plan with national highway safety 
goals. Other countries, such as Canada and Australia, have developed 
national strategic highway safety plans that involved all levels of 
government and the private sector in the development process. Each 
state has its own Strategic Highway Safety Plans (SHSP), as required by 
Section 148 of SAFETEA-LU. The missing component is a national plan. 
GHSA supports the development of a comprehensive national strategic 
highway safety plan and recommends that that the next reauthorization 
bill should call for the creation of such a plan.
    GHSA also supports a vision of zero highway safety fatalities. The 
loss of one life is one too many. Over time, and with education, 
enforcement, safety infrastructure improvements, vehicle improvements, 
and technological advances, such an ambitious goal can be achieved.
    Further, GHSA supports the interim goal recommended by the American 
Association of State Highway and Transportation Officials (AASHTO) and 
others of halving fatalities by 2030. This interim goal would require 
annual reductions of 1,000 fatalities a year. In 2006, the country 
nearly reduced fatalities by that amount, demonstrating that yearly 
reductions of this magnitude are possible. Since that time, fatalities 
have been reduced by more than 1,000 per year, culminating in the most 
recent reduction of more than 3,000 fatalities in 2009 alone. While the 
poor economy has played a major role, these reductions cannot be 
explained solely by the economic downturn. Implementation of effective 
countermeasures, vehicle and roadway improvements and greater 
coordination among state agencies involved in highway safety have all 
contributed to the declines in fatalities. GHSA recommends that the 
next reauthorization should support this vision and interim goal and 
should provide both the resources and the programs to enable 
achievement of the interim goal.
    GHSA is part of an informal State Highway Safety Alliance comprised 
of the American Association of Motor Vehicle Administrators (AAMVA), 
AASHTO, the Association of State and Territorial Health Officials 
(ASTHO), the Commercial Vehicle Safety Alliance (CVSA), the 
International Association of Chiefs of Police (IACP) and the National 
Association of State Emergency Medical Service Officials (NASEMSO) who 
are participating in the development of a national strategic highway 
safety plan. These groups have issued a set of principles for the next 
reauthorization of Federal highway safety programs including 
behavioral, commercial motor vehicle and safety infrastructure. (Please 
see attachment).
III. Performance Measures
    The Government Accountability Office (GAO), the U.S. Department of 
Transportation Inspector General (IG) and the National Surface 
Transportation Study Commission all recommended the Federal behavioral 
highway safety programs become more performance-based. In fact, the 
behavioral programs are already more performance-based than other 
Federal surface transportation programs. States are currently required 
to identify their highway safety problems using various data, set 
annual performance goals for reducing fatalities and injuries, and then 
report at the end of the year on whether they have reached those goals.
    GHSA concurs that the behavioral highway safety programs should be 
more performance-based and sees that as the next step in enhancing the 
state planning process. Beginning in 2004, GHSA took steps on its own 
to enhance state highway safety planning and encourage more 
performance- and research-based decisionmaking. The Association 
developed a template for state Highway Safety Plans and Annual Reports 
that strengthens the goal-setting and reporting processes. In 2006, 
GHSA, with funding from the National Highway Traffic Safety 
Administration (NHTSA), produced a report summarizing all the current 
research on effective highway safety countermeasures. The report, 
Countermeasures That Work, has been updated annually by NHTSA and has 
been used by states to select research-based, effective countermeasures 
for their annual Highway Safety Plans.
    In 2008, to address the concerns raised by GAO and others, NHTSA 
and GHSA embarked on a process to identify, by consensus, a common set 
of performance measures that all levels of government will use in their 
highway safety planning processes. Currently, there is agreement on ten 
outcome measures, two behavioral measures and three activity measures. 
States began to use the first fourteen measures in their FY 2010 
Highway Safety Plans (HSP) and year-end Annual Reports (AR) and will 
continue to do so annually. States have begun to use the 15th measure 
with their FY 2011 HSPs and ARs and will do so annually (Please see the 
reports and materials located here: www.ohsa.oro/html/projects/perf 
msrs/index
.html.). A similar consensus process has been undertaken to identify a 
common set of performance measures for traffic records systems. GHSA 
recommends that if Congress should create a performance-based 
behavioral highway safety grant program, that it should use the 
performance measures already developed cooperatively between GHSA and 
DOT and currently in use by the states.
    For states that are under-performing, the House Transportation and 
Infrastructure bill proposes that the Department of Transportation 
should have the authority to reprogram a state's funds. There is 
already a process for DOT to review a state's performance annually and 
recommend improvements. This process, known as the Special Management 
Review (SMR) process, is a collaborative one between the 
underperforming state and NHTSA's regional office in which the state is 
located. The decision to reprogram funding could be an adjunct to that 
process but should be a mutual decision between the state and Federal 
agency. The House bill also continues but reduces the size of the 
penalties for states failing to submit an adequate plan that were 
authorized under the Highway Safety Act of 1966. It is unclear when 
those penalties would ever be used against an under-performing state if 
its funds are reprogrammed and a revised HSP is submitted. GHSA 
recommends that the penalties should be repealed.
    If Congress concurs that the behavioral highway safety programs 
should be more performance-based, it must provide the resources to 
states to collect the necessary performance data. The current Section 
408 data improvement program (23 U.S.C. 408), which is primarily 
focused on improvements to crash data systems, is only funded at $34.5 
million a year. The average grant to states is only $500,000. 
Improvements to traffic records systems are extremely expensive. 
Pennsylvania's enhancements to its crash data system, for example, cost 
the state more than $10 million. The Federal Government cannot be 
expected to pay the entire cost of improving state data systems; 
however, it is clear that funding for the 408 program is woefully 
inadequate.
    Further, states are increasingly funding improvements in the other 
components of traffic records systems, particularly e-citation systems, 
DWI information tracking systems and emergency medical services (EMS) 
information systems. If states are expected to collect performance data 
such as statewide citation data or more precise injury data, then they 
need the funding to automate data collection and make other 
improvements to the data systems that would yield the requisite 
performance data. GHSA urges that the funding for the 408 program 
should be increased substantially to $100 million a year. The 
Association further recommends that no programmatic changes should be 
made to the Section 408 program.
    Another problem is that there is no uniform definition of serious 
injuries, so it is difficult to determine improvements in performance 
on this issue. Most states use an injury measurement scale called KABCO 
(killed, incapacitating injury, non-incapacitating injury, etc.). The 
KABCO scale is a measure of the functional injury level of the victim 
at the crash scene. The codes are selected based on the on-site 
judgment of the investigating police officer completing the crash 
report.
    However, KABCO is imprecise and relies on overworked law 
enforcement officials at the scene of a crash to make a determination 
of the extent of injury. A more precise serious injury surveillance 
system must be put in place. There is unanimity in the highway safety 
community that there is a need for greater uniformity in the definition 
of serious injuries. GHSA recommends that NHTSA should be directed to 
use a portion of its Section 403 Research and Demonstration funding (23 
U.S.C. 403) to develop, by consensus, a more accurate definition of 
serious injuries.
IV. Program Consolidation
    Another concern is the proliferation of incentive grant programs. 
The difficulty is that the funding streams are stove-piped, which 
causes fragmentation and impedes comprehensive, performance-based 
planning and programmatic implementation. The National Study 
Commission, the Bipartisan Policy Group, Transportation 4 America and 
others have all called for greater consolidation of Federal surface 
transportation programs. It is expected that the Administration's 
reauthorization bill will include greater consolidation of surface 
transportation programs.
    In the House bill, all of the behavioral grant programs (except the 
Section 408 data improvement program) are consolidated into a single 
program with earmarks for impaired driving, occupant protection and 
motorcycle safety. GHSA strongly supports the House program 
consolidation proposal and urges that it should be enacted.
    GHSA believes that if Congress is pressured by constituent groups 
to continue separate grant programs, then it must streamline the 
administration of those programs and give states more flexibility on 
the use of the funding. Currently, there are different applications and 
application deadlines for each incentive program. One application is 
due in February, one in June, three in July, two in August and one in 
September. Some of the applications are for funding in the current 
fiscal year, others for funding in the upcoming fiscal year. Half of 
the incentive funding isn't given out until the end of the fiscal year. 
States are forced to carry over funding until the next fiscal year, yet 
they are criticized for having too much carryover money. Such a 
fragmented approach makes it extremely difficult for states to plan or 
implement their annual programs effectively.
    Whether there is a consolidated program or not, GHSA strongly 
recommends that there should be a single grant application deadline as 
well as a single application and that all of the grant funding should 
be allocated on October 1. We recognize there will be a transition in 
which states that enact certain qualifying legislation won't receive 
grant funding until the following Fiscal Year. GHSA recommends that the 
current deadlines and applications should continue in the first year of 
the reauthorization to give the states a chance to get used to a new 
process. Following that, the single application, deadline and grant 
allocation should go into effect.
    If separate behavioral highway safety grant programs are 
authorized, GHSA strongly recommends that there should be greater 
flexibility between those programs. Currently, states have no 
flexibility to move funding between programs. States should be allowed 
to flex a portion of their behavioral highway safety grant funds based 
upon their demonstrated needs. As part of their annual HSP, states are 
required to submit data indicating their main highway safety problems. 
This assessment can be used to justify spending more funding in a 
particular area such as impaired driving, occupant protection or 
motorcycle safety. It is Congress' interest to ensure that states spend 
their Federal funding in the areas where it will have the most impact 
and address the greatest need.
    GHSA further recommends states should be given the authority to 
pool a small portion of their highway safety grant funds. Currently, 
states are not allowed to pool any NHTSAadministered state grants. When 
an initiative is undertaken on a regional basis with 402 funds (such as 
the Smooth Operator aggressive driving program in Pennsylvania, 
Washington, D.C., northern Virginia, and the Maryland suburbs), the 
participating states must go through a cumbersome process of 
transferring funds from one jurisdiction to another. A mechanism should 
be set up to allow states to work together regionally on law 
enforcement activities or paid media and other educational campaigns. 
States also should be able to pool funds to support specific highway 
safety research projects, as is allowed with Federal-aid highway 
funding. Similarly, a mechanism should be established to allow states 
to work together on data improvements. Multiple states, for example, 
may want to fund specific enhancements to software programs jointly 
used by those states. Or, they may want to hire a data contractor who 
can serve all the states in a region. There may be substantial savings 
by allowing states to pool their funds in this manner.
V. Program Improvements
    The current incentive grant programs have provided needed funding 
to states to address a range of highway safety issues. However, in at 
least two of the incentive programs, the eligible uses of incentive 
funds are too restrictive.
    While the Section 410 program has been a valuable tool for 
enhancing state resources to address drunk driving, some of the 410 
criteria have proven too difficult to implement (e.g., the BAC testing 
requirement), and others (e.g., the self-sufficiency requirement) have 
not encouraged any state action. GHSA expects that a number of states 
will fall out of compliance with the program because the requirements 
are too stringent. This is counterproductive. If the program is 
continued as a separate categorical grant program, GHSA recommends the 
program be refocused on those countermeasures that are known to be 
effective (e.g., high visibility enforcement, DUI courts and judicial 
education) or have the potential to be extremely effective (e.g., 
interlocks for first time offenders). GHSA supports the MADD Campaign 
to Eliminate Drunk Driving. These changes in the 410 program are very 
much in line with the Campaign and would help to realize the Campaign's 
goals.
    The Section 406 primary seat belt incentive grant program (23 
U.S.C. 406) has only been modestly successful. Only a handful of states 
have enacted primary seat belt laws since the programs' inception. If 
there is separate funding for occupant protection, GHSA recommends that 
the 406 program should be combined with the Section 405 program (23 
U.S.C. 405) and the Section 2011 child passenger protection program to 
form a single occupant protection program. Funds should be allocated to 
states based on a number of criteria such as seat belt use rates, 
fatality rates of unbelted drivers and primary seat belt and booster 
seat law enactment. Funding should be used to support a range of 
occupant protection activities such as high visibility and sustained 
enforcement, paid media, education programs, seat belt usage surveys, 
child passenger technician training, child restraint usage surveys, and 
child passenger protection education and enforcement programs.
    States that do not have primary belt laws or very high belt usage 
do not currently qualify for 406 funds. This has put tremendous 
pressure on their 402 allocations to fund the annual law enforcement 
mobilization and paid media. If the 406 program were restructured, it 
would provide a base of funding for occupant protection activities 
(including the annual high visibility mobilization) while allowing 
states to use their 402 funding for other safety purposes.
    If the 2010 motorcyclist incentive grant program is continued as a 
separate grant program, changes need to be made to it. It is also too 
restrictive and too small to have an impact. As GHSA's recent Survey of 
the States: Motorcycle Safety Programs showed, many states are no 
longer able to support their motorcycle safety programs based on 
licensing and training user fees alone. More Federal assistance is 
needed--funding for the 2010 program should be increased substantially, 
to $20 or $25 million.
    NHTSA's National Agenda for Motorcycle Safety (NAMS) has shown that 
the best way to advance motorcycle safety is to address the problem 
comprehensively by focusing on such areas as licensing, education and 
training, protective gear, roadway safety, public information programs 
on speeding and impairment, conspicuity, enforcement, vehicle 
improvements, and sharing the road. The current 2010 program prohibits 
states from addressing the problem of motorcycle safety 
comprehensively. Eligible states should be allowed to use the funding 
for additional purposes such as licensing improvements, helmet 
education and enforcement programs, and impaired motorcycling programs. 
States should also be required to designate a lead state motorcycle 
safety agency and prepare a motorcycle safety strategic plan.
    GHSA also recommends that there should be a focus on aggressive 
driving and speed management in the next reauthorization. Speeding is a 
factor in an estimated one-third of all crashes--a figure that has 
remained unchanged over the last decade. Speeding costs society an 
estimated $40 billion annually. According to the NHTSA-funded 2005 
Speed Forum report, ``speeding dilutes the effectiveness of other 
priority traffic safety programs, including efforts to reduce impaired 
driving, increase safety belt use, and improve pedestrian and 
motorcycle safety. Speeding and speed-related crashes occur on all road 
types, from limited-access divided highways to local streets. Drivers 
speed in all types of vehicles. Speeding is a local, state, and 
national problem.'' Speeding is one of the three primary factors in 
fatalities and injuries (along with impairment and failure to wear 
occupant protection devices) and is a major factor in aggressive 
driving, yet there are no Federal funds specifically to address the 
problem.
    A 2005 study published by the Transportation Research Board (TRB) 
found that a 1 percent decrease in travel speed reduces injury crashes 
by about 2 percent, serious injury crashes by about 3 percent, and 
fatal crashes by about 4 percent. On a street with an average travel 
speed of 40 mph, a reduction to 38 mph is a 5 percent decrease. Crashes 
would be reduced by about 10 percent, serious injury crashes by about 
14 percent, and fatal crashes by about 19 percent. Clearly, a small 
reduction in speeds can have a big impact.
    GHSA recommends that states should be encouraged to undertake speed 
and aggressive driving enforcement, conduct speed management workshops 
in their states, implement automated speed enforcement programs, or 
conduct public information campaigns about speeding and aggressive 
driving. In addition, GHSA recommends Congress fund a national campaign 
to re-educate the public about the dangerous consequences of speeding 
and aggressive driving, a biennial national speed monitoring data 
collection study to determine how fast the traveling public is actually 
going and research into emerging technological applications for 
measuring and controlling speed and aggressive driving.
    Another area of concern not addressed by SAFETEA-LU is teen 
driving. Although teen driver fatalities have decreased by 20 percent 
between 1988 and 2008, teens are still over-represented in fatal 
crashes. Motor vehicle-related fatalities are the leading cause of 
death for teenagers, and nearly 3,000 teens were killed in 2008. One of 
the most effective countermeasures is the graduated driving license 
law. Forty-nine states (excluding North Dakota) have graduated driver 
licensing laws. However, some states do not limit (or have high limits) 
on the number of passengers allowed in the vehicle and have lenient 
restrictions on nighttime driving. Research has shown that a teen's 
risk of crashing increases substantially with each passenger. (That is, 
with one passenger, the risk is doubled. With two passengers, the risk 
is quadrupled.) Similarly, research has shown that there is a peak of 
teen crashes at night. By limiting driving to earlier nighttime hours, 
the risk of a teen crash is reduced. GHSA recommends that the next 
reauthorization should address teen driving and provide positive 
encouragement to states to strengthen the nighttime and passenger 
restrictions.
    A final area not addressed by SAFETEA-LU is distracted driving. 
According to NHTSA, nearly 6,000 persons were killed in crashes related 
to driver inattention and distraction in 2008. S. 1938, the Distracted 
Driving Prevention Act of 2009, would provide incentives to states that 
satisfy certain eligibility criteria. States must have a hand-held cell 
phone ban, a texting ban and satisfy a number of other criteria. Eight 
states are currently potentially eligible for grants. However, none of 
the states will qualify because the criteria are too stringent. The 
bill addresses distracted driving as if it were a mature highway safety 
issue. In fact, it is an emerging issue on which there is relatively 
little research on the effectiveness of certain countermeasures to 
address distracted driving. State legislatures are enacting more simple 
and straightforward legislation than they would if the issue were a 
more mature one like impaired driving. Hence, the criteria for 
increasingly stringent penalties and the one for making a crash 
involving a fatality a criminal penalty are particularly problematic. 
Further, the criteria to require states to include distracted driving 
in the driver's manual and test are not supported by research at all. 
If anything, research on driver education shows that it is not an 
effective way to enhance driver safety. In the next reauthorization, 
these criteria should be examined very closely and adjustments made 
accordingly.
VI. Program Management, Research and Training
    SAFETEA-LU authorized NHTSA to conduct management reviews (MR) of 
states every 3 years and programmatic management reviews (SMRs) of 
underperforming states. NHTSA initiated these processes in 2005 and has 
been reviewing state programs since then.
    In 2007, however, GHSA grew concerned about the consistency of the 
reviews from state-to-state. The Association hired a contractor to 
review the MR's and identify areas of inconsistency. In June of 2007, 
representatives from NHTSA and GHSA met and worked collaboratively to 
develop a more standardized approach to the MRs. The following year, 
the contractor undertook a similar review of state SMRs. Another 
collaborative meeting was held to develop a more standardized approach 
to the SMRs. Both NHTSA and GHSA have established their own quality 
control task forces to review the MRs and SMRs and ensure that the 2007 
and 2008 agreements are being followed.
    GHSA has also undertaken its own efforts to enhance the management 
of state highway safety programs. It has developed a monitoring 
advisory to help states enhance the monitoring of sub-grantees. It has 
also developed a model Policies and Procedures Manual covering all of 
the relevant Federal regulations and guidance for Federal behavioral 
highway safety programs. GHSA's consultant will also begin working on a 
self-assessment protocol so that state highway safety offices can 
improve their management practices between Management Reviews.
    The Management Reviews and Special Management Reviews have been 
helpful to states and have identified issues that need to be addressed 
by the state highway safety offices. The partnership between NHTSA and 
GHSA has helped ensure that the MR and SMR criteria are applied 
consistently across the country. GHSA recommends that the NHTSA 
oversight requirements should be continued in the next reauthorization 
unchanged.
    SAFETEA-LU also authorized funding for research under 23 U.S.C. 
403. However, the amount of funding devoted solely to behavioral 
research is small--only $7.7 million in FY 2011--and partially 
earmarked for specific research projects. NHTSA's behavioral research 
budget has remained unchanged for more than a decade. This means that 
research on the effectiveness of specific highway safety 
countermeasures can be undertaken only if and when such research 
reaches the top of NHTSA's priority research list. In fact, the 
November 2008 National Cooperative Highway Research Program (NCHRP) 
report on the effectiveness of highway safety programs found that, of 
104 behavioral countermeasures, only 23 had sufficient research with 
which to be able to determine cost-effectiveness. Without sufficient 
research to indicate what works and what doesn't, states are forced to 
implement best practices rather than appropriate research-based 
programs. GHSA recommends that NHTSA's behavioral research budget 
should be substantially increased.
    Training is another area of concern for GHSA. There is tremendous 
turnover among the Governor's Representatives and Highway Safety 
Coordinators who run the state highway safety agencies, particularly as 
baby boomers retire. It is critical that incoming leaders of state 
highway safety offices and their staffs receive appropriate training so 
that they can understand the complexities of highway safety and run 
effective programs. As noted in the TRB Special Report 289, Building 
the Road Safety Profession in the Public Sector, there is an urgent 
need to improve the training for safety professionals and ensure that 
it is multi-disciplinary. GHSA supports dedicated funding for NHTSA 
training so that the agency can enhance all of its training, including 
developing distance-based learning. Further, there is a need for NHTSA 
to work more closely with the Federal Highway Administration and the 
Federal Motor Carrier Safety Administration training operations. 
Presently, there is no process for administering multidisciplinary 
training such as the Highway Safety 101 course that was developed and 
pilot tested under an NCHRP grant. As a result, the course, which 
provides basic training for anyone (not just highway safety offices) 
involved in highway safety, is languishing. GHSA recommends that a 
small amount of funding should be authorized to support a safety 
training coordination function within DOT.
    GHSA appreciates the opportunity to testify before the Consumer 
Subcommittee and looks forward to working with the Subcommittee and 
full Committee on the next surface transportation legislation.
                               Attachment
Recommendations for the Surface Transportation Reauthorization
The undersigned organizations support the following recommendations for 
        the highway safety portions of the next surface transportation 
        reauthorization legislation:
Establish National Performance Goal and State Targets
    The State Highway Safety Alliance urges Congress to establish a 
national goal of halving motor vehicle fatalities by 2030 and authorize 
a Federal program that enables state and local governments to attain 
that goal.
    State highway safety-related agencies should set state performance 
targets in their federally-funded highway safety plans that would 
enable them to move toward attainment of the national goal. The Federal 
Highway Administration (FHWA), the National Highway Traffic Safety 
Administration (NHTSA) and the Federal Motor Carrier Safety 
Administration (FMCSA) should work cooperatively with state safety-
related agencies to identify performance measures with which to measure 
state progress. At the end of each Federal Fiscal Year, states should 
report results using agreed-upon performance measures. Rather than 
penalizing states if they are unable to reach their safety targets 
within a fixed time period, the Federal safety agencies and their state 
agency counterparts should cooperatively identify creative strategies 
for enhancing results at the state level.
Increase Safety Funding
    Although progress has been made in highway safety, almost 34,000 
people--more than 90 a day--were killed and 2.2 million were injured in 
motor vehicle crashes in 2009. Most of these crashes were preventable. 
Increased funding must be authorized to enable states to reverse these 
troubling statistics and meet national safety goals and state highway 
safety targets. The State Highway Safety Alliance urges Congress to 
increase the level of Federal highway safety program funding 
commensurate with increases in other core programs. Increased highway 
safety funding for the grant programs administered by FHWA, NHTSA and 
FMCSA would enable states to improve safety on the roadways, address 
hazardous driving behavior and ensure that unsafe commercial motor 
vehicles are taken off the road.
Streamline Program Administration and Enhance Flexibility
    The Alliance urges Congress to consolidate separate categorical 
highway safety programs to the greatest extent possible. Federal 
programs should have a single application and application deadline. 
Congress should identify eligible activities for the consolidated 
funding, but states should have the flexibility to determine how much 
funding should be used for each eligible activity so that funding is 
targeted toward the most critical highway safety problems. Requirements 
on states related to Maintenance of Effort (MOE), if not dispensed with 
altogether, need to be simplified and made so they incentivize state 
and local safety activities. They also should be based on activity 
levels or outputs and not purely on funding.
Strengthen Strategic Highway Safety Planning
    The Strategic Highway Safety Plan (SHSP) requirements of the Sec. 
148 Highway Safety Improvement Program have been a positive force for 
addressing safety in the states. The State Highway Safety Alliance 
supports those requirements and recommends that they be strengthened. 
States should continue to convene broad committees to oversee the state 
highway safety planning effort. At a minimum, these committees should 
consist of representatives of state and local agencies responsible for 
engineering, education, enforcement, emergency medical systems, 
licensing, and commercial vehicle safety. The SHSP should address 
highway safety issues on all public roads, target funding to areas of 
highest need as identified by state and local data, and set statewide 
safety performance targets. Any separate federally-funded safety 
implementation plans (e.g., the Highway Safety Plan, the Commercial 
Vehicle Safety Plan, the State Transportation Plan) should support the 
SHSP performance targets, and states should update their SHSPs at least 
once during the reauthorization period.
Support Enhanced Data Collection and Analysis
    The collection of performance data is central to the effective 
functioning of Federal performance-based programs. In order to track 
and analyze performance, states need to be able to collect more 
complete, reliable and accurate data, have automated and linked data 
systems, exploit emerging data collection technologies and utilize 
better data analysis tools. Data improvements are complex and 
expensive. Federal funds for these improvements have been inadequate. 
This is a priority for states and the State Highway Safety Alliance 
urges Congress to fund state data improvements at significantly higher 
levels than current ones.
Increase Investment in Safety Research and Development
    State highway safety programs are stronger and more effective if 
they are built around evidence-based strategies. Research to produce 
the evidence of countermeasure effectiveness has been difficult because 
Federal funding for highway safety research is so limited. More 
countermeasure research is urgently needed. Research is also needed to 
evaluate emerging safety technologies, demonstrate and evaluate new 
strategies for reducing highway deaths and injuries, develop model laws 
and model programs and identify and document best practices. Additional 
driver and vehicle-related research is needed to enhance the safety of 
drivers and vehicles and to strengthen Federal regulations. The State 
Highway Safety Alliance strongly supports increased funding for Federal 
highway safety research.
Prepare the Safety Workforce for the Future
    The highway safety workforce at the state level is aging, and 
institutional knowledge about highway safety issues and programs will 
be diminished when the current workforce retires. There have been few 
efforts to attract young professionals into the field or enhance the 
professional capabilities of the current workforce. Members of the 
State Highway Safety Alliance are extremely concerned about this trend 
and urge Congress to allow states to obligate their highway safety 
grant funds (those administered by FHWA, NHTSA and FMCSA) for workforce 
development, training and education with a 100 percent Federal share. 
Congress should more adequately fund Federal highway safety training 
for states, and a Center for Highway Safety Excellence should be 
established to facilitate the development of innovative safety 
workforce training (such as peer-to-peer training programs) and support 
better integration of highway safety training of the three Federal 
safety agencies.
Choose Incentives Over Sanctions
    The Alliance submits that incentives are preferable to sanctions 
and transfer penalties. Incentives give states the flexibility and 
resources to find creative, results-oriented solutions that meet safety 
goals and fit state and local needs. States are currently sanctioned 
for at least seven different safety-related purposes. An over-reliance 
on sanctions moves Federal highway safety programs away from a 
cooperative Federal-state partnership and generates increased state 
resistance toward the very safety issues that Congress wishes states to 
address.

Neil Schuster,
President and CEO,
AAMVA.

Dr. Paul Halverson,
President, Director, Division of Health, Arkansas Department of Human 
Services, ASTHO.

Vernon F. Betkey, Jr.,
Chairman, Chief, Maryland Highway Safety Office, GHSA.

Larry L. ``Butch'' Brown, Sr.,
President, Executive Director, Mississippi Department of 
Transportation, AASHTO.

Francis (Buzzy) France,
President, Maryland State Police, CVSA.

Michael J. Carroll,
President, Chief of the West Goshen Township, Pennsylvania, Police 
Department, IACP.

Steven L. Blessing,
President, Director, State of Delaware EMS, NASEMSO.
  
  
  

    The State Highway Safety Alliance is comprised of the three major 
recipients of the United States Department of Transportation grants as 
well as other state-based safety stakeholders.
    The Alliance represents state agencies with roles in improving 
highway safety through infrastructure, driver behavior, licensing, 
incident response, and enforcement approaches.
    The IACP, while not a member of the alliance, shares its goals, 
concerns, and priorities with respect to these recommendations for the 
Surface Transportation Reauthorization.

    Senator Pryor. Thank you very much.
    We have these two rollcall votes, and if I don't leave here 
in about 1 minute, I'm going to miss the first one. So, what 
we'll do is, we'll recess. And my guess is, you know, we're 
talking about maybe a minute--15 minute recess, something like 
that.
    But, we'll recess, subject to the call of the Chair.
    And I want to thank you all for your testimony, and I look 
forward to the questions.
    [Recess.]
    Senator Pryor. I'll go ahead and call us back into order.
    I want to again, thank of all our witnesses for their 
patience, and thank all of the members of the public who are 
here and watching this for their patience, as well.
    Again, I want to thank all of you for your statements and 
keeping those as brief as you could so that the Committee could 
run over and vote on the Senate floor.
    Mr. Strassburger, let me ask you, if I may--you talked 
about, in your statement a few minutes ago, that there has been 
this partnership, or this collaboration, between government and 
industry, and also other stakeholders. And I think your point 
is that that collaboration has been effective and we need to 
try to continue that as best we can.
    Let me ask about the design of a vehicle--it's something 
that Ms. Dean-Mooney mentioned a few minutes ago--where there's 
now technology that's available, that I guess can be put in 
cars, that might help with distracted driving, or might help, 
maybe, you know, with some built-ins on a car, that maybe you 
could put some things that might prevent drunk drivers from 
using vehicles. Could you talk about that for a little bit?
    Mr. Strassburger. Sure, Senator.
    There are a number of technologies, so-called ``driver-
assist'' technologies, that we're developing currently, to help 
the driver do their primary job better, which is maintaining 
the safe control of their vehicle. So, some of these 
technologies include lane departure warning systems, blindspot 
warning systems, forward-collision warning systems--all of 
which can help the driver maintain safe control of the vehicle. 
And one of the other ones, in that same vein, we are also 
working--and you heard the Administrator talk briefly about it 
this morning--working with the NHTSA to develop advanced 
technology that could monitor the blood alcohol concentration 
of drivers, noninvasively, so that the sober driver would not 
be hassled.
    And that--we are in about the third year of a 5-year 
program with the agency. We've just received device prototypes 
that are being tested up at a lab in Boston, and they are 
undergoing human-subjects testing, as well, with the help of 
the Harvard Medical School. And they're showing great promise. 
They would probably not be ready for vehicle integration for 
another 5 or 7 years, but they are showing tremendous progress.
    And I think we have benefited--our research has benefited 
by the research that's being done for homeland security 
purposes, to sense or sniff chemical precursors of IEDs or 
other bad stuff. And once you know how to sniff one chemical, 
it's just a matter of retuning to be able to sniff, in this 
instance, for alcohol.
    So, it shows a lot of great promise; and I think, should it 
come to fruition, we stand a very good chance of eliminating 
drunk driving.
    Senator Pryor. Have you--has your organization been working 
with MADD and other organizations on this?
    Mr. Strassburger. Yes, we have. As I testified, we are 
supporting MADD's campaign to eliminate drunk driving. That 
campaign is modeled after the ``Click It or Ticket'' program, 
which has proven to work, which means--as with any traffic 
safety problem, we need strong laws, visibly enforced; consumer 
education about those laws, and the fact that they're being 
enforced, and how they can protect themselves; and then we need 
to look at the role of technology. So it's that--the overall 
package or the comprehensiveness of that program that's 
ultimately going to get us to eliminating drunk driving. And 
it's important that we do all of it, not just one piece of it.
    Senator Pryor. Ms. Dean-Mooney, has your organization been 
pleased with the collaboration you've had with the automakers?
    Ms. Dean-Mooney. Yes, Senator, we absolutely have been. 
MADD agrees completely with what Mr. Strassburger said, that 
technology will ultimately be the key to the elimination of 
drunk driving, and that all pieces have to come together. 
Behavior modification is certainly a part of that; but, 30 
years after we've been in place, people still drive drunk, 
because they can, and because we tolerate it, as a society. 
But, we are very pleased to be working with the Auto Alliance.
    Senator Pryor. And you mention, I think, in your statement 
a few moments ago, that not all industry is supportive of MADD, 
maybe--I think you said the defense attorney--Criminal Defense 
Bar and--did you say the alcohol industry? Who all is--who all 
tends to be in a different place than you?
    Ms. Dean-Mooney. Well, primarily the public supports our 
efforts, which is the most important piece. Criminal defense 
attorneys, and State houses often chair committees that our 
bills will have to go through, and we hit--have hit roadblocks 
there, because they choose not to let our bills go forward. The 
good thing about us is, we continue to come back, we never go 
away. But, the--certain segments of the alcohol industry will 
also try to oppose our bills, as they have in the past with 
.08, as they have with underage drinking laws, as well. But, we 
will continue to show, through data, through research, that 
what we speak about, is the facts, and what we believe will 
happen is the elimination of drunk driving, ultimately.
    Senator Pryor. Yes. Let me ask about that data question. 
Mr. Pedersen, that's actually one of the questions I had for 
you. Because I hear, from my folks in Arkansas--and I'm sure 
other Senators have heard similar things from their States--
they--that the issue of data collection is critical, and I--my 
understanding is, from a State's perspective, or city's 
perspective, it can be very expensive, as well, to have the 
right technology and the ability to collect data accurately. 
What's your view of that, and what's your experience with that?
    Mr. Pedersen. Absolutely, data is the key, particularly if 
we want to be moving to a performance basis for the safety 
programs. It's very expensive to collect data, it's also very 
expensive to be analyzing and processing the data, as well.
    Senator Pryor. Do you collect it through accident reports--
--
    Mr. Pedersen. Yes.
    Senator Pryor.--things like that?
    Mr. Pedersen. Yes. From police agencies.
    Senator Pryor. Right.
    Mr. Pedersen. And then the data actually has to be 
processed, and a lot of quality control has to be going into 
it. There are a lot of issues that you have to be looking at, 
in terms of consistency within the data, to be making sure that 
it is quality data before you can be using it.
    But, in the end, serving as a Governors Highway Safety 
Representative, in an organization that really takes a 
performance basis seriously, we want to be investing our 
dollars where we know, first, we have a problem based on what 
the data is telling us, and second, where the research is 
telling us we can be making a difference. And the key to good 
research is good data.
    So, it's not just the analysis for the programs at the 
State level, it's ultimately so that we can be having the 
research results that ensures that we're investing the dollars 
most wisely.
    Senator Pryor. Ms. Gillan, I would like to ask you about 
data, and the accuracy of data and data collection, and how we 
measure how effective these safety programs are. Did you want 
to have a comment on that?
    Ms. Gillan. Well, Advocates has--all of the positions that 
we take on Federal and State legislation is data-driven. And we 
are concerned about the funding at NHTSA for the collection of 
data. And I think that this committee did a great job, in the 
MVSA bill, in really boosting NHTSA's vehicle safety programs, 
and, in turn, supporting the collection of data for both FARS, 
which is their annual Fatality Accident Reporting System, and 
NASS.
    Clearly, if we don't give NHTSA the resources to collect 
that data, then it affects how the States do the programs that 
they have, and also the programs that Congress has. And I think 
that everybody on this panel would agree that--I don't think we 
have done as good a job as we should in collecting that data 
and getting it out there so that we can make those kind of 
informed decisions.
    Senator Pryor. And from your standpoint, is that a matter 
of money and financing better data collection, better 
technology?
    Ms. Gillan. I think it's both. I think that we need to give 
the agency the resources. I also think that we need to collect 
better data, at the State level, on crashes right now. It's 
very difficult to ascertain, in a police accident report, 
whether, in fact, there has been some distraction, whether the 
driver was using a cell phone or was texting. And I think 
that's contributing to some of this confusion about, you know, 
Are these laws working?
    And the fact of the matter is, Senator, too, a lot of 
crashes are multifactor crashes, they would involve speed and 
texting. And so, it has been hard, I think, with the data that 
we're collecting, to really clearly, sort of, see some of those 
trends. And we've missed some. I mean, we clearly missed what 
was happening with Toyota in the sudden acceleration. I think 
we missed some of the distracted driving, for years--we should 
have known sooner about what was going on--because of the issue 
of inadequate data collection.
    Senator Pryor. Mr. Pedersen, let me ask something that 
you--or follow up on something that you mentioned, which is 
more of a paperwork issue for the States, and that is kind of 
going to a single application, or a streamlined process to 
apply for these grants. How much of an impediment is it for the 
States to, kind of throughout the year, have applications that 
come due at different times in the year, and have to, I guess, 
reapply and reapply--oftentimes, the same information, I 
assume--but, how much of an impediment is that for the States?
    Mr. Pedersen. From a perspective of Governors Highway 
Safety Representative, who really is charged with looking at 
things more strategically, I'm very frustrated that we're 
dealing with one program at a time, in terms of the 
applications that are going in, the decisions that are being 
made. We really need to be taking a more holistic view of the 
decisions that we are making, and doing it all at one time, so 
that we can have one single decision that is being made, 
regarding resource allocations.
    Second, by having many different applications that have to 
be submitted, you're just increasing the amount of 
administrative work that goes with it, instead of a single 
application and dealing with NHTSA one single time. To the 
extent that we can be reduce the amount of money that has to be 
going to grant administration more resources can be put into 
the programs, which will result in greater traffic safety.
    Senator Pryor. Let me follow up on one of Senator 
Klobuchar's questions earlier. It was kind of a carrot-and-
stick question. It's a classic question, between State and 
Federal Government, on, you know, How many incentives should we 
have, versus, you know, how many sticks should we have, in the 
process? And I know that States--when I hear from States, they 
want flexibility, they want, you know, to not be punished if 
they don't do something. But, where's the balance there? How do 
we--as policymakers here, how do we set this up to where we 
find the most effective combination of carrots and sticks?
    Mr. Pedersen. Well, again, if we take a performance basis, 
we should have a program that is driven by where the data is 
telling us we have the greatest problems and where we can get 
the greatest results. And there should be more of a 
programmatic review of whether the States are allocating the 
money where it is most effective.
    States have been opposed to sanctions in the past. GHSA is 
opposed to sanctions. I can tell you, from the perspective of 
the person who has to appear before the legislative committees 
to try to convince them to be passing legislation, that we are 
far more effective in getting legislation passed when we can be 
demonstrating, through data, that we have a problem, and we can 
be demonstrating, through research, that there are results, 
than when I go in and say, ``We have to do it, because the Feds 
will sanction us if we don't do it.'' All that does is create 
resentment on the part of the legislative committees at the 
State level, and they will not be nearly as cooperative, in 
terms of passing legislation that is actually effective.
    Ms. Gillan. And, Senator Pryor?
    Senator Pryor. Yes----
    Ms. Gillan. I just--let me just augment and give my view, 
because I do testify before a lot of State legislatures, and--
on this issue--and we have many State legislators, for 
instance, that are supporting the STANDUP Act, with the 
sanction, because we know that, without that sanction, they 
won't be able to get that law through.
    I have a sister who is a State Senator in Montana. I've 
been pushing her to try to get a primary enforcement seatbelt 
law through the Montana State legislature, and she has said to 
me privately, and she will say it publicly, ``Show me a 
sanction and I'll show you that law.''
    So, I think that we can start out with incentives, but 
they're--clearly, the history of incentives are not working, 
and we need to go to sanctions, especially for laws on primary 
enforcement seatbelt law, teens, motorcycle helmets, and drunk 
driving, where we are not making the progress that we should.
    Senator Pryor. Mr. Strassburger?
    Mr. Strassburger. Yes, if I could. I'm--Senator, I'd just 
take the middle-of-the-road position, here.
    The first primary enforcement law that was adopted was in 
1984 in the State of New York. Twenty-five years later, after 
considerable amount of effort by my industry--and investment by 
my industry--to say nothing of the efforts made by Congress--
we've just this--passed--or, this year, we got over just half 
of the States--30. So, clearly, primary enforcement laws are 
ripe for a sanction.
    To start with incentives first, and then move to sanctions, 
is probably the right balance. There is case law, South Dakota 
v. Dole, that--and I'm not a lawyer, but my novice reading of 
it is, is that--that case concluded, absolutely, it's the--
within the authority of Congress to withhold funds, so long as 
they are not punitive. But, the court didn't give any direction 
as to what is punitive. So, I'm personally concerned about 
loading the States up with numerous sanctions all at once, but 
I think, clearly, we should start with primary enforcement 
safety belt law, move to drunk driving, and then on to the 
others, in priority order, as they are, as we see from the data 
is that--what are our biggest problems.
    Senator Pryor. Ms. Dean-Mooney, let me ask you about one of 
those laws, the open-container law. It's in Section 154 of 
Title 23. How is the open-container provision working out there 
in the States? My understanding is, there are--I don't have the 
number, but not every State has adopted that. And give us your 
sense of how the open-container law is working.
    Ms. Dean-Mooney. Well, unfortunately, Senator, we don't 
have that data with us, but we'll be happy to provide it to you 
for the record.
    [The information referred to follows:]

               Laura Dean-Mooney, MADD National President
Response to Question Posed by Senator Mark Pryor
    In 1998, as part of the Transportation Equity Act for the 21st 
Century (TEA-21), a Federal program was established to encourage states 
to enact laws that prohibit the possession and consumption of alcohol 
in motor vehicles. Section 154 of Title 23 of the U.S. Code authorizes 
the transfer of a portion of a State's Federal-Aid highway construction 
funds if a state does not comply with program requirements for enacting 
an open container law.
    Each year nearly 11,000 people are killed due to drunk driving, and 
350,000 more are injured. A 2002 NHTSA study showed that states without 
open container laws experienced significantly greater proportions of 
alcohol-involved fatal crashes than states with open container laws. 
NHTSA's national surveys on drinking and driving show that a majority 
of the public supports open container laws, even in States without such 
laws.
    To comply with Section 154, a State's open container law must:

  <bullet> Prohibit both possession of any open alcoholic beverage 
        container and consumption of any alcoholic beverage in a motor 
        vehicle;

  <bullet> Cover the passenger area of a motor vehicle, including 
        unlocked glove compartments and any other areas of the vehicle 
        that are readily accessible to the driver or passengers while 
        in their seats;

  <bullet> Apply to all open alcoholic beverage containers and 
        alcoholic beverages, including beer, wine and spirits;

  <bullet> Apply to all vehicle occupants, except for passengers of 
        vehicles designed and used primarily for the transportation of 
        people for compensation (such as buses, taxi cabs or 
        limousines), or the living quarters of motor homes;

  <bullet> Apply to all vehicles on a public highway or right of way 
        (i.e., on the shoulder) of a public highway; and

  <bullet> Require primary enforcement of the law, rather than 
        requiring probable cause that another violation had been 
        committed before allowing enforcement of the open container 
        law.

    States that failed to enact a compliant law by FY 2001 and FY 2002 
had 1.5 percent of their highway construction funds transferred to 
either the State's 402 program to be used for impaired driving 
countermeasures, or the State's Hazard Elimination Program (HEP). The 
HEP is now referred to as the Highway Safety Improvement Program 
(HSIP). After FY 2002, the percentage of transferred funds increased to 
3 percent.
    To date, 39 states and the District of Columbia comply with the 
law. These states are: Alabama, Arizona, California, Colorado, Florida, 
Georgia, Hawaii, Idaho, Illinois, Iowa, Indiana, Kansas, Kentucky, 
Maine, Maryland, Massachusetts, Michigan, Minnesota, Montana, Nebraska, 
Nevada, New Hampshire, New Jersey, New Mexico, New York, North 
Carolina, North Dakota, Ohio, Oklahoma, Oregon, Pennsylvania, Rhode 
Island, South Carolina, South Dakota, Texas, Utah, Vermont, Washington 
and Wisconsin.
    When the open container standard was enacted in 1998, only 13 
states and the District of Columbia had compliant laws. The standard 
has been effective in encouraging 26 states to enact compliant open 
container laws, a very strong outcome. But no State has passed an open 
container law since FY 2006. It is unlikely that the remaining 11 
states will come into compliance as a result of the standard. Perhaps 
one way to strengthen the current program would be to remove the option 
to transfer funds to the HSIP, instead only allowing funds to be 
transferred to the 402 program for impaired driving countermeasures.

    Senator Pryor. OK.
    But, I think--isn't fair to say that not all states have 
done open-container laws, but--you know, some have and some 
haven't, and it's kind of a--my understanding is, it's kind of 
a mixed result.
    Ms. Dean-Mooney. That's correct. There is a mixed result. I 
mean, in Texas, where I live, there are still drive-thru liquor 
stores, you can pull right up and--although they have an open-
container law in Texas, they're still selling by the can--and 
you can take that in your car, under the assumption that you're 
not supposed to open it while you're in your vehicle. We have 
some work to do there.
    Senator Pryor. Right.
    Well, really, I have other questions that I may submit for 
the record, because, again, some of this is detailed, about 
some of the specific programs and some of your specifics in 
your testimony. But, I think what I'd like to do is--unless 
someone has something else to add before we close here, I'd 
like to go on to the third panel.
    So, let me just say thank you very much for your time and 
participation. I'm sorry we had a vote in the middle of your 
panel. But, very helpful, and we appreciate you all.
    And again, we're going to leave the record open for a 
couple weeks, and you'll probably get some follow-up questions 
from the staff or from individual offices on this.
    So, thank you very much for being here.
    Senator Pryor. What I'm going to do is go ahead and call up 
the third panel. And I know that the Committee staff will want 
to swap out the nameplates and reset the microphones, et 
cetera, so I'll go ahead and just very briefly mention our 
three witnesses, and--without giving a lot of background on 
them, but just very briefly mention them.
    First, we have Mr. Ethan Ruby. He's from New York, New 
York. And second, we will have Mr. Ira Leesfield, he's past 
President of the Academy of Florida Trial Lawyers. And third, 
we will have Mr. Thomas M. James, President and CEO of the 
Truck Renting and Leasing Association.
    So, as soon as they get set and all the microphones are set 
up, we'll turn it over to Mr. Ruby. But, we will----
    Before I get started, let me go ahead and say that Senator 
Hutchison has requested that these letters from International 
Trucks of Houston and Rush Enterprises--looks like ``in San 
Antonio''--be placed in the record. And so, without objection, 
I'll do that--am glad to do that.
    [The information referred to follows:]

                                          Rush Enterprises,
                                                 New Braunfels, TX;
                                San Antonio, TX, September 22, 2010
Hon. Kay Bailey Hutchison,
Ranking Member,
Committee on Commerce, Science, and Transportation,
Washington, DC.

Dear Ranking Member Hutchison:

    I am writing to request your support for the preservation of the 
Federal law prohibiting states from imposing vicarious liability on 
owners of rented and leased vehicles, codified at 49 U.S.C. 30106 and 
commonly known as the Graves Law. I very much appreciate your support 
for the passage of this law in 2005. Unfortunately, there have already 
been multiple attempts during this Congress to repeal this common sense 
law, and turn back the clock to reinstate antiquated vicarious 
liability laws that hold non-negligent owners of rented and leased 
vehicles liable for the actions of their customers operating the 
vehicles.
    Preservation of this vicarious liability uniformity law is critical 
to the success of Texas-based businesses like Rush Enterprises. The 
constitutionality and preemptive authority of the Graves Law, has been 
affirmed by the U.S. Court of Appeals and U.S. District Court, as well 
as the highest courts in several states, including the Minnesota 
Supreme Court and Florida Supreme Court. Especially in this economy, 
repeal of the Graves Law could have a devastating impact on both small 
and large businesses.
    Rush Enterprises operates the largest network of heavy- and medium-
duty truck dealerships in North America in addition to its truck 
leasing operations. Rush Enterprises has approximately 2950 employees 
in 68 locations, and owns approximately 3000 trucks. Some of the 
businesses who lease trucks from Rush Enterprises include Pepsi/
Tropicana, Costco, International Paper, and Boise Cascade.
    Rush's leased trucks are being used in interstate commerce 
throughout the United States. If the Federal vicarious liability 
uniformity law were to be repealed, it would subject Rush Enterprises 
to liability for injury and property damage resulting from the actions 
of negligent drivers solely because we own the trucks. Repealing the 
Graves Law would immediately restore vicarious liability laws in states 
such as New York, Maine, Connecticut, Rhode Island, Minnesota, and 
Florida, and Rush Enterprises would be exposed to liability there even 
in the absence of any negligence on our part. Even if we are not 
subject to a lawsuit, the return of vicarious liability laws would lead 
to an increase in insurance costs, rental and lease costs, and an 
overall increase in the cost of commercial transportation. Ultimately, 
it is the consumer who suffers through higher costs of goods throughout 
the Nation.
    I understand that your Committee will be holding a hearing on 
vicarious liability and the Graves Law on September 28. On behalf of 
Rush Enterprises, I would greatly appreciate your help in preserving 
the vicarious liability uniformity law if the issue of repeal should be 
brought up in the Senate during the remainder of this Congressional 
Session. Thank you for your consideration, and please call me if you 
would like to discuss this issue and its critical importance to my 
Texas business.
            Best regards,
                                            W. Marvin Rush,
                                                          Chairman,
                                                 Rush Enterprises, Inc.
                                 ______
                                 
                            International Trucks of Houston
                           fka Olympic International Trucks
                                    Houston, TX, September 22, 2010

Hon. Kay Bailey Hutchison,
Ranking Member,
Committee on Commerce, Science, and Transportation,
Washington, DC.

Dear Ranking Member Hutchison:

    I am writing to request your support for the preservation of the 
Federal law prohibiting states from imposing vicarious liability on 
owners of rented and leased vehicles, codified at 49 U.S.C. 30106 and 
commonly known as the Graves Law. I very much appreciate your support 
for the passage of this law in 2005. Unfortunately, there have already 
been multiple attempts during this Congress to repeal this common sense 
law, and turn back the clock to reinstate antiquated vicarious 
liability laws that hold non-negligent owners of rented and leased 
vehicles liable for the actions of their customers operating the 
vehicles.
    Preservation of this vicarious liability uniformity law is critical 
to the success of Texas-based businesses like Kyrish Truck Centers, and 
the leasing business which is part of that network of dealerships, 
Kyrish Idealease. The constitutionality and preemptive authority of the 
Graves Law, has been affirmed by the U.S. Court of Appeals and U.S. 
District Court, as well as the highest courts in several states, 
including the Minnesota Supreme Court and Florida Supreme Court. 
Especially in this economy, repeal of the Graves Law could have a 
devastating impact on both small and large businesses.
    Kyrish Truck Centers operates one of the largest networks of heavy- 
and medium-duty truck dealerships in the U.S. in addition to its truck 
leasing operations. Kyrish Truck Centers and Kyrish Idealease together 
have approximately 550 employees in 11 locations, and owns 1857 trucks. 
Some of the businesses who lease trucks from Kyrish Idealease include 
food companies, paper companies, furniture companies, building material 
companies, medical waste companies, chemical companies, beverage 
companies, floral companies and on and on.
    Kyrish Idealease's leased trucks are being used in interstate 
commerce throughout the United States. If the Federal vicarious 
liability uniformity law were to be repealed, it would subject Kyrish 
Idealease to liability for injury and property damage resulting from 
the actions of negligent drivers solely because we own the trucks. 
Repealing the Graves Law would immediately restore vicarious liability 
laws in states such as New York, Maine, Connecticut, Rhode Island, 
Minnesota, and Florida, and Kyrish Idealease would be exposed to 
liability there even in the absence of any negligence on our part. Even 
if we are not subject to a lawsuit, the return of vicarious liability 
laws would lead to an increase in insurance costs, rental and lease 
costs, and an overall increase in the cost of commercial 
transportation. Ultimately, it is the consumer who suffers through 
higher costs of goods throughout the Nation.
    I understand that your Committee will be holding a hearing on 
vicarious liability and the Graves Law on September 28. On behalf of 
Kyrish Truck Centers and Kyrish Idealease, I would greatly appreciate 
your help in preserving the vicarious liability uniformity law if the 
issue of repeal should be brought up in the Senate during the remainder 
of this Congressional Session. Thank you for your consideration, and 
please call me if you would like to discuss this issue and its critical 
importance to my Texas business.
            Sincerely,
                                               E.A. Kyrish,
                                                         President.

    Senator Pryor. Mr. Ruby, you want to go ahead for us?
    Thank you. Thanks for being here.

                   STATEMENT OF ETHAN RUBY, 
              ACCIDENT VICTIM, NEW YORK, NEW YORK

    Mr. Ruby. Thank you very much, and it's an honor to be here 
and speaking on behalf of my fellow taxpaying Americans. I 
thank you for that opportunity.
    My name is Ethan Ruby. On November 29, 2000, I was a 
pedestrian, in a crosswalk in New York City, walking with the 
marked cross--with a white ``Walk'' sign, and a driver, owned 
by Budget Rent A Car, ran a red light, striking a van in that 
intersection, and that car had the right-of-way. The ensuing 
collision, the van and other car careened into me, which 
resulted in me being immediately and irreparably paralyzed. I 
was 25 years old then.
    Fortunately for me, because I lived in New York, whose laws 
at that time held the rental car companies accountable for the 
injuries caused by their negligent drivers. That was before the 
Graves Amendment. I was able to win compensation from Budget 
Rent A Car, and I've had a fighting chance to regain my life to 
the best of my abilities.
    I'm here today to ask that Congress repeal the Graves 
Amendment. I speak today on behalf of tomorrow's accident 
victims, who will suffer catastrophic injuries, but lack the 
financial capacity to restore and improve the quality of their 
lives. If the Graves Amendment is not repealed, many of those 
victims are likely to lack the--likely to lack--access the 
essential medical care, replace their lost earnings, and 
provide them with a reasonable compensation for their 
suffering.
    In my case, you should know that the driver of the Rent A 
Car had warrants out for his arrest for unpaid speeding tickets 
in other States. However, Budget gave this driver a car without 
checking the validity of his driver's license or his driving 
record.
    Let me describe to you briefly, what the Budget Rent A Car 
driver did to me and what my life has been like since the 
accident.
    In the aftermath of the accident, I was taken by ambulance 
to a local hospital, where I received emergency care and 
underwent major surgery to stabilize my condition. It was 
immediately clear that I would never walk again. I sustained an 
irreversible spinal cord injury. I could not move my legs, I 
was in intense pain, and I was more prepared to die than to 
live. Not only was I paralyzed, but I lost control of my 
bladder and bowel function; normal sexual function and capacity 
was also lost. Nothing has changed and nothing will change.
    Months of incredibly difficult, arduous, and expensive 
rehabilitation followed my emergency and intensive care at the 
hospital. The struggle to regain the strength and ability just 
to learn to sit upright, using my head to balance, as I had 
lost all control of my chest and body, and then learn to be 
able to live from the place of a chair, was a monumental 
change. A wheelchair was going to be my way of moving from 
place to place for the rest of my life. For those who are able 
to walk normally, it may be hard to imagine the efforts it 
takes to learn to transition from walking to a wheelchair. 
Also, once you're confined to a wheelchair, you'll find that 
life does not accommodate to you, you are always--have to 
accommodate to that and the seeming insurmountable obstacles 
that come each and every day.
    The cost of my medical and rehabilitation care has been 
astronomical. Once my limited private and personal medical 
insurance were exhausted, I was forced to use my savings to 
meet those expensive needs. And I relied on my family for as 
much help as possible.
    Future medical, surgical, and rehabilitation care will also 
be very costly. My doctors predicted that the medical 
complication as I go through life will only increase, to avoid 
the inevitable infections and cascade of problems that they 
will cause. As you probably recall, Christopher Reeves died 
from complications of a spinal cord injury.
    Before the accident, I was strong, healthy, athletic, 
running my own securities day-trading company, making a good 
living, and my future looked bright. Thankfully, I had a team 
of dedicated lawyers, led by Marc Moller and David Cook, of 
Kreindler & Kreindler, who prepared my case and represented me 
in a lengthy and hard-fought battle against Budget Rent A Car, 
who used their massive corporate profits to hire the best 
lawyers they could to protect those profits.
    After years of litigation, just prior to jury selection, 
Budget conceded liability, leading the quantum of damages to be 
determined by the jury. Once the elements of damage were 
sought--one of the elements of damages were sought--to be able 
to harvest for--sperm for potential in vitro fertilization, 
should I be able to, one day, marry. Thankfully, I now share 
the joy of a 20-month old son with my wife, who I was lucky to 
be able to marry, only because I had the means to recover after 
this injury.
    Despite all my pain, suffering, and loss, I was one of the 
lucky ones. My ordeal has brought me into contact with many 
spinal-cord-injury victims who I then try to--who I try to 
encourage to make the best of their lives, despite their 
circumstances. Their lives are incredibly hard. I know, from 
past experiences that they have shared with me, that their 
quality of life is directly influenced by the amount of money 
they have, or lack thereof. Without the money to obtain 
adequate care, replace the lost income, spinal-cord-injury 
victims' lives are victimized twice; first, by the accident 
caused by the injury, and second, with painful certainty that 
they will not have the financial resources to reach the highest 
level of recovery they might be able to achieve.
    The reason the Graves Amendment has such a draconian and 
unfair impact is that it shifts the burden of loss from the 
profit-making rental companies and their insurers to the 
potential victims of their negligent drivers. It is simply 
unfair to make the innocent victims of accidents protect rental 
companies' coffers. Moreover, to the extent that the victims 
then need help, any limited relief most likely will have to 
come from the State; that means taxpayers ultimately foot the 
bill if victims cannot. That is what the Graves Amendment has 
done, and that is why I'm here to ask that Congress repeal it.
    Thank you for your time.
    [The prepared statement of Mr. Ruby follows:]

 Prepared Statement of Ethan Ruby, Accident Victim, New York, New York
    Mr. Chairman:
    My name is Ethan Ruby. On November 29, 2000, I was a pedestrian 
walking across a street in New York City within the marked pedestrian 
crosswalk with the right-of-way when a rental car owned by Budget Rent-
A-Car ran a red light and struck a van in that intersection that had 
the right-of-way. In the ensuing collision, the van careened into the 
crosswalk and struck me, which resulted in my being immediately and 
irreparably paralyzed. I was then 25 years old.
    Fortunately for me, because I live in New York whose law held 
rental car companies as vehicle owners responsible for injuries caused 
by their negligent drivers. Before the Graves Amendment became law, I 
was able to win compensation from Budget Rent-A-Car and have a fighting 
chance to make the best of my compromised life.
    I am here today to ask that Congress repeal the Graves Amendment.
    I speak on behalf of tomorrow's accident victims who will suffer 
catastrophic injuries, but lack the financial capacity to restore and 
improve the quality of their lives if commercial rental car companies 
are insulated from liability for the negligence of those who rent their 
vehicles. If the Graves Amendment is not repealed, many of those 
victims are likely to lack access to essential medical care, replace 
their lost earnings potential, and provide them with reasonable 
compensation for their suffering.
    In my case, you should know that the driver of the rented car had 
warrants out for his arrest for unpaid speeding tickets when he 
commandeered the Budget car he was driving. To the best of my 
knowledge, nothing was done by Budget to check the validity of renters' 
driving records prior to entrusting their vehicle to them or even to 
determine whether their drivers licenses were in good standing. All a 
driver had to do was present a driver's license to a rental car 
agency's desk clerk and a credit card and he or she would be given a 
car. No questions were asked as to whether the driver had any other 
insurance in effect that would provide automobile liability protection 
to an innocent victim of an accident. Drivers were furthermore given 
the option of purchasing or declining automobile liability insurance 
coverage through the rental car company.
    Let me describe for you what Budget Rent-A-Car's driver did to me 
and what my life has been like in the nearly 10 years since my 
accident.
    In the aftermath of the accident, I was taken by ambulance to a 
local hospital in New York where I received emergency care and 
underwent major surgery to stabilize my condition. It was immediately 
clear that I would never walk again. I sustained an irreversible spinal 
cord injury. I could not move my legs, was in intense pain, and was 
more prepared to die than to live. Not only was I paralyzed, I lost 
control of my bladder and bowel function. Normal sexual function and 
capacity was also lost. Nothing has changed. Nothing will change.
    Months of incredibly difficult and arduous rehabilitation followed 
my emergency and intensive care in the hospital. The struggle to gain 
the strength and ability just to learn to sit upright using my head to 
balance me (as I had lost all control of my body from the chest down) 
and then to learn and be able to move from a stable chair or bed into a 
wheelchair was a monumental challenge. A wheelchair was going to be my 
way of moving from place-to-place for the rest of my life. For those 
who are able to walk normally it may be hard to imagine the effort it 
takes to learn how to transition from walking to a wheelchair. Also, 
once you are confined to a wheelchair, you find that life does not 
accommodate you and there are constant, seemingly insurmountable 
obstacles to overcome to adapt to your new condition.
    The cost of my medical and rehabilitation care was astronomical. 
Once my limited private and personal medical insurance was exhausted, I 
was forced to use savings to meet many of the expenses, and I relied on 
my family for as much help as they were able to provide. Future 
medical, surgical and rehabilitation care will likewise be very costly.
    My doctors predicted medical complications as I go through life. 
They are right. I must be diligent to avoid infection and the cascade 
of problems they cause.
    Before the accident I was strong, healthy, athletic, running my own 
securities day trading business and making a good living. The future 
looked bright.
    Thankfully, I had a team of dedicated lawyers led by Marc S. Moller 
and David C. Cook of Kreindler & Kreindler who prepared my case and 
represented me in a lengthy and hard fought trial against Budget Rent-
A-Car. After years of litigation, just prior to jury selection, Budget 
conceded liability leaving the quantum of damages to be determined by 
the jury. The jury returned a substantial verdict in December 2004. 
With minor adjustment after the defendant sought a reduction in the 
verdict, it was upheld on appeal. (Attached to the statement are two 
opinions for the trial and Appellate Court in my case and the brief 
which explains our position in detail.) One of the elements of damages 
we sought was money to harvest sperm to be available for in vitro 
fertilization were I able to marry. I now share the joy of a young son, 
20-months-old, with my beautiful wife who I married after I was injured 
and progressed to my present level of recovery.
    I was lucky!
    My ordeal has brought me into contact with many spinal cord injury 
victims who I try to encourage to make the best of their lives despite 
their circumstances. Their lives are incredibly hard. I know from the 
experiences they have shared with me that the quality of their lives is 
directly influenced by the amount of money they have, or lack, to gain 
the best medical care possible and to make the adjustments that will 
make their lives livable. Without the money to obtain adequate care and 
replace lost income, spinal cord accident victims' lives are victimized 
twice: first by the accident that caused the injury and second, with 
painful certainly, that they will not have the financial resources to 
reach the highest level of recovery their condition allows nor 
experience any realistic enjoyable quality of life.
    The reason the Graves Amendment has such a draconian and unfair 
impact is that is shifts the burden of loss from the profit-making 
rental car companies and their insurers who have the capacity to 
protect their economic interest, to the potential victims of their 
negligent drivers. It simply is unfair to make the innocent victims of 
accidents protect rental car company coffers. Moreover, to the extent 
that victims then need help, any limited relief most likely has to come 
from the state. Taxpayers ultimately foot the bill if victims cannot. 
That is what the Graves Amendment has done.
    The Graves Amendment should be repealed.

    Senator Pryor. Thank you.
    Mr. Leesfield.

        STATEMENT OF IRA H. LEESFIELD, PAST PRESIDENT, 
                ACADEMY OF FLORIDA TRIAL LAWYERS

    Mr. Leesfield. Thank you, Mr. Chairman. And I want to thank 
Senator Nelson for his very kind remarks at the beginning of 
the session.
    I am here to speak on why the Graves Amendment is a really 
bad idea, an idea that was not thought out and not well 
conceived.
    Now, Mr. Chairman, the Graves Amendment was not a bad idea 
for the major rental car companies of the United States, but it 
was a very bad idea for the citizens of the United States, and 
a very bad idea for States' rights, and a very bad idea for the 
U.S., local, and State governments. So, I'd like to address 
each one of those in my brief time.
    We've heard from a citizen--we've heard from Ethan--but his 
story is not alone, and it's not isolated. The Graves 
Amendment, passed in 2005, shifted the responsibility from 
corporate rental car companies to governments, local hospitals, 
local healthcare providers, and anybody who would take--pick up 
the tab for somebody injured by a rental car company.
    Now, in real life, Mr. Chairman, may I tell you how this 
really worked? Any State, such as Florida, where I'm from, but 
any State had the right to pass a State law. Florida had State 
laws which said that rental car companies were responsible, up 
to a certain amount. For the history of the State of Florida, 
as a matter of States' rights, Floridians could recover from 
corporate wrongdoers, including rental car companies.
    Now, in 1999, a Republican Governor, a Republican Senate 
and a Republican House in Florida, as a matter of States' 
rights, limited Floridians' recoveries but did not eliminate 
those recoveries; it merely limited them. And that limitation 
was a maximum recovery of $100,000 for economic loss--for 
noneconomic loss, and $500,000 for economic loss.
    That now has been totally eliminated by Graves. What Graves 
has done is taken away the States' rights to be the 
experimental place for individuals who are injured. In Florida, 
for instance, we have 8.6 million foreign visitors a year, as 
Senator Nelson alluded to, and we have 76 million domestic 
visitors. Those people, whether they come from Asia, South 
America, the Orient, wherever, come into Florida. There is no 
requirement that they have insurance.
    They rent a car. There's no requirement that they have 
financial responsibility. And if they injure someone, like 
Ethan or anybody else, they go back to their home country, 
their home venue, and we are left holding the bag. The ``we'' 
being the taxpayers. Because when people are injured and there 
is no corporate responsibility, what happens is, the taxpayers, 
either the local counties, the States, or the Federal 
Government, pick up the tab. Someone is going to pay for the 
medical care. If Nathan--Ethan did not get a fair recovery, he 
would have been--his medical care would have been provided for 
by the taxpayers of New York or elsewhere.
    So, what Graves does, really--it's a good idea for the 
rental companies. There's no--this is a--Enterprise, for 
instance, is a 10.1-billion-dollar-a-year--billion-dollar-a-
year--company. Enterprise has bought Alamo. If the Chair and 
the Committee look at the submission of the rental car 
industry, you do not see as one of their sponsors, on page 
seven, you do not see the mom-and-pop operation that they claim 
to be protecting in a pro-competitive way; you only see the big 
five. You only see the largest rental car companies, who, 
candidly, are just making more profit on an insurable loss.
    If you go to page 10 of their ``Positive Results'': Since 
the passage of Graves in 2005, the courts have paid great 
deference, as they should, to Congress. Now, the courts don't 
know that Graves never got a hearing in the Senate, that there 
was 20 minutes of discussion about Graves, 5 minutes from 
Congressman Nadler, 5 minutes from Mr. Graves, and 10 minutes 
from Mr. Conyers; that was the end of the discussion. They 
don't know that. The courts say, ``We're going to follow what 
the Congress has done.''
    So, on page 10, when the industry lists their positive 
results--and they call them that: ``positive results''--they 
include Ethan--they'd like to include Ethan, but they didn't, 
because his accident happened beforehand--as one of the 
positive results. In other words, ``We, the rental car 
industry, are not going to pay for the injury and the damage 
and the loss that we caused by not checking a driver's license, 
by not insisting on insurance, by not checking the driver's 
record.'' All you check--go, today, to a rental-car stand at 
any airport or anywhere else, and all that gets checked is your 
credit card and to see if you submit a driver's license. We 
never go beyond what that driver's license says about the 
drinking record, the safety record of the driver.
    So, Mr. Chairman, you opened this session with the impact--
your words were ``the impact on highway safety.'' I'm here to 
tell you that, when you don't have corporate responsibility, 
you don't have highway safety. And what Graves has done, it has 
eliminated--not modified, as each State has the right to do, 
not fine-tuned, not somewhat limited--it has eliminated 
corporate responsibility in the rental-car sphere, a sphere 
that 15 States plus the District of Columbia enforced, in their 
own way, in their own legislature, and with their own common 
law.
    So, we don't want any more ``positive results.'' We want 
Ethan to be able--if he's wrongly injured, we want him to be 
able to go to court. Graves and the industry, the five giants 
of the industry, have eliminated a right, in an uncareful, 
rushed way in 2005, and that--it is now time to turn back the 
clock to the right way and turn back the clock to true justice.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Leesfield follows:]

        Prepared Statement of Ira H. Leesfield, Past President, 
                    Academy of Florida Trial Lawyers
    In Florida, District of Columbia, and fourteen other states, 
including New York and California, vicarious liability has been part of 
legal jurisprudence, dating back for almost 90 years. As enunciated by 
the Florida Supreme Court in Southern Cotton Oil Co. v. Anderson, 80 
Fla. 44, 86 So. 629 (1920), the owner of an automobile ``. . . may not 
deliver it over to anyone he pleases and not be responsible,'' Southern 
Cotton. Vicarious liability, as recognized in 1920, was extended to 
automobile lessors by the Florida Supreme Court in 1947. Lynch v. 
Walker, 31 So. 2d 268 (Fla. 1947), and again in Susco Car Rental System 
v. Leonard, 112 So. 2d 832 (Fla. 1959).
    Fifteen of the similarly situated states developed, either by 
statute or common law, a mechanism for protecting its citizens and 
visitors from the life changing negligence of those behind the wheel of 
a vehicle entrusted to them.\1\
---------------------------------------------------------------------------
    \1\ List of States--attached.
---------------------------------------------------------------------------
    Not surprisingly, the importance of vicarious liability to the 
modern proliferation of the rental car industry coincided with a huge 
number of U.S. and foreign visitors coming into jurisdictions, doing 
harm and leaving. For instance, the Florida Chamber of Commerce 
recently reported over 82 million people visit Florida every year, and 
the numbers for California and New York are similar.
    Necessarily, these jurisdictions shifted to vehicle owners, 
including for profit rental companies, accountability for the 
destruction of mayhem left behind when rental vehicles caused life-
changing injuries and deaths within their borders.
    In 2004, ``out of the blue'' or more understandably, out of 
Missouri, the home of Enterprise Rental Cars, came the notion that the 
rental car industry should be granted full immunity from any damage 
caused by a driver who they entrusted their vehicle to for profit. In 
other words, no matter what the driving record or availability of 
insurance of the rental car driver, the rental car industry was to be 
completely immune and shielded from damages to innocent bystanders. 
This would, and did, wipe out any notion of rental car responsibility.
    Rental car companies tried to repeal vicarious liability statutes, 
state-by-state, particularly, New York. They were not successful 
inasmuch as the law-making bodies of these states felt it was necessary 
to incentivize safety by making profitable companies, who rent to 
negligent drivers, responsible for the life changing injuries to 
innocent parties. The industry then changed their focus from state 
legislature to Congress. In 2004, during the debate of the highway 
reauthorization bill, SAFETEA-LU, Representative Graves (R-MO) 
introduced an amendment specifically and completely abolishing rental 
vicarious liability under any state law. There was never any committee 
hearing on the issue. Nevertheless, the amendment failed in the 
Committee. In late 2004, Representative Graves brought the amendment up 
during the House floor debate, and the amendment failed by a voice 
vote. He then introduced the amendment again in January 2005, and asked 
for a recorded vote, at which time the amendment narrowly passed with 
bipartisan support and opposition. The amendment was never introduced 
in the Senate. Despite the objections of numerous groups, including the 
National Conference of State Legislatures, the amendment became part of 
the final bill language and is now codified in the U.S. Code.\2\
---------------------------------------------------------------------------
    \2\ 49 U.S.C.  30106 (2005).
---------------------------------------------------------------------------
    In the 5 years since the passage of the Graves' Amendment (as 
contrasted with the long history of state vicarious liability laws), 
Federal, state, county and local governments have been picking up the 
tabs and subsidizing the rental car industry by paying for enormous 
medical expenses and social services provided to those injured, maimed 
or killed by rental car customers. Annually, in Florida, there are 
thousands of examples, where visitors from overseas, or throughout the 
United States fly to Orlando, rent a car, and for a variety of reasons, 
cause egregious injuries to a Florida family or even another family 
visiting from out-of-state.\3\ At the point of rental, there is no 
requirement to produce insurance, a valid driver's license, check a 
driving record, or even familiarize the renter/user with the rules of 
the road. It is a free for all! The rental car industry only requires 
verification of the credit card to protect themselves, often leaving 
the innocent state resident without any recourse to injury or death.
---------------------------------------------------------------------------
    \3\ Some of the more telling cases include visitors from other 
jurisdictions with completely different driving customs, driving on the 
wrong side of the road and killing innocent pedestrians.
---------------------------------------------------------------------------
    The net effect and history of the law in Florida and other states 
has been unnecessarily tragic. For instance, the Florida legislature in 
1999, as part of a sweeping state tort reform statute, modified, but 
did not eliminate, vicarious liability for rental car companies. A 
Florida House and Senate controlled by Republicans and a Florida 
Republican Governor Jeb Bush, determined, as a matter of state's 
rights, that at least the economic interest of the innocent and injured 
Floridian would be recognized. In 1999, Florida passed  
324.021(9)(b)(2), which modified vicarious liability allowing the 
injured party to recover $500,000 in special damages, which would pay 
only for medical expenses and lost wages and an additional $100,000 for 
pain, disfigurement and loss of quality of life. This carefully crafted 
language is what the Florida legislature determined was best for the 
people and the State of Florida.
    Inadequate as that recovery may seem, that was the law of Florida 
until the rental car industry opted for complete abolition on the 
Federal law. The 1999 Florida law, before Graves, really served as a 
conduit allowing Federal, State, county and local hospitals and 
healthcare providers to be paid by the rental car malfeasant. Part of 
the burden remained with the rental car industry as a matter of public 
policy and financial responsibility. The most severely injured or 
killed citizen could get, even for a lifetime of pain and suffering, 
only $100,000 from the rental car company. Now, under the present 
Graves' Amendment, there is no recourse whatsoever. The rental car 
industry obtained government subsidy for damage caused by their 
vehicles. All the while, insurance coverage to the rental car industry 
has been available.
    The price is paid by innocent residents of states with large 
visiting populations, and ultimately, paid for by taxpayers and medical 
facilities. The rental car customer, whether from Sweden or Seattle, 
returns the car, leaving the carnage on the road and drives off, scot-
free. Under the Graves' Amendment, a rental car company that rents to 
these damaging drivers, without checking for insurance, has complete 
immunity. Innocent victims and their governments are left holding the 
bag. That bag is paid for by Medicare, Medicaid, Social Security, and/
or state and local healthcare providers.
    The Graves' Amendment should be repealed under our system of 
federalism and state legislatures should be permitted to govern 
legislation uniquely evaluated by state legislatures.
                               Attachment

                  Vicarious Liability State Statutes *
                          Updated February 2009
------------------------------------------------------------------------
   State        Type of Liability          Case Citation or Statute
------------------------------------------------------------------------
Arizona         Unlimited Liability   The owner of a motor vehicle who
                                       rents it to another without a
                                       driver, other than as a bona fide
                                       transaction involving the sale of
                                       the motor vehicle, without having
                                       procured the required public
                                       liability insurance or without
                                       qualifying as a self-insurer
                                       pursuant to  28-4007 with at
                                       least the minimum limits
                                       prescribed in subsection A of
                                       this section [$15,000 for one
                                       vehicle; $10,000 for each
                                       additional motor vehicle. Proof
                                       of the ability to respond in
                                       damages in the amount of one
                                       hundred thousand dollars is
                                       sufficient for any number of
                                       motor vehicles] is jointly and
                                       severally liable with the renter
                                       for damage caused by the
                                       negligence of the renter
                                       operating the motor vehicle.
                                       Ariz. Rev. Stat.  28-
                                       2166(A),(F).
------------------------------------------------------------------------
California        Limited Liability   Every owner of a motor vehicle is
                                       liable and responsible for death
                                       or injury to person or property
                                       resulting from a negligent or
                                       wrongful act or omission in the
                                       operation of the motor vehicle,
                                       in the business of the owner or
                                       otherwise, by any person using or
                                       operating the same with the
                                       permission, express or implied,
                                       of the owner. Cal. Veh. Code 
                                       17150.
                                      The liability of an owner, bailee
                                       of an owner, or personal
                                       representative of a decedent
                                       imposed by this chapter and not
                                       arising through the relationship
                                       of principal and agent or master
                                       and servant is limited to the
                                       amount of fifteen thousand
                                       dollars ($15,000) for the death
                                       of or injury to one person in any
                                       one accident and, subject to the
                                       limit as to one person, is
                                       limited to the amount of thirty
                                       thousand dollars ($30,000) for
                                       the death of or injury to more
                                       than one person in any one
                                       accident and is limited to the
                                       amount of five thousand dollars
                                       ($5,000) for damage to property
                                       of others in any one accident.
                                       Cal. Veh. Code  17151.
------------------------------------------------------------------------
Connecticu      Unlimited Liability   Any person renting or leasing to
 t                                     another any motor vehicle owned
                                       by him shall be liable for any
                                       damage to any person or property
                                       caused by the operation of such
                                       motor vehicle while so rented or
                                       leased, to the same extent as the
                                       operator would have been liable
                                       if he had also been the owner.
                                       Conn. Gen. Stat.  14-154a(a).
------------------------------------------------------------------------
Delaware        Unlimited Liability   The owner of a motor vehicle who
                                       is engaged in the business of
                                       renting motor vehicles without
                                       drivers, who rents any such
                                       vehicle without a driver to
                                       another, otherwise than as a part
                                       of a bona fide transaction
                                       involving the sale of such motor
                                       vehicle, and permits the renter
                                       to operate the vehicle upon the
                                       highways and who does not carry
                                       or cause to be carried public
                                       liability insurance in an
                                       insurance company or companies
                                       approved by the Insurance
                                       Commissioner of this State
                                       insuring the renter against
                                       liability arising out of the
                                       renter's negligence in the
                                       operation of such rented vehicle
                                       in limits of not less than
                                       $10,000 for anyone killed or
                                       injured and $20,000 for any
                                       number more than 1 injured or
                                       killed in any 1 accident, and
                                       against liability of the renter
                                       for property damage in the limit
                                       of not less than $5,000 for 1
                                       accident, shall be jointly and
                                       severally liable with the renter
                                       for any damages caused by the
                                       negligence of the latter in
                                       operating the vehicle and for any
                                       damages caused by the negligence
                                       of renting the vehicle from the
                                       owner. Del. Code Ann. tit. 21, 
                                       6102(a).
------------------------------------------------------------------------
D.C.            Unlimited Liability   Whenever any motor vehicle, after
                                       the passage of this subchapter,
                                       shall be operated upon the public
                                       highways of the District of
                                       Columbia by any person other than
                                       the owner, with the consent of
                                       the owner, express or implied,
                                       the operator thereof shall in
                                       case of accident, be deemed to be
                                       the agent of the owner of such
                                       motor vehicle, and the proof of
                                       the ownership of said motor
                                       vehicle shall be prima facie
                                       evidence that such person
                                       operated said motor vehicle with
                                       the consent of the owner. D.C.
                                       Code Ann.  50-1301.08.
------------------------------------------------------------------------
Florida           Limited Liability   Common law doctrine of Dangerous
                                       Instrumentality. Limited by Fla.
                                       Stat.  324.021 which limits car
                                       rental company vicarious
                                       liability to $100,000 per person
                                       and up to $300,000 per incident
                                       for bodily injury and up to
                                       $50,000 for property damage. If
                                       the lessee or the operator of the
                                       motor vehicle is uninsured or has
                                       any insurance with limits less
                                       than $500,000 combined property
                                       damage and bodily injury
                                       liability, the lessor shall be
                                       liable for up to an additional
                                       $500,000 in economic damages only
                                       arising out of the use of the
                                       motor vehicle. The additional
                                       specified liability of the lessor
                                       for economic damages shall be
                                       reduced by amounts actually
                                       recovered from the lessee, from
                                       the operator, and from any
                                       insurance or self-insurance
                                       covering the lessee or operator.
                                        324.021(9)(b)(2).
------------------------------------------------------------------------
Idaho             Limited Liability   (1) Every owner of a motor vehicle
                                       is liable and responsible for the
                                       death of or injury to a person or
                                       property resulting from
                                       negligence in the operation of
                                       his motor vehicle, in the
                                       business of the owner or
                                       otherwise, by any person using or
                                       operating the vehicle with the
                                       permission, expressed or implied,
                                       of the owner, and the negligence
                                       of the person shall be imputed to
                                       the owner for all purposes of
                                       civil damages. (2) The liability
                                       of an owner for imputed
                                       negligence imposed by the
                                       provisions of this section and
                                       not arising through the
                                       relationship of principal and
                                       agent or master and servant is
                                       limited to the amounts set forth
                                       under ``proof of financial
                                       responsibility.'' Idaho Code  49-
                                       2417
                                      ``Proof of financial
                                       responsibility'' means proof of
                                       ability to respond in damages for
                                       liability, on account of
                                       accidents occurring subsequent to
                                       the effective date of the proof,
                                       arising out of the ownership,
                                       maintenance or use of a motor
                                       vehicle, in the amount of twenty-
                                       five thousand dollars ($25,000)
                                       because of bodily injury to or
                                       death of one (1) person in any
                                       one (1) accident, and, subject to
                                       the limit for one (1) person, in
                                       the amount of fifty thousand
                                       dollars ($50,000) because of
                                       bodily injury to or death of two
                                       (2) or more persons in any one
                                       (1) accident, and in the amount
                                       of fifteen thousand dollars
                                       ($15,000) because of injury to or
                                       destruction of property of others
                                       in any one (1) accident. Idaho
                                       Code  49-117
------------------------------------------------------------------------
Iowa            Unlimited Liability   In all cases where damage is done
                                       by any motor vehicle by reason of
                                       negligence of the driver, and
                                       driven with the consent of the
                                       owner, the owner of the motor
                                       vehicle shall be liable for such
                                       damage. Iowa Code  321.493
------------------------------------------------------------------------
Maine           Unlimited Liability   An owner engaged in the business
                                       of renting motor vehicles, with
                                       or without drivers, who rents a
                                       vehicle to another for use on a
                                       public way, is jointly and
                                       severally liable with the renter
                                       for damage caused by the
                                       negligence of the renter in
                                       operating the vehicle and for any
                                       damages caused by the negligence
                                       of a person operating the vehicle
                                       by or with the permission of the
                                       renter. 29-A Me. Rev. Stat. 
                                       1652 Limitation: This section
                                       does not give a passenger in a
                                       rented vehicle a right of action
                                       against the owner. Also, this
                                       section does not affect
                                       contributory negligence as a
                                       defense.
------------------------------------------------------------------------
Michigan          Limited Liability   This section shall not be
                                       construed to limit the right of a
                                       person to bring a civil action
                                       for damages for injuries to
                                       either person or property
                                       resulting from a violation of
                                       this act by the owner or operator
                                       of a motor vehicle or his or her
                                       agent or servant. The owner of a
                                       motor vehicle is liable for an
                                       injury caused by the negligent
                                       operation of the motor vehicle .
                                       . . The owner is not liable
                                       unless the motor vehicle is being
                                       driven with his or her express or
                                       implied consent or knowledge. It
                                       is presumed that the motor
                                       vehicle is being driven with the
                                       knowledge and consent of the
                                       owner if it is driven at the time
                                       of the injury by his or her
                                       spouse, father, mother, brother,
                                       sister, son, daughter, or other
                                       immediate member of the family.
                                       Mich. Comp. Laws  257.401(1). As
                                       used in this chapter, ``owner''
                                       does not include a person engaged
                                       in the business of leasing motor
                                       vehicles who is the lessor of a
                                       motor vehicle pursuant to a lease
                                       providing for the use of the
                                       motor vehicle by the lessee for a
                                       period that is greater than 30
                                       days. Mich. Comp. Laws 
                                       257.401a. A person engaged in the
                                       business of leasing motor
                                       vehicles who is the lessor of a
                                       motor vehicle under a lease
                                       providing for the use of the
                                       motor vehicle by the lessee for a
                                       period of 30 days or less is
                                       liable for an injury caused by
                                       the negligent operation of the
                                       leased motor vehicle only if the
                                       injury occurred while the leased
                                       motor vehicle was being operated
                                       by an authorized driver under the
                                       lease agreement or by the
                                       lessee's spouse, father, mother,
                                       brother, sister, son, daughter,
                                       or other immediate family member.
                                       Unless the lessor, or his or her
                                       agent, was negligent in the
                                       leasing of the motor vehicle, the
                                       lessor's liability under this
                                       subsection is limited to
                                       $20,000.00 because of bodily
                                       injury to or death of 1 person in
                                       any 1 accident and $40,000.00
                                       because of bodily injury to or
                                       death of 2 or more persons in any
                                       1 accident. Mich. Comp. Laws 
                                       257.401(3).
------------------------------------------------------------------------
Minnesota         Limited Liability   Whenever any motor vehicle shall
                                       be operated within this state, by
                                       any person other than the owner,
                                       with the consent of the owner,
                                       express or implied, the operator
                                       thereof shall in case of
                                       accident, be deemed the agent of
                                       the owner of such motor vehicle
                                       in the operation thereof. Minn.
                                       Stat. 170.54. Notwithstanding
                                       section 170.54, an owner of a
                                       rented motor vehicle is not
                                       vicariously liable or legal
                                       damages resulting from the
                                       operation of the rented motor
                                       vehicle in an amount greater than
                                       $100,000 because of bodily injury
                                       to one person in any one accident
                                       and, subject to the limit for one
                                       person, $300,000 because of
                                       injury to two or more persons in
                                       any one accident, and $50,000
                                       because of injury to or
                                       destruction of property of others
                                       in any one accident, if the owner
                                       of the rented motor vehicle has
                                       in effect, at the time of the
                                       accident, a policy of insurance
                                       or self-insurance, as provided in
                                       section 65B.48, subdivision 3,
                                       covering losses up to at least
                                       the amounts set forth in this
                                       paragraph. Nothing in this
                                       paragraph alters or affects the
                                       obligations of an owner of a
                                       rented motor vehicle to comply
                                       with the requirements of
                                       compulsory insurance through a
                                       policy of insurance as provided
                                       in section 65B.48, subdivision 3;
                                       or through self-insurance as
                                       provided in section 65B.48,
                                       subdivision 3; or with the
                                       obligations arising from section
                                       72A.125 for products sold in
                                       conjunction with the rental of a
                                       motor vehicle. Nothing in this
                                       paragraph alters or affects
                                       liability, other than vicarious
                                       liability, of an owner of a
                                       rented motor vehicle. Minn. Stat.
                                       65B.49, subd. 5(h)(i)(2).
------------------------------------------------------------------------
Nevada            Limited Liability   The short-term lessor of a motor
                                       vehicle who permits the short-
                                       term lessee to operate the
                                       vehicle upon the highways, and
                                       who has not complied with NRS
                                       482.295 insuring or otherwise
                                       covering the short-term lessee
                                       against liability arising out of
                                       his negligence in the operation
                                       of the rented vehicle in limits
                                       of not less than $15,000 for any
                                       one person injured or killed and
                                       $30,000 for any number more than
                                       one, injured or killed in any one
                                       accident, and against liability
                                       of the short-term lessee for
                                       property damage in the limit of
                                       not less than $10,000 for one
                                       accident, is jointly and
                                       severally liable with the short-
                                       term lessee for any damages
                                       caused by the negligence of the
                                       latter in operating the vehicle
                                       and for my damages caused by the
                                       negligence of any person
                                       operating the vehicle by or with
                                       the permission of the short-term
                                       lessee, except that the foregoing
                                       provisions do not confer any
                                       right of action upon any
                                       passenger in the rented vehicle
                                       against the short-term lessor.
                                       This section does not prevent the
                                       introduction as a defense of
                                       contributory negligence to the
                                       extent to which this defense is
                                       allowed in other cases. Nev. Rev.
                                       Stat.  482.305
------------------------------------------------------------------------
New York        Unlimited Liability   Every owner of a vehicle used or
                                       operated in this state shall be
                                       liable and responsible for death
                                       or injuries to person or property
                                       resulting from negligence in the
                                       use or operation of such vehicle,
                                       in the business of such owner or
                                       otherwise, by any person using or
                                       operating the same with the
                                       permission, express or implied,
                                       of such owner. Whenever any
                                       vehicles as hereinafter defined
                                       shall be used in combination with
                                       one another, by attachment or
                                       tow, the person using or
                                       operating any one vehicle shall,
                                       for the purposes of this section,
                                       be deemed to be using or
                                       operating each vehicle in the
                                       combination, and the owners
                                       thereof shall be jointly and
                                       severally liable hereunder. N.Y.
                                       Veh. & Traf. Code  388.
------------------------------------------------------------------------
Oklahoma          Limited Liability   (a) In the event the owner of a
                                       for-rent motor vehicle has not
                                       given proof of financial
                                       responsibility as provided in
                                       Section 8-101 of this title, then
                                       the Tax Commission shall not
                                       register any motor vehicle owned
                                       by such person and rented, or
                                       intended to be rented, to another
                                       unless such owner shall
                                       demonstrate, to the satisfaction
                                       of the Commissioner, his
                                       financial ability to respond in
                                       damages as follows:


                                      2. If he applies for the
                                       registration of more than one
                                       motor vehicle, then in the
                                       foregoing sums for one motor
                                       vehicle, and Twenty Thousand
                                       Dollars ($20,000.00) additional
                                       for each motor vehicle in excess
                                       of one, but it shall be
                                       sufficient for the owner to
                                       demonstrate ability to respond in
                                       damages in the sum of Two Hundred
                                       Thousand Dollars ($200,000.00)
                                       for any number of motor vehicles.

                                      (b) The Department shall cancel
                                       the registration of any motor
                                       vehicle rented without a driver
                                       whenever the Department
                                       ascertains that the owner has
                                       failed or is unable to comply
                                       with the requirements of this
                                       section.

                                      (c) Any owner of a for-rent motor
                                       vehicle who has given proof of
                                       financial responsibility under
                                       this section or who in violation
                                       of this act, has failed to give
                                       proof of financial responsibility
                                       shall be jointly and severally
                                       liable with any person operating
                                       such vehicle for any damages
                                       caused by the negligence of any
                                       person operating the vehicle by
                                       or with the permission of the
                                       owner, except that the foregoing
                                       provision shall not confer any
                                       right of action upon any
                                       passenger in any such rented
                                       vehicle as against the owner. 47
                                       Okla. Stat. Ann.  8-102
------------------------------------------------------------------------
Pennsylvan        Limited Liability   Failure of a person engaged in the
 ia                                    rental of motor vehicles to
                                       comply with sections 1 and 2
                                       [i.e., section 2151 and 2153,
                                       which provide, respectively, as
                                       follows: No motor vehicle rented
                                       or leased from any location in
                                       this Commonwealth may be covered
                                       by an insurance policy or self-
                                       insurance arrangement which
                                       excludes benefits if the lessee
                                       or any other authorized driver is
                                       involved in a vehicular accident
                                       while under the influence of
                                       drugs or intoxicating beverages
                                       at the time of the accident; and
                                       it shall be the duty of the
                                       lessor of motor vehicles to
                                       ensure that, in the event the
                                       rented motor vehicle is not
                                       returned during the contracted
                                       rental period, all liability or
                                       first party coverage continues
                                       until such time as the motor
                                       vehicle is reported to the police
                                       as stolen] shall, as a matter of
                                       law, render such person
                                       responsible for the mandated
                                       minimum limits of financial
                                       responsibility set forth in the
                                       Motor Vehicle Financial
                                       Responsibility Law arising out of
                                       the use of the motor vehicle for
                                       which the lessee would otherwise
                                       be responsible. 73 Pa. Stat. 
                                       2153
------------------------------------------------------------------------
Rhode             Limited Liability   (a) Except as provided below, any
 Island            [Effective until    owner of a for hire motor vehicle
                      June 2, 2009]    or truck who has given proof of
                                       financial responsibility under
                                       this chapter or who in violation
                                       of this chapter has failed to
                                       give proof of financial
                                       responsibility, shall be jointly
                                       and severally liable with any
                                       person operating the vehicle for
                                       any damages caused by the
                                       negligence of any person
                                       operating the vehicle by or with
                                       the permission of the owner.

                                      (b) The liability of a lessor of a
                                       short-term rental motor vehicle
                                       or truck under this section shall
                                       be subject to a limit of $250,000
                                       for bodily injury to or the death
                                       of one person, and subject to the
                                       limit for one person, to a limit
                                       of $500,000 for bodily injury to
                                       or the death of two or more
                                       persons in any one accident, and
                                       a limit of $25,000 because of
                                       injury to or destruction of
                                       property of others in any one
                                       accident.

                                      (c) With respect to any long-term
                                       lease motor vehicle or truck: (1)
                                       the owner and/or lessor (and/or
                                       its successors or assignees) of a
                                       long-term lease motor vehicle or
                                       truck who is not the operator of
                                       the vehicle at the time of an
                                       accident shall not be jointly and
                                       severally liable with the
                                       operator and/or the lessee of the
                                       vehicle for any damages caused by
                                       the negligence of any person
                                       operating the vehicle if, at the
                                       time of the accident, the lessee
                                       has valid motor vehicle liability
                                       insurance which contains limits
                                       in an amount equal to or greater
                                       than $100,000 for bodily injuries
                                       to any one person in any one
                                       accident, $300,000 for bodily
                                       injuries in any one accident, and
                                       $50,000 for damage to property of
                                       others in any accident or a
                                       combined single limit of $300,000
                                       or greater; (2) If the lessee of
                                       a long-term lease motor vehicle
                                       or truck does not have insurance
                                       in the amounts set forth in
                                       subsection (c)(1) above, then the
                                       liability of the owner and/or
                                       lessor (and/or its successors or
                                       assignees) of a long-term lease
                                       motor vehicle or truck shall not
                                       exceed the difference between:
                                       (1) the motor vehicle liability
                                       insurance limits actually
                                       maintained by the lessee of the
                                       long-term lease motor vehicle or
                                       truck at the time of the
                                       accident; and (2) $100,000 for
                                       bodily injuries to any one
                                       person, $300,000 for bodily
                                       injuries in any one accident, and
                                       $50,000 for damage to property of
                                       others in any accident. (d)
                                       Nothing in this section shall be
                                       construed to prevent an owner who
                                       has furnished proof of financial
                                       responsibility or any person
                                       operating the vehicle from making
                                       defense in an action upon the
                                       ground of comparative negligence
                                       to the extent to which the
                                       defense is allowed in other cases
                                       (e) Notwithstanding the
                                       provisions of subsection (a) of
                                       this section, or any provisions
                                       contained under title 31 to the
                                       contrary, the operator's valid
                                       collectable liability or self-
                                       insurance providing coverage or
                                       liability protection for any
                                       third party liability claims
                                       shall be primary, and the valid
                                       and collectable liability or self-
                                       insurance providing coverage or
                                       liability protection for any
                                       third-party liability claims for
                                       the owner and/or lessor arising
                                       out of the operation of the
                                       vehicle shall be excess. This
                                       shall be stated in ten (10) point
                                       type on the face of any short-
                                       term rental agreement. R.I. Stat
                                        31-34-4(b).
------------------------------------------------------------------------
Wisconsin         Limited Liability   (1) No lessor or rental company
                                       may for compensation rent or
                                       lease any motor vehicle unless
                                       there is filed with the
                                       department on a form prescribed
                                       by the department a certificate
                                       for a good and sufficient bond or
                                       policy of insurance issued by an
                                       insurer authorized to do an
                                       automobile liability insurance or
                                       surety business in this state.
                                       The certificate shall provide
                                       that the insurer which issued it
                                       will be liable for damages caused
                                       by the negligent operation of the
                                       motor vehicle in the amounts set
                                       forth in s. 344.01(2)(d). No
                                       lessor or rental company
                                       complying with this subsection,
                                       and no lessor or rental company
                                       entering into or acquiring an
                                       interest in any contract for the
                                       rental or leasing of a motor
                                       vehicle for which any other
                                       lessor or rental company has
                                       complied with this subsection, is
                                       liable for damages caused by the
                                       negligent operation of the motor
                                       vehicle by another person.

                                      (2) Any lessor or rental company
                                       failing to comply with this
                                       section is directly liable for
                                       damages caused by the negligence
                                       of the person operating such
                                       rented or leased vehicle, but
                                       such liability may not exceed the
                                       limits set forth in s.
                                       344.01(2)(d) with respect to the
                                       acceptable limits of liability
                                       when furnishing proof of
                                       financial responsibility.).
                                       [``Proof of financial
                                       responsibility'' or ``proof of
                                       financial responsibility for the
                                       future'' means proof of ability
                                       to respond in damages for
                                       liability on Account of accidents
                                       occurring subsequent to the
                                       effective date of such proof,
                                       arising out of the maintenance or
                                       use of a motor vehicle in the
                                       amount of $25,000 because of
                                       Bodily injury to or death of one
                                       person in any one accident and,
                                       subject to such limit for one
                                       person, in the amount of $50,000
                                       because of bodily injury to or
                                       death of 2 or more persons in any
                                       one accident and in the amount of
                                       $10,000 because of injury to or
                                       destruction of property of others
                                       in any one accident.] Wis. Stat.
                                        344.51
------------------------------------------------------------------------
* Note: this chart lists only vicarious liability statutes pertaining to
  motor vehicles which are rented, loaned, or leased by the owner to
  other adults. It does not include statutes specific to minor use,
  employee use, or insurance statutes which set forth mandatory
  insurance provisions for rental cars or owner-operator coverage. For
  purposes of this chart, vicarious liability is not categorized as
  limited where the basis for the limitation is the length of time that
  a motor vehicle has been rented or leased and/or the weight of a motor
  vehicle. (e.g., Iowa Code Ann.  321.493 limits vicarious liability
  where a vehicle is leased for a period of 12 months or more pursuant
  to a written agreement.)


    Senator Pryor. Thank you.
    Mr. James.

STATEMENT OF THOMAS M. JAMES, PRESIDENT AND CEO, TRUCK RENTING 
                    AND LEASING ASSOCIATION

    Mr. James. Thank you, Mr. Chairman. I appreciate the 
opportunity to testify here on this issue of vicarious 
liability.
    My name is Tom James. I'm the President and CEO of the 
Truck Renting and Leasing Association. However, I'm testifying 
on behalf of a much broader coalition, which illustrates the 
much broader impact that these vicarious liability laws have on 
transportation in general, both commercial transportation and 
consumer transportation.
    The members of our coalition include the U.S. Chamber of 
Commerce, National Federation of Independent Business, the 
American Trucking Associations, and associations representing 
rental car companies, auto dealers, truck dealers, and auto 
manufacturers. This is much more than a car rental issue, this 
is a consumer choice issue and this is a business 
transportation issue.
    We support the Graves voucher provision as enacted in 
SAFETEA-LU. Graves voucher eliminates liability--without fault, 
only--for vehicle renting and leasing companies, making the 
system of assigning liability more fair.
    Let's just be clear what Graves voucher does and doesn't 
do:
    Graves voucher does not protect any rental, leasing, or 
car-sharing company from liability for its own negligence. In 
essence, Mr. Leesfield, the corporate wrongdoers--if you are a 
wrongdoer, you are not protected by Graves. If you are found 
liable of any sort of negligence, you are not protected by 
Graves.
    What Graves does do is, it preserves the rights of States 
to enact laws mandating the minimum levels of insurance 
coverage for the privilege of operating and registering a 
vehicle. States still strive to strike a balance--and I'm sure 
it's not an easy one for State legislatures--between affordable 
insurance and victim compensation. But, make no mistake, there 
are no uninsured rental or leased vehicles on the road, even 
those driven by foreign drivers. Every vehicle that leaves a 
rental car shop, or that leaves an auto dealer's lot, that's 
leased by a consumer, is covered by the minimal levels of 
financial responsibility that that particular State in which 
the transaction has occurred has determined is appropriate and 
right.
    As Americans, we believe that individuals must be held 
responsible for the consequences of what they do. But, a 
doctrine of vicarious liability imposes liability on non-
negligent companies. This doctrine dates back to the days when 
horse-and-buggy rental operators were supposed to know the 
personalities of their horses and when chauffeured drivers--
when a limo got in an accident, you wanted to get to the guy in 
the back of the car, not the guy driving the car, because 
that's where the money was.
    Nowadays, in contrast, non-negligent rental and leasing 
companies cannot foresee whether our customers will drive our 
cars across State lines; and in some cases, with some of my 
association members, we expect them, because they are engaged 
in interstate commercial transportation.
    The interstate nature of rental and leasing share--and car-
shared fleets just does not work with the patchwork nature of 
varying State vicarious liability laws. These laws leave non-
negligent--prior to 2005, left non-negligent rental and leasing 
companies vulnerable to liabilities, which we can neither 
anticipate nor avoid.
    We know what will happen if existing law is reversed; non-
negligent companies will again be exposed to exorbitant 
liability awards--most importantly, that bear no relationship 
to the company's fault or the company's negligence--solely on 
the basis of ownership. And there's no doubt that these 
incidents are human tragedies, individuals and families deserve 
to be compensated, but they deserve to be compensated by 
parties and entities whose negligence contributed to the 
accident.
    In many cases--I have a couple of examples in my written 
testimony--in 1991, a car was rented from Alamo in Fort 
Lauderdale. The driver of the car, after he left the rental 
shop, fell asleep. The car veered off the road. Solely on the 
basis of ownership, a $7.7-million award.
    For 17 years, Sharon Faulkner, who I think has testified 
before this committee--she owned a car rental company, rented a 
car to a woman, the woman lent the car to her son, an 
unauthorized driver; that gentleman got in an accident; her 
company was driven out of business because of that 
nonauthorized driver's activities.
    Congress has debated this issue. It has debated it twice in 
the House of Representatives, voted on it once, on a rollcall 
vote. It came up extensively in Congress. The law has been 
upheld by the Florida Supreme Court, the highest courts in 
Minnesota and Connecticut. The law has been upheld by the U.S. 
District Court and U.S. Court of Appeals. All of those courts 
recognized both the interstate nature of the car and truck 
rental and lease fleet, as well as the authority of Congress, 
because of that interstate nature, to enact a Federal law 
regarding liability for those vehicles that travel across State 
lines.
    Let's--this has been debated by Congress. Congress took 
action, under its own authority. Let's not make what has been 
made right--make it wrong again. Let's not compel consumers and 
businesses to pay higher costs for liability over which the 
rental car, the rental truck, or the car and truck leasing 
company has no ability to avoid. There are no practices they 
can take to protect them from this exposure. It's solely on the 
basis of owning the vehicles. I know I'm almost out of time, 
here. If I just can sum up:
    We're talking about fairness, consumer choice, American 
jobs. In all of the previous panels, we talked--we heard about 
some of the most dangerous issues that are out there for 
highway safety: drunk driving, distracted driving, untrained 
teen drivers. All of these safety issues revolve around the 
driver. Whether those drunk-driving or distracted-driving 
incidents happened in a red Taurus that was rented from 
Enterprise or whether it was a red Taurus that was bought from 
Koons Ford, doesn't make a difference as to the safety and the 
impact of the incidents that happened in that car. It really 
goes down to the driver.
    And I'm happy to answer any questions, but we strongly 
support the Graves law.
    Thank you.
    [The prepared statement of Mr. James follows:]

       Prepared Statement of Thomas M. James, President and CEO, 
                 Truck Renting and Leasing Association
    My name is Tom James. I am President and CEO of the Truck Renting 
and Leasing Association. I am testifying today on behalf of a broad 
coalition of companies, trade associations, and other stakeholders who 
were significantly impacted by state vicarious liability laws before 
Congress took action in 2005. The breadth and depth of our coalition is 
conveyed by the fact that our members include the U.S. Chamber of 
Commerce, the National Federation of Independent Business, the American 
Trucking Association, and associations representing rental car 
companies, auto dealers, truck dealers, auto manufacturers and other 
segments of our industry. (See attached list of supporters of members 
of the coalition supporting Graves/Boucher.)
    The nation's car and truck renting, leasing and sharing industry is 
an important part of the American economy, supporting jobs and business 
activity in communities throughout this country.
    For instance, in truck renting and leasing, there are about 550 
companies, employing 100,000 people, and operating out of about 24,000 
locations in the United States. As with leased automobiles, there are 
few identifying marks to distinguish trucks that are owned by their 
operators from trucks that are leased or rented by their operators. But 
one out of every five trucks on the highways is rented or leased.
    Meanwhile, rented, leased and shared cars account for a large share 
of American automobiles. In 2009, the U.S. rental car industry had 1.6 
million cars in service at over 16,000 locations. In fact, every year, 
22 percent of the purchases of American-made cars and light-duty 
vehicles are for commercial fleet leasing use.
    Our coalition supports the Graves/Boucher provision included in the 
Transportation Equity Act of 2005. It eliminated liability without 
fault for vehicle renting and leasing companies. And it preserved the 
states' ability to enact insurance laws to protect consumers and their 
right to sue companies for their negligence in the rental or leasing of 
vehicles.
    Over the past 5 years, Graves/Boucher has had many beneficial 
effects for consumers, companies, employers and the entire economy. 
Among other benefits, environmentally friendly car-sharing programs 
have grown rapidly since the enactment of Graves/Boucher. And consumer 
auto lessors are offering affordable options for car acquisition in New 
York, specifically in response to the enactment of Graves Law.
    In supporting Graves/Boucher, we believe that we are defending 
three basic, bedrock concerns: simple fairness, American jobs, and 
consumer choice.
    Before I go any further, let me be clear about what Graves/Boucher 
does and does not do. To put it plainly, there are no uninsured rental 
or leased vehicles on the road.
    The language in the law emphasizes that states continue to have the 
right to enact and enforce laws mandating insurance coverage levels for 
the privilege of operating and registering a vehicle--minimum levels of 
financial responsibility or MFR. This provision also ensures that 
states have the right, if they so choose, to set higher levels of MFR 
for rented or leased vehicles.
    To repeat this point, because it is so important: Under these MFR 
statutes, there are no uninsured consumer rental or leasing vehicles. 
Each vehicle is covered up to an amount determined by the state to be 
an appropriate minimum level of insurance. Many consumer auto lease 
contracts actually require that higher levels of insurance must be held 
by the lessee. Almost all commercial rental and lease contracts require 
the lessee to hold levels of insurance significantly higher than the 
minimum level of financial responsibility.
    Moreover, Graves/Boucher does not in any way protect a renting or 
leasing company from liability for its own negligence. Whether that 
negligence involves the maintenance of a vehicle or the decision to 
enter into a rental or lease contract with a specific individual or 
business, Graves/Boucher offers no protection from liability in these 
cases. But it does make the system of assigning liability much more 
fair.
    As Americans, we believe that individuals must be held responsible 
for the consequences of what they do. But the doctrine of vicarious 
liability imposes liability on non-negligent car and truck renting and 
leasing companies, or their affiliates, regardless of fault. This 
doctrine dates back to the days of horse and buggies, when horse and 
buggy rental operators were supposed to know the personality of their 
horses.
    On the state level, vicarious liability laws arbitrarily 
transferred liability from a negligent driver to the renting or leasing 
company--even though that company had no ability to prevent or foresee 
the accident. It is not fair to impose multimillion-dollar judgments on 
any entity, whether an individual or corporation, when they have done 
nothing wrong.
    These laws weren't only unfair--they were unworkable in a country 
comprised of 50 states and an industry as diverse as the Nation that it 
serves.
    Please keep in mind that the rented and lease fleet includes: 
automobiles leased to consumers, generally from 3 to 5 years; 
automobiles rented to consumers for periods of one day to 30 days; 
automobiles leased to businesses, generally for 3 years; trucks rented 
to consumers for periods of one to 30 days; and trucks leased to 
businesses, usually for one to 5 years.
    There is one thing that all of these lease and rental transactions 
have in common: The leasing or renting company cannot control where the 
vehicle is operated--and in what manner the vehicle is operated--during 
the term of the lease and rental.
    The fact is: We can't even prevent our customers from driving our 
vehicles across state lines. A company operating in Virginia cannot 
stop its customers and vehicles from traveling to Maryland, 
Pennsylvania, New Jersey or New York.
    Before Congress preempted the state laws, when customers drove 
rental cars or trucks across state lines, they were covered by the laws 
of the states where they are driving. And these laws were a crazy-quilt 
of differing provisions and penalties.
    Combined with our inability to control where and how our cars and 
trucks were driven, this patchwork of state vicarious liability laws, 
put non-negligent rental and leasing companies in an untenable 
situation. We were exposed to liabilities for which there was no best 
practice, nor any method for protection. We were vulnerable solely 
because the vehicles that we owned might have been involved in 
accidents after we gave up control of the vehicles to renters or 
lessees.
    Such laws are not fair. And they destroy American jobs and diminish 
consumer choice.
    In enacting Graves/Boucher, Congress took action 5 years ago to 
make sure that these laws no longer injure consumers, working 
Americans, and businesses large and small. You've heard the saying, 
``If it ain't broke, don't fix it.'' You fixed this already. So please 
don't fix it again.
    We know what will happen if the existing law is reversed. Once 
again, non-negligent companies will be subject to huge claims for 
damages for which they are not responsible.
    For instance, in 1993, two friends rented a car in New Jersey from 
Freedom River, Inc., a Philadelphia licensee of Budget Rent-A-Car 
Corporation. The rental agreement identified only the two renters as 
authorized drivers. But the wife of one of the renters drove the 
automobile and was involved in a single-car accident in New York. Her 
sister was seriously injured in the accident. An arbitrator applied New 
York law and found the defendant and Freedom River liable for $3.75 
million. This judgment was affirmed by the New Jersey Supreme Court.
    In 1991, four British sailors rented a car from Alamo in Fort 
Lauderdale, Florida, to drive to Naples. While driving to Naples, the 
driver of the car fell asleep at the wheel. The car left the road and 
ended up in a canal. The driver and two passengers were killed. The 
fourth passenger was seriously injured. Alamo was found vicariously 
liable for the deaths and injuries due solely to the fact that it owned 
the vehicle. No negligence for the accident was attributed to Alamo, 
Alamo was ordered by a jury to pay the plaintiffs $7.7 million. The 
jury award was affirmed on appeal.
    What will happen to consumers if Graves/Boucher is reversed and 
non-negligent companies are once again subject to huge claims such as 
these for damages for which they are not responsible? Once again, 
renting and leasing customers are certain to pay higher costs to cover 
the actions of all negligent drivers. When state laws were in effect, 
some renting and leasing companies could not even find affordable 
insurance to cover them in the case of a vicarious liability claim.
    Once again, consumers and businesses are certain to pay high 
commercial costs for transportation of goods. In the midst of the worst 
economy in 70 years or more, this puts American jobs at risk.
    Once again, small businesses--the most vulnerable car and truck 
rental companies--are certain to run the risk of failure when hefty 
verdicts are assessed to pay for the actions of their at-fault renters. 
These business failures will take their toll in fewer choices for 
consumers and fewer jobs for workers.
    For example, for 17 years, Sharon Faulkner owned a small car rental 
company in Albany, New York. Then, one day, she rented a car to a woman 
who agreed that she would be the only driver of the car. But the woman 
lent the car to her son, who, without Sharon Faulkner's knowledge, 
drove the car to New York City. There, he was involved in an accident 
in which he struck a pedestrian in a crosswalk. Under New York State's 
vicarious liability law, the injured person sued Sharon Faulkner's 
company, collecting substantial damages and driving her out of 
business.
    She had not been negligent in any way. She could not have prevented 
the accident from occurring. But she was held liable and put out of 
business. (See attached letter from Sharon Faulkner.)
    Small car rental companies aren't the only companies that will 
suffer if the existing law is reversed. Once again, auto manufacturers 
and leasing companies are certain to suffer severe losses when faced 
with frivolous lawsuits. For instance, before the Transportation Equity 
Act of 2005, many companies refused to lease in New York because 
businesses feared expensive and overly burdensome losses.
    Our Nation has made a great investment in the survival of our 
domestic auto industry, and that investment is reaping rewards with the 
revival of the big three American companies. Why harm the American auto 
industry--and why jeopardize the jobs of American workers--in order to 
return to a dubious doctrine that originated in the era of the horse 
and buggy?
    Congress has already debated this issue comprehensively and decided 
it correctly. Commencing in 1996, Congress reviewed vicarious liability 
laws, held hearings and considered many proposals. In 1998 Senators 
Rockefeller and Gordon introduced legislation (S. 2236) which included 
a vicarious liability provision. On Sept. 30, 1999, this subcommittee 
held a hearing on Senator McCain's vicarious liability legislation (S. 
1130).
    In 2005, the House of Representatives passed an amendment that 
preempted state vicarious liability laws applicable to vehicles, as 
part of the Highway Reauthorization legislation. This amendment was 
included in the final version that was enacted into law.
    Since 2005, this law has been upheld in several Federal court 
decisions. (See attached summaries of court cases since Graves/
Boucher.) For instance, in Garcia v. Vanguard Car Rental USA, Inc., 540 
F.3d 1242 (11th Cir. 2008), the Eleventh Circuit upheld the amendment's 
constitutionality because the statute has a substantial effect on 
interstate commerce. Let me quote from the court's decision:

        ``Congress rationally could have perceived strict vicarious 
        liability for the acts of lessees as a burden on [the rental 
        car] market. . . . The reason it could have done so is that the 
        costs of strict vicarious liability against rental car 
        companies are borne by someone, most likely the customers, 
        owners, and creditors of rental car companies. If any costs are 
        passed on to customers, rental cars . . . become more 
        expensive, and interstate commerce is thereby inhibited. 
        Moreover, if significant costs from vicarious liability are 
        passed on to the owners of rental car firms, it is possible 
        that such liability contributes to driving less-competitive 
        firms out of the marketplace, or inhibits their entry into it, 
        potentially reducing options for consumers.''

    Let's not take what has been made right and make it wrong again. It 
is wrong to compel consumers across the Nation to pay higher rental 
rates for misguided vicarious liability laws which became obsolete with 
the invention of the automobile at the beginning of the last century. 
It is wrong to deprive consumers of the competition and lower rental 
rates that smaller operators can offer. It is wrong to return to the 
days when a car or truck rental company, even one operating outside of 
a vicarious liability state, could protect itself against exorbitant 
claims only by going out of business. And it is especially wrong to 
take actions that would have these consequences in the midst of a 
national economic crisis.
    Thank you for the opportunity to present this testimony today and 
to speak up for fundamental fairness, for consumer choice, and for 
American jobs.
    Attachments: (1) List of members of the coalition supporting 
Graves/Boucher; (2) Letter from Sharon Faulkner; (3) Summaries of court 
cases since Graves/Boucher was enacted; (4) Statement from attorney 
Mark Perry.
                                 ______
                                 
 Companies and Organizations that Support the Graves/Boucher Provision
Alamo Rent-A-Car
Ally Financial, Inc.
American Automotive Leasing Association
American Car Rental Association
American Financial Services Association
American Insurance Association
American International Automobile Dealers Association
American Tort Reform Association
American Trucking Association
Association of International Automobile Manufacturers
Avis Budget Group
Chrysler Group LLC
Dollar Thrifty Automotive Group
Enterprise Rent-A-Car
Ford Motor Company
General Electric
General Motors Company
Hertz Corporation
Honda Motor Company
Mazda North American Operations
Motor & Equipment Manufacturers Association
National Association of Manufacturers
National Automobile Dealers Association
National Car Rental
Nissan North America
Penske Truck Leasing Company
Ryder System, Inc.
The Financial Services Roundtable
Truck Renting and Leasing Association
U.S. Chamber Institute for Legal Reform
U.S. Chamber of Commerce
      
                                 ______
                                 
            Statement by Sharon Faulkner--September 24, 2010
Chairman John D. Rockefeller IV,
Ranking Member Kay Bailey Hutchison,
Subcommittee Chairman Mark Pryor,
Subcommittee Ranking Member Roger Wicker,
Committee on Commerce, Science, and Transportation,
Washington, DC.

Dear Chairman Rockefeller and Members of the Committee:

    I represent one of the many business owners who were significantly 
impacted by state vicarious liability laws prior to Congress taking 
action in 2005. Therefore, I write in support of the provision included 
in the TEA-LU legislation that eliminated liability without fault for 
vehicle renting and leasing companies, and yet preserved the states' 
ability to enact insurance laws to protect consumers and their ability 
to sue companies if they are found to be negligent in the rental or 
leasing of vehicles.
    For seventeen years, until 1997, I was a small business owner 
operating an independent car rental company in upstate New York. The 
company, Capitaland Rent a Car, was headquartered in Albany. During 
those years, thanks to the hard work of my employees and the loyalty of 
local customers, my company survived two recessions and fierce 
competition.
    That situation changed one day in 1997 when I was notified that I 
and my company were being sued for an accident involving one of my 
rental cars that occurred over a year previously. Capitaland had rented 
a car in 1996 to a customer who possessed a valid New York driver's 
license. As part of Capitaland's standard rental agreement, the 
customer agreed that she would be the only driver of the car. My 
customer then loaned the car to her son who was an unauthorized driver 
under the rental agreement. The renter's son, without her knowledge, 
drove the car to New York City, where our car was involved in an 
accident in which a pedestrian was struck in a crosswalk. The injured 
person sued our company for the son's negligence in causing the 
accident.
    This lawsuit caught me completely by surprise because when I 
checked my records, I found that the rental vehicle had been returned 
to us without any damage. As a result, I had no idea that an accident 
had ever occurred or that a person had ever been injured. Nevertheless, 
Capitaland was named as a codefendant in the lawsuit, which demanded 
enormous amounts of money to pay medical bills and compensate the 
injured person for his pain and suffering.
    You might wonder how it was that my company was sued for the 
accident. We rented to a licensed driver, the renter loaned the car to 
an unauthorized driver. It was the unauthorized driver, a person that 
neither I nor any of my employees ever had a chance to meet, that 
caused the accident that injured the pedestrian. We weren't negligent 
in any way and I could not have prevented the accident from occurring. 
Therefore, how could I have been liable?
    However, New York was one of a very small minority of states that 
held companies that rent motor vehicles liable for the negligence of 
persons who drive their vehicles whether that person is a customer or 
not. In these states a car rental company could have been assessed 
unlimited damages by a court under the legal doctrine of vicarious 
liability if one of its cars were involved in an accident in which the 
driver of the car was negligent. Simply because we owned the car, New 
York law held my company liable for the negligence of the renter.
    For me this lawsuit was a final straw. At the time I was a mother 
with three small children; and Capitaland was our sole means of 
support. I found it incredible that I could lose everything I had 
worked to achieve for 17 years because of an accident for which I 
wasn't at fault. In effect, every time I rented a car to a customer I 
was putting my family's future on the line in the hope that the 
customer did not drive the car negligently and cause an accident.
    So I made the decision to sell my company, and in the end, all of 
my former employees were laid off. The result: another independent car 
rental company disappeared in New York. But my company wasn't alone. 
Capitaland was one of over 300 car rental companies that closed in New 
York while vicarious liability laws were in place.
    Vicarious liability for companies that rent or lease motor vehicles 
is unfair and contrary to one of our Nation's fundamental pillars of 
justice, that a person should be held liable only for harm that he or 
she causes or could have prevented in some way. TEA-LU legislation put 
a stop to this legal lottery, preempting state vicarious liability 
laws, but preserving the states' ability to enact insurance laws to 
protect consumers and consumers' ability to sue companies for their 
negligence in the rental or leasing of vehicles. It's too late to help 
my former company, but Congress can see to it that it doesn't happen 
again to someone else by preventing the vicarious liability doctrine 
from rearing its head once more.
            Sincerely,
                                           Sharon Faulkner,
              Former small business owner of Capitaland Rent a Car,
                         an independent car rental company in New York.
                                 ______
                                 
 Update on Judicial Action Involving Federal Law Eliminating Vicarious 
                    Liability (the Graves Amendment)
    Court cases continue to be filed following the enactment of Federal 
vicarious liability preemption on August 10, 2005, challenging the 
authority of the law known as the Graves Amendment. The following are 
brief summaries of the major cases in which courts have issued rulings. 
The Industry Council for Vehicle Renting and Leasing is tracking these 
and other court cases where application and/or interpretation of the 
Federal vicarious liability repeal statute is involved. TRALA and the 
Industry Council have filed amicus briefs on behalf of the industry in 
eight of these cases, seven of which have subsequently resulted in 
positive decisions (Graham v. Dunkley and NILT, Inc., Garcia v. 
Vanguard, Bechina v. Enterprise Leasing Company, Kumarsingh v. PV 
Holding and Avis Rent-A-Car System, Merchants Insurance Group v. 
Mitsubishi Motor Credit Association, Poole v. Enterprise Rent-A-Car, 
and Meyer vs. Enterprise Rent A Car). One case in which TRALA and the 
Industry Council have filed amicus brief is still pending (Vargas v. 
Enterprise Leasing Company).
Merchants Insurance Group v. Mitsubishi Motor Credit Association--U.S. 
        District Court, Eastern District of New York
Positive Decision

    On December 16, 2009, the U.S. Court of Appeals for the Second 
Circuit reversed an earlier decision of the United States District 
Court for the Eastern District of New York by vacating the District 
Court's judgment. The case was an appeal by Merchant's Insurance Group 
to the U.S. Court of Appeals, and on March 3, 2008, TRALA filed an 
amicus brief supporting Mitsubishi Motor Credit Association (MMCA) and 
arguing that the Graves Amendment preempted New York State's vicarious 
liability law, as the District Court had previously ruled. However, the 
Court of Appeals ruled that the original lawsuit in the case commenced 
before the Graves Amendment became Federal law, so the preemption 
should not apply to this case. U.S. Court of Appeals Decision
    The U.S. Court of Appeal's ruling vacated the ruling by the 
District Court for the Eastern District of New York, which had ruled in 
favor of MMCA on September 25, 2007, by granting their motion for 
summary judgment based on the preemptive nature of the Graves Amendment 
(49 U.S.C. 30106) over New York vicarious liability law. In granting 
MMCA's motion for summary judgment, the District Court stated the 
``courts have consistently held that the Graves Amendment prohibits 
states from imposing vicarious liability on owner-lessors such as 
defendants where the lessor is not negligent.'' Addressing the 
constitutionality of the Federal statute, the court stated that ``to 
date, only one court has found the Graves Amendment unconstitutional . 
. . Graham [v. Dunkley], however, has not been followed by any other 
court. To the contrary, a number of courts have explicitly found the 
statute constitutional.''
    It is important to note that even though the U.S. Court of Appeals' 
ruling reversed the District Court ruling that affirmed the Graves 
Amendment, the Court of Appeal's decision does not challenge the 
authority of the Graves Amendment. In the ruling the Court of Appeals 
specifically stated that ``In the instant case, there is no dispute 
that, if Merchant's suit against MMCA was commenced after the Graves 
Amendment's effective date, the Graves Amendment preempts New York law 
and precludes Merchants' claim.''
Meyer vs. Enterprise Rent A Car--Minnesota Court of Appeals
Positive Decision--Positive Ruling on Appeal
Positive Decision in Minnesota Supreme Court

    On January 20, 2009, the Minnesota Court of Appeals affirmed an 
earlier decision of the Otter Tail County District Court of Minnesota 
which granted Enterprise's motion for summary judgment in favor of 
Enterprise in Meyer v. Enterprise Rent-A-Car. In the Minnesota Court of 
Appeals, the judge rejected Meyer's contention that Minnesota Statutes 
 169.09, subd. 5a, and Minnesota Statutes  65B.49 subd. 5a(i)(2), 
which established caps on vicarious liability, were preserved by the 
Graves Amendment's savings clause which exempts ``financial 
responsibility laws'' from Federal preemption. The Court of Appeals 
affirmed the decision of the District Court ruling that the existing 
statutes that established caps on vicarious liability are not financial 
responsibility laws and are not preserved by the Graves Amendment, the 
Federal law codified at 49 U.S.C.  30106.
    In a subsequent appeal the Minnesota Supreme Court issued a ruling 
that upheld the decision of the Minnesota Court of Appeals on January 
14, 2010. In its ruling, the Supreme Court stated that ``We conclude 
that there is nothing ambiguous about the statute. Minn. Stat.  
169.09, subd. 5a, is not a financial responsibility law that limits, or 
conditions liability of the rental-vehicle owner for failure to meet 
insurance-like requirements or liability insurance requirements within 
the meaning of the (b)(2) savings clause . . . Because there are no 
financial responsibility laws incorporated into subdivision 5a, we 
conclude that the statute does not fall within the (b)(2) savings 
clause.
Vargas v. Enterprise Leasing Company--Fourth District Court of Appeal 
        of the State of Florida
Positive Decision--Positive Ruling on Appeal
Appeal Pending in Florida Supreme Court

    On October 31, 2008, the Florida District Court of Appeal for the 
Fourth District affirmed an earlier trial court decision granting a 
motion for summary judgment in favor of Enterprise Leasing Company in 
the Vargas v. Enterprise case. The motion was granted pursuant to 
Enterprise's claim that it could not be held vicariously liable due to 
the Federal law known as the Graves Amendment (49 U.S.C. 30106). The 
plaintiff contended that Florida Statute section 324.021(9)(b)2, which 
sets caps on vicarious liability, was preserved by the Graves 
Amendment's provision that exempts ``financial responsibility laws'' 
from the Federal law's pre-emption. The appellate court stated in its 
decision that ``section 324.031(9)(b)2 is not the type of law that 
Congress intended to exclude from preemption.'' The court went on 
further to say that the ``Florida legislature's endorsement of and 
limitations on the vicarious liability imposed under the dangerous 
instrumentality doctrine is not a financial responsibility 
requirement.''
Vanguard Car Rental USA, Inc. v. Huchon--U.S. District Court, Southern 
        District of Florida
Negative Decision--Positive Ruling Compelled by U.S. Court of Appeals 
        for 11th Circuit

    On September 14, 2007, the United States District Court for the 
Southern District of Florida denied both a motion (by Federal court 
defendant Huchon) to dismiss Vanguard's Petition for Declaratory 
Judgment and a motion (by Federal court plaintiff Vanguard) for Summary 
Judgment.
    The court denied Huchon's motion to dismiss based on several 
provisions of law not directly related to vicarious liability or 49 
U.S.C. 30106 (the Graves Amendment). In considering Vanguard's Petition 
for Declaratory Judgment, the court ruled that Huchon's claim was not 
being made pursuant to Florida statute limiting liability of companies 
renting a vehicle for less than one year (Florida Statute Section 
324.021). Instead the court ruled that the claim was being made 
pursuant to Florida's Doctrine of Dangerous Instrumentality. Therefore, 
the court declared that ``the only remaining issue is whether [the 
Graves Amendment] is constitutional.''
    The court cited its disagreement with the March 5, 2007 ruling by 
the U.S. District Court for the Middle District of Florida in the 
Garcia v. Vanguard case in which the Graves Amendment was found to be 
constitutional under three separate tests of the U.S. Congress' 
authority under the Commerce Clause. The court in Vanguard v. Huchon 
held that ``the direct language of 49 U.S.C. 30106(b) regulates tort 
liability and does not directly regulate either channels of interstate 
commerce or the use of those channels.'' Further, the court ruled that 
the Graves Amendment ``does not regulate the use of instrumentalities 
of interstate commerce.'' The court uses these findings to rule that 
``Congress exceeded the authority granted by the Commerce Clause when 
it enacted 49 U.S.C. 30106.'' Based on this conclusion, the court 
denied Vanguard's Petition for Declaratory Judgment.
    On March 12, 2009, The United States District Court for the 
Southern District of Florida, reversed its September 14, 2007 decision 
and ruled in favor of Vanguard Car Rental. In its Final Judgment, the 
Federal court ruled that the ``vicarious liability claim is prohibited 
by the Graves Amendment . . . This case remains closed [and] all 
pending motions are denied as moot.'' The court was compelled to 
reverse its earlier decision by the August 19, 2008 ruling of the U.S. 
Court of Appeals for the 11th Circuit in Garcia v. Vanguard. In that 
decision, the Graves Amendment was determined to be constitutional 
under all three categories of Congress' powers under the Commerce 
Clause. The Federal appellate court in Garcia also ruled that Florida's 
statutes setting caps on vicarious liability were not financial 
responsibility statutes preserved by the Graves Amendment and were pre-
empted by the Federal law. All Federal District courts in Alabama, 
Florida and Georgia must follow the U.S. Court of Appeals decision in 
Garcia v. Vanguard.
Graham v. Dunkley and Nilt, Inc.--Supreme Court--Queens County, New 
        York
Negative Decision--Positive Ruling on Appeal
Positive Ruling by New York Court of Appeals

    On September 11, 2006, the Supreme Court in Queens County, New York 
denied a motion made by Nissan Infiniti, LT in Graham v. Dunkley and 
Nilt, Inc. to dismiss a vicarious liability claim. The motion to 
dismiss was based on the Federal statute (49 U.S.C. 30106) that 
prohibits states from imposing liability solely on the basis of 
ownership. Judge Thomas Polizzi, in denying the motion, held that the 
Federal statute ``is unconstitutional exercise of congressional 
authority under the Commerce Clause of the United States Constitution, 
Article I, Section 8.'' The action in Graham v. Dunkley and Nilt, Inc. 
was the first case in which a court has ruled against the 
constitutionality of the Federal statute.
    The trial court decision in Graham v. Dunkley was reversed by the 
Appellate Division, Second Judicial Department of the Supreme Court on 
February 1, 2008. In its decision, the appellate court stated that ``we 
agree with the weight of precedent that the Graves Amendment was a 
constitutional exercise of Congressional power pursuant to the Commerce 
Clause of the United States Constitution.'' The appellate court 
declared unequivocally that ``actions against rental and leasing 
companies based solely on vicarious liability may no longer be 
maintained.''
    On April 29, 2008, New York State's highest court, the NY Court of 
Appeals, dismissed the plaintiff's appeal of the lower appellate court 
decision upholding the Graves Amendment. This action strongly affirms 
the authority of the Graves Amendment to preempt New York's unlimited 
vicarious liability law.
Bechina v. Enterprise Leasing Company--Circuit Court of the 11th 
        Judicial Circuit--Miami Dade County, Florida
Positive Decision--Positive Ruling on Appeal

    On April 24, 2007, the court granted a Motion for Summary Judgment 
made by defendant Enterprise Leasing Company. In granting the motion, 
the court agreed with the Enterprise arguments detailing the preemptive 
authority of the 49 U.S.C. 30106 (the Graves Amendment). The court also 
agreed with the defendant that Florida's statute capping vicarious 
liability involving motor vehicles rented for less than one year 
(Section 324.021) is not a financial responsibility statute preserved 
by the Graves Amendment language.
    Florida's Third District Court of Appeals on December 12, 2007, 
upheld the preemptive authority of the Graves Amendment (49 U.S.C. 
30106) by affirming the 11th Circuit Court decision. In its opinion, 
the appellate court held that ``motor vehicle leasing transactions 
unquestionably affect the channels of interstate commerce, the 
instrumentalities of interstate commerce, and intrastate activities 
substantially related to interstate commerce.''
Traitouros v. Wheels, Inc., Hoffman, La Roche and The La Roche Group--
        Supreme Court, Nassau County, New York
Positive Decision

    On October 23, 2007, the Supreme Court, Nassau County, New York, 
granted defendant Wheels, Inc.'s motion to dismiss the plaintiff's 
claim of vicarious liability pursuant to New York's Vehicle Traffic Law 
Section 388. In response to the defendant's motion based on the 
preemptive authority of Graves Amendment (49 U.S.C. 30106), the 
plaintiff cited the Graham v. Dunkley decision as an example that the 
New York Courts ``have not had one view on this issue.'' In its order 
granting the motion to dismiss, the court stated that ``this Court does 
not share the view held only by the Graham v. Dunkley Court. Rather, 
for the purposes of deciding this motion, the Federal statute is 
constitutional.''
Deopersad Kumarsingh and Rosalie Kumarsingh, his Wife v. PV Holding 
        Corporation and Avis Rent A Car System, Inc.--Circuit Court of 
        the 11th Judicial Circuit--Miami-Dade County, Florida
Positive Decision--Positive Ruling on Appeal
Positive Ruling by Florida Supreme Court

    On October 13, 2006, citing the Graves Amendment's preemption of 
state vicarious liability laws, Miami-Dade County Circuit Judge Michael 
A. Genden rendered a final judgment for the defendant ruling that they 
cannot be held vicariously liable for damages caused by their customer 
operating a rented vehicle. In his ruling, Judge Genden stated ``the 
`Graves Amendment' has abrogated vicarious liability of automobile 
lessors in the state of Florida effective August 10, 2005 and, 
therefore, . . . the defendants cannot be vicariously liable to 
plaintiffs . . .'' Judge Genden went on to state that ``the maximum 
liability for short term automobile lessors in section 324.021(9) Fla. 
Stat. are `caps' on vicarious liability and are not `financial 
responsibility' requirements for the privilege of owning/operating a 
motor vehicle in the state of Florida.''
    On October 3, 2007, Florida's Third District Court of Appeals ruled 
to affirm the October 13, 2006 decision of the Circuit Court of the 
11th Judicial Circuit--Miami-Dade County. In its opinion, the Court of 
Appeals stated that ``the trial court correctly concluded that the 
Graves Amendment, by its clear and unambiguous wording, supercedes and 
abolishes state vicarious liability laws.''
    On May 19, 2008, the State of Florida's highest court, the Florida 
Supreme Court, denied the plaintiff's request to consider another 
appeal of the two lower decisions upholding the authority of the Graves 
Amendment.
Castillo v. Bradley and U-Haul Company of Oregon--Supreme Court, Kings 
        County, New York
Positive Decision

    On October 2, 2007, the Supreme Court, Kings County, New York 
granted defendant U-Haul's motion to dismiss plaintiff's vicarious 
liability claim. In granting the motion, the court affirmed the 
preemptive authority of Federal statute 49 U.S.C. 30106 and the 
constitutionality of the law.
    In its decision, the court stated that ``there is ample authority 
to the effect that the ``Graves Amendment'' has preempted'' New York's 
vicarious liability law. The court also states that ``the 
constitutionality of the statute has been upheld in two out of the 
three Federal court cases found to have considered the question'' 
calling those cases ``persuasive and controlling.''
Seymour v. Penske Truck Leasing Company--U.S. District Court, Southern 
        District of Georgia, Savannah Division
Positive Decision

    On July 30, 2007, the U.S. District Court, Southern District of 
Georgia, Savannah Division, granted defendant Penske Truck Leasing 
Company's motion for summary judgment against the plaintiff's claim for 
damages. The court found that Penske was not liable for the actions of 
a driver not authorized to operate the vehicle under the rental 
agreement. The Federal court also found that the Graves Amendment is a 
constitutional Federal statute. In its decision, the court states that 
it has ``no trouble concluding that 49 U.S.C. 30106 . . . regulates 
commercial transactions (rentals or leases) involving instrumentalities 
of interstate commerce (motor vehicles--``the quintessential 
instrumentalities of modern interstate commerce'').
Iljazi v. Dugre, et al., (Enterprise Rent-A-Car)--Superior Court, 
        Waterbury, Connecticut
Positive Decision

    On April 13, the Superior Court of Connecticut Waterbury District 
granted defendant Enterprise Rent-A-Car's motion to strike the 
plaintiff's vicarious liability count against the company. Enterprise 
based its motion on the ``Graves Amendment's'' preemption of 
Connecticut's vicarious liability statute. The court cited Davis v. 
Illama and Dorsey v. Beverly, supra in its decision to strike the 
vicarious liability count against Enterprise.
    The plaintiff filed an objection to the motion to strike the count 
on the grounds that the Graves Amendment violates the Commerce Clause 
of the U.S. Constitution. The plaintiff cited the decision of the New 
York Supreme Court, Queens County in Graham v. Dunkley as authority for 
its claim. In response to the objection, the court quotes from a 1989 
decision in Bottone v. Westport . . . ``(I)n passing upon the 
constitutionality of a legislative act, we will make every presumption 
and intendment in favor of its validity . . . The party challenging a 
statute's constitutionality has a heavy burden of proof; the 
unconstitutionality must be proven beyond all reasonable doubt.'' The 
court goes on to state that ``beyond offering the New York lower court 
decision as authority for the unconstitutionality of the Graves 
Amendment, the plaintiff has offered no additional case law or argument 
and accordingly, the plaintiff has not sustained its burden of proving 
that the statute is unconstitutional.''
Garcia v. Vanguard Car Rental USA, Inc.--U.S. District Court, Middle 
        District of Florida, Ocala Division
Positive Decision--Positive Ruling on Appeal

    March 5, 2007, the United States District Court, Middle District of 
Florida, Ocala Division ruled that Florida Statute 324.021(9)(b)(2), 
setting caps on vicarious liability of short-term lessors, is not a 
``financial responsibility law'' protected 49 U.S.C. 30106(b). The 
court explained that ``the Florida Statute in question does not create 
insurance standards for entities that register and operate motor 
vehicles within Florida.'' The court went on to state that its 
``analysis drives the conclusion that vicarious liability of motor 
vehicle lessors under Florida's dangerous instrumentality doctrine is 
now preempted by Federal law. Consequently, Fla. Stat. 324.021(9)(b)(2) 
also is preempted.''
    The Federal court also finds that ``there can be no dispute that 
leased vehicles routinely travel between states'' and that ``the Graves 
Amendment is constitutional under the first category of Congress' 
Commerce Clause powers.'' The Court ``also finds that the Graves 
Amendment is constitutional under the second category of Congress' 
Commerce Clause powers because the statute regulates the leasing and 
operating of motor vehicles which are the quintessential 
instrumentalities of modern interstate commerce.'' The Court further 
finds that ``the Graves Amendment . . . is constitutional under the 
third category--regulating intrastate activities that substantially 
affect interstate commerce.''
    On August 19, 2008, the United States Court of Appeals for the 11th 
Circuit affirmed the U.S. District Court decision.
Jones v. Bill, et al.--Supreme Court of the State of New York Appellate 
        Division: Second Judicial Department
Positive Decision

    On November 28, 2006, the Second Judicial Department of the Supreme 
Court of New York Appellate Division upheld an earlier decision of the 
Supreme Court, Dutchess County to dismiss a complaint against the 
vehicle lessor DCFS Trust based on 49 U.S.C. 30106, commonly known as 
the ``Graves Amendment.'' In its decision to uphold the trial court 
decision, the court explained that the ``Graves Amendment abolished 
vicarious liability of long-term automobile lessors based solely on 
ownership.'' Furthermore, the court noted that the ``Graves Amendment 
is applicable to any action commenced on or after the date of 
enactment,'' August 10, 2005. Though the initial suit against defendant 
and vehicle operator Jessica Bill was filed on August 8, 2005, DCFS 
Trust was not added as a defendant until an amended filing on November 
1, 2005. The court rejected as ``without merit'' the plaintiff's 
assertion that its claim against DCFS is maintainable under the 
relation-back doctrine.
    The Second Judicial Department of the Supreme Court of New York 
Appellate Division is the same court where the appeal of the Graham v. 
Dunkley and NILT, Inc. decision declaring 49 U.S.C. 30106 as 
unconstitutional is currently pending.
Poole v. Enterprise Leasing Company of Orlando--18th District Circuit 
        Court--Brevard County, Florida
Negative Decision--Positive Ruling on Motion for Summary Judgment

    On January 19, 2006, Judge T. Mitchell Barlow denied Enterprise's 
motion to dismiss this case and ruled that Florida's statute setting 
caps on the vicarious liability of short-term lessors (Florida Statute 
324.021 (9)(b)(2)) is a financial responsibility law and falls under 
the provision of the Federal law preserving a state's right to impose 
financial responsibility laws required for registering and operating a 
motor vehicle (49 U.S.C. 30106(b)). During the hearing, there was some 
discussion of the constitutionality of the Federal law with regard to 
its effective date and the plaintiff's right to due process of law. The 
judge did not rule on this question and asked counsel on both sides to 
refrain from extensive debate on this issue as he felt he could make a 
ruling based only on the question of financial responsibility laws. 
This suit was filed on August 10, 2005, the day Federal vicarious 
liability preemption was enacted. The plaintiff's case was argued by 
Andre Mura, Senior Litigation Counsel for the Association of Trial 
Lawyers of America's Center for Constitutional Litigation.
Davis v. Ilama et al. (We Rent Minivans)--Superior Court--Waterbury, 
        Connecticut
Positive Decision

    On March 14, 2006, the Superior Court of Connecticut granted We 
Rent Minivans' motion to strike two counts against it that were based 
on liability solely due to ownership of the vehicle. In one count, the 
plaintiff claimed We Rent Minivans was liable by virtue of giving the 
defendant permission to operate one of its vehicles, with no allegation 
of negligence against We Rent Minivans. The second count claimed 
liability pursuant to Connecticut's vicarious liability statute. The 
court bases its decision to grant the defendant's motions to strike the 
two counts on the Federal preemption statute (49 U.S.C. Section 30106) 
and on the decisions in Infante v. U-Haul of Florida and Piche v. 
Nugent et al. (Enterprise Rent-A-Car).
Infante v. U-Haul of Florida--Supreme Court--Queens County, New York
Positive Decision

    On January 18, 2006, Judge Augustus Agate granted U-Haul's motion 
to dismiss this case ruling U-Haul of Florida was not the titled owner 
of the vehicle involved in the claim. However, the judge went further 
in his decision to clarify that regardless of the issue of the 
defendant not owning the vehicle, the plaintiff's claim was invalid 
based upon the enactment of the ``Graves Amendment'' prohibiting 
vicarious liability against owners of rented and leased vehicles and 
its preemption of state laws, including New York's, that previously 
permitted it. According to U-Haul, this case is not expected to be 
appealed.
Piche v. Nugent et al. (Enterprise Rent-A-Car)--U.S. District Court--
        District of Maine
Positive Decision

    On September 30, 2005, Judge Margaret J. Kravchuk affirmed the 
effectiveness of Federal law (49 U.S.C. Section 30106) preempting state 
vicarious liability statutes, even though this case was filed prior to 
enactment of the Federal law and was not affected by it. The judge 
denied Enterprise's motion for summary judgment centering on whether 
the law of Maine, which includes statutory vicarious liability, or the 
law of New Hampshire which does not, would be applicable to this case. 
In her decision, the judge stated that the question at hand ``is not a 
question likely to repeat itself in the future. On August 10, 2005, 
President Bush signed into law . . . SAFETEA-LU.'' She further explains 
that the ``law amends U.S. Code Title 49, Chapter 301 to preempt state 
statutes that impose vicarious liability on rental car companies for 
the negligence of their renters . . . Thus, the long-term policy debate 
has been resolved by the Federal Government.''
                                 ______
                                 
To: Truck Renting and Leasing Association (TRALA)
From: Mark A. Perry, Gibson, Dunn & Crutcher LLP
Date: September 24, 2010
Re: Historical and Legal Analysis of the Graves Amendment
Client: T 26297-00082

    In 2005, Congress enacted the Graves Amendment as part of the Safe, 
Accountable, Flexible, Efficient Transportation Equity Act: A Legacy 
for Users, Pub. L. No. 109-59, 119 Stat. 1144 (2005). The Amendment 
provides, in relevant part, that ``[a]n owner of a motor vehicle that 
rents or leases the vehicle to a person . . . shall not be liable under 
the law of any State or political subdivision thereof, by reason of 
being the owner of the vehicle . . . for harm to persons or property 
that results or arises out of the use, operation, or possession of the 
vehicle during the period of the rental or lease,'' provided that 
``there is no negligence or criminal wrongdoing on the part of the 
owner.'' 49 U.S.C.  30106(a), (a)(2).
    The Amendment is but one of the most recent in a long line of 
statutes--dating back to the dawn of the Republic--in which Congress 
has regulated the instrumentalities of interstate commerce by creating 
a uniform Federal standard. In each instance, Congress determined that 
a nationwide rule would benefit interstate commerce by lifting local 
restrictions and providing participants in the industry (such as rental 
car or truck companies) with certainty about the governing law. Also, 
in many cases, Congress determined that it was in the Nation's best 
interest to reduce or eliminate certain forms of liability, where 
liability would be unfair or place unnecessary burdens on interstate 
commerce.
    The Graves Amendment serves both of these salutary purposes. First, 
it establishes a Federal rule of liability, which allows owners of 
motor vehicles to run their businesses and use the Nation's roads free 
from the costs of identifying and complying with a patchwork of state-
by-state regulation. Second, it eradicated a particularly unfair and 
onerous form of liability--vicarious liability for acts of negligent 
drivers that the motor vehicle owner could not have anticipated and 
were beyond its control.
    Congress did not make this policy decision lightly; rather, members 
of both houses explained that the statute struck the correct balance 
between Federal and state regulation, and appropriately limited 
liability to cases where the motor vehicle owner was actually at fault. 
In short, Congress considered these issues the first time and got it 
right; it need not revisit the issue now.
                               Discussion
I. Throughout Our Nation's History, Congress Has Regulated Modes Of 
        Transportation--Including By Displacing State Rules Of Conduct 
        And Liability
    Under Article I, Section 8, of the U.S. Constitution, Congress has 
the power to ``regulate Commerce with foreign Nations, and among the 
several States, and with the Indian tribes.'' The same section provides 
Congress with the authority to ``make all Laws which shall be necessary 
and proper for carrying into Execution'' its power over interstate 
commerce. Finally, the Supremacy Clause provides that ``the Laws of the 
United States . . . shall be the supreme Law of the Land . . . any 
Thing in the Constitution or Laws of any State to the contrary 
notwithstanding.'' U.S. Const. art. VI.
    From the time of the Founding, Congress's commerce power has been 
understood to include the authority ``to regulate and protect the 
instrumentalities of interstate commerce.'' United States v. Lopez, 514 
U.S. 549, 558 (1995) (emphasis added). That power, coupled with the 
power to displace state laws pursuant to the Supremacy Clause, 
necessarily extends to the removal of state burdens on modes of 
transportation. As shown below, Congress has often exercised these 
powers to facilitate interstate commerce by imposing a uniform Federal 
rule.
    Ships and Waterways. In the Eighteenth Century, when the 
Constitution was drafted and ratified, the navigable waters were the 
principal channels of interstate commerce. The First Congress, 
therefore, enacted several measures that promoted interstate commerce 
by removing obstacles to the flow of water transportation.\1\ In a 
famous early example, Gibbons v. Ogden, 22 U.S. (9 Wheat.) 1 (1824), 
the Supreme Court upheld the Federal Government's power to license 
steamboats to navigate on the Hudson River--even though New York had 
enacted a local prohibition against such navigation.
---------------------------------------------------------------------------
    \1\ See, e.g., Act of Sept. 1, 1789, ch. 11, 1 Stat. 55 (1789) 
(providing for registration or enrollment of ships belonging to U.S. 
citizens); Act of July 20, 1790, ch. 29, 1 Stat. 131, 131-35 (1790) 
(guaranteeing merchant seamen prompt payment of wages, and adequate 
medicine and food); Act of Mar. 2, 1819, ch. 46, 3 Stat. 488 (1819) 
(limiting number of passengers that could be carried on ships).
---------------------------------------------------------------------------
    Congress continued to exercise power over the waterways throughout 
our history. Notably, in 1851, Congress enacted a statute similar to 
the Graves Amendment that limited the liability of ship owners for 
losses that were not the owner's fault. Act of Mar. 3, 1851, ch. 43, 9 
Stat. 635 (1851). In two cases upholding this law from constitutional 
challenge, the Supreme Court remarked that it was appropriate for the 
Federal Government to limit liability in this way: ``Navigation on the 
high seas,'' the Court stated, ``is necessarily national in its 
character.'' Lord v. Steamship Co., 102 U.S. 541, 544 (1881). The Court 
further noted that, if the law were administered fairly, ``with the 
view of giving to ship owners the full benefit of the immunities 
intended to be secured by it, the encouragement it will afford to 
commercial operations . . . will be of the [highest] importance.'' 
Providence & N.Y. Steamship Co. v. Hill Mfg. Co., 109 U.S. 578, 589 
(1883). The Graves Amendment today plays a similar beneficial role--it 
encourages interstate commerce by eliminating a particularly onerous 
form of state liability.
    Trains and Railways. In the Nineteenth Century, railroads gradually 
replaced waterways as the principal channels of interstate commerce. 
Federal regulation of the railways soon followed.\2\ As was true in the 
shipping industry, the railroad statutes ``were passed under the power 
vested in Congress to regulate commerce among the several States, and 
were designed to remove trammels upon transportation between different 
States, which had previously existed, and to prevent the creation of 
such trammels in [the] future.'' R.R. Co. v. Richmond, 86 U.S. 584, 589 
(1873).\3\
---------------------------------------------------------------------------
    \2\ See Act of June 15, 1866, ch. 124, 14 Stat. 66 (1866) 
(authorizing all steam-based railroad companies to carry passengers 
interstate); Act of July 25, 1866, ch. 246, 14 Stat. 244 (1866) 
(permitting construction of bridges over the Mississippi River).
    \3\ Indeed, in the Nineteenth Century, the Supreme Court often held 
that, even in the absence of Federal legislation, the commerce power of 
its own force displaced state laws that burdened the instrumentalities 
of commerce--such as ships or railroads. For example, the Supreme Court 
struck down state fees on ship captains for passengers brought into a 
state, invalidated state laws giving port officials the exclusive right 
to inspect incoming ships, and declared unconstitutional state laws 
forbidding the regulation of railroad rates. See David P. Currie, The 
Constitution in the Supreme Court: The First Hundred Years 227-28, 405, 
409, 412 (1985). Likewise, in Wabash, St. Louis & Pac. Railway Co. v. 
Illinois, 118 U.S. 557 (1886), the Court held that the commerce power 
prohibited states from enacting a law that regulated the rates for 
railroad journeys within a state's borders. The reason for these 
decisions was the hindrance that state laws imposed on the 
instrumentalities of commerce.
---------------------------------------------------------------------------
    Airplanes. In the Twentieth Century, Congress began to regulate 
still newer means of transportation, including airplanes. Indeed, 
because of the unique nature of air travel, Federal regulation is 
necessarily pervasive and leaves even less room for state legislatures 
to experiment and regulate. See Nw. Airlines, Inc. v. Minnesota, 322 
U.S. 292, 303 (1944) (Jackson, J., concurring) (``Air as an element in 
which to navigate is even more inevitably Federalized by the commerce 
clause than is navigable water''). Accordingly, ``Congress has 
recognized the national responsibility for regulating air commerce,'' 
and ``[f]ederal control is intensive and exclusive.'' Id. For example, 
in the General Aviation Revitalization Act of 1994, 49 U.S.C.  40101, 
Congress limited the exposure of aircraft manufacturers to state tort 
liability. So too with the Graves Amendment.
    Cars and Roadways. Motor vehicles, of course, are the primary 
modern means of travel. From the very start of the automobile industry, 
Congress has Federalized the regulation of the ownership and operation 
of motor vehicles. Throughout the industry's history, it has been well-
established that state regulation of motor vehicles ``is . . . 
subordinate to the will of Congress'' under the Supremacy Clause, and 
can only stand ``[i]n the absence of national legislation covering the 
subject.'' Hendrick v. Maryland, 235 U.S. 610, 622-23 (1915).
    For example, in Buck v. Kuykendall, 267 U.S. 307 (1925), and George 
W. Bush & Sons Co. v. Maloy, 267 U.S. 317 (1925), the Court invalidated 
state laws that required operators of common carriers conducting 
business in interstate commerce to obtain a special license to operate 
within the state. The Court held, among other things, that the 
legislation conflicted with the Federal Highway Act, through which 
Congress had intended ``that state highways shall be open to interstate 
commerce.'' Bush, 267 U.S. at 324.
    Later, the Motor Carrier Act of 1935 inaugurated comprehensive 
congressional regulation of safety standards for motor vehicles. It 
required motor carriers to maintain continuous and adequate service and 
keep sufficient records; established maximum hours-of-service 
requirements; and regulated rates. See Clyde B. Aitchison, The 
Evolution of the Interstate Commerce Act: 1887-1937, 5 Geo. Wash. L. 
Rev. 289, 394-99 (1937). Federal motor vehicle regulation has become 
even more pervasive since then. In 1966, Congress enacted the National 
Traffic and Motor Vehicle Safety Act of 1966 and the Highway Safety Act 
of 1966, Pub. L. No. 89-563, 80 Stat. 718 (1966); Pub. L. No. 89-564, 
80 Stat. 731 (1966), which created the predecessor entities to the 
National Highway Traffic Safety Administration. Those enactments 
established, among other things, extensive Federal regulation of safety 
standards for motor vehicles and highways; today, their successor 
statutes permit the Federal Government to dictate such criteria as, for 
example, the length and width limits for vehicles. See, e.g., 49 U.S.C. 
 31111.
    As was true for ships, trains, and planes, Congress exercised its 
authority over the Nation's highways to displace inconsistent state 
standards. In 1987, for example, Congress enacted a law excluding 
certain evidence from admission in state trials that state governments 
were required to collect to comply with Federal laws designed to 
identity and evaluate hazardous conditions on federally funded roads. 
Although the Federal law supplanted state rules of evidence, the 
Supreme Court upheld it from constitutional challenge, finding it 
reasonable for Congress to believe that exclusion of such evidence 
``would result in more diligent efforts to collect the relevant 
information, more candid discussions of hazardous locations, better 
informed decisionmaking, and, ultimately, greater safety on our 
Nation's roads.'' Pierce County v. Guillen, 537 U.S. 129, 147 (2003).
    The Graves Amendment, of course, is yet another recent example of 
Congress adopting a Federal standard to govern participants in the 
transportation industry--owners of motor vehicles--and displace 
burdensome state laws. As it did with earlier statutes, Congress 
carefully weighed the benefits and drawbacks of Federal legislation in 
this area, and determined that eliminating vicarious liability, while 
preserving liability for fault, was in the Nation's best interests. It 
was by no means an unusual exercise of Congressional power. To the 
contrary, it was a paradigmatic example of Congress's authority to 
facilitate interstate commerce by adopting a fair, nationwide rule.
II. The Courts Have Rejected Challenges To The Graves Amendment
    The appellate courts have consistently rejected constitutional 
challenges to the Graves Amendment, recognizing that the Amendment 
falls squarely within Congress's power under the Commerce Clause. The 
leading case is Garcia v. Vanguard Car Rental USA, Inc., 540 F.3d 1242 
(11th Cir. 2008).
    Garcia was a Florida wrongful death suit, brought on behalf of car 
accident victims against Vanguard, which leased the vehicle to the 
driver who caused the accident. See id. at 1245. Vanguard, which 
admittedly was not at fault for the accident, successfully argued that 
the Graves Amendment precluded holding Vanguard vicariously liable for 
the alleged negligence of the driver. See id. Plaintiffs in turn argued 
that the Amendment could not be enforced, because it supposedly 
exceeded Congress's power under the Commerce Clause. See id. at 1249.
    The Eleventh Circuit rejected plaintiffs' challenge and upheld the 
Amendment's constitutionality, because the statute has a substantial 
effect on interstate commerce. See id. at 1253. The Court concluded 
that Congress acted reasonably in enacting the Graves Amendment to 
reduce burdens on interstate commerce:
    Congress rationally could have perceived strict vicarious liability 
for the acts of lessees as a burden on [the rental car] market. . . . 
The reason it could have done so is that the costs of strict vicarious 
liability against rental car companies are borne by someone, most 
likely the customers, owners, and creditors of rental car companies. If 
any costs are passed on to customers, rental cars . . . become more 
expensive, and interstate commerce is thereby inhibited. Moreover, if 
significant costs from vicarious liability are passed on to the owners 
of rental car firms, it is possible that such liability contributes to 
driving less-competitive firms out of the marketplace, or inhibits 
their entry into it, potentially reducing options for consumers.

    Id. at 1253.
    These observations echoed the statute's legislative history, which 
noted Congress's concern with litigation costs driving rental car 
companies out of the market or forcing them to pass costs on to their 
consumers. See id. at 1253 n.6. As explained above, the statute was 
also consistent with Congress's longstanding role in regulating modes 
of transportation and eliminating burdens on interstate commerce. For 
these reasons, many Federal and state courts have agreed with Garcia, 
and upheld the Graves Amendment from constitutional attack.\4\
---------------------------------------------------------------------------
    \4\ See also Dupuis v. Vanguard Car Rental USA, Inc., 510 F. Supp. 
2d 980 (M.D. Fla. 2007); Jasman v. DTG Operations, Inc., 533 F. Supp. 
2d 753 (W.D. Mich. 2008); Flagler v. Budget Rent A Car Sys., Inc., 538 
F. Supp. 2d 557 (E.D.N.Y. 2008); Seymour v. Penske Truck Leasing Co., 
No. 407CV015, 2007 WL 2212609 (S. D. Ga. July 30, 2007); Graham v. 
Dunkley, 852 N.Y.S. 2d 169 (App. Div. 2008).
---------------------------------------------------------------------------
III. Congress Adopted The Graves Amendment After Due Deliberation, And 
        Had Sound Policy Reasons For Doing So
    As an appropriate use of Congress's power, the Graves Amendment is 
a carefully calibrated policy decision whose purpose was to limit the 
liability of motor vehicle owners to those cases where the owner is 
actually at fault. As noted in Garcia, the legislative history of the 
Amendment confirms that Congress made a conscious decision to create a 
Federal rule of liability that would lower litigation costs for vehicle 
rental companies and to differentiate between meritorious and frivolous 
lawsuits.
    Several Members of Congress explained that the purpose of the 
Graves Amendment was to ``establish a fair national standard for 
liability.'' 151 Cong. Rec. H1034-01 (daily ed. Mar. 9, 2005) 
(statement of Rep. Blunt), 2005 WL 556038 (Cong. Rec. 2005), at *H1200; 
see also id. at *H1202 (statement of Rep. Smith) (purpose of Graves 
Amendment is to create a ``national standard''). Moreover, Members of 
Congress from both houses, including the bill's sponsor, explained that 
they were adopting a rule that was fair both to motor vehicle owners 
and accident victims: It would eliminate liability for actions where 
the motor vehicle operator was not actually at fault, but leave state 
actions for negligence (e.g., negligent maintenance) intact. See id. at 
*H1200 (statement of Rep. Graves) (``I want to emphasize, I want to be 
very clear about this, that this provision will not allow car and truck 
renting and leasing companies to escape liability if they are at 
fault''); id. at *H1202 (statement of Rep. Smith) (``The Graves[  ] 
amendment . . . provide[s] that vehicle rental companies can only be 
held liable in situations where they have actually been negligent. This 
amendment in no way lets companies off the hook when they have been 
negligent''); 151 Cong Rec. S5433-03 (daily ed. May 18, 2005) 
(statement of Sen. Santorum), 2005 WL 1173802, at *S5434 (``This 
provision is a common sense reform that holds vehicle operators 
accountable for their own actions and does not unfairly punish owners 
who have done nothing wrong'').
    Congress was also aware that vicarious liability could have a 
deleterious effect on the transportation industry and the American 
economy as a whole. Therefore, it acted accordingly to remove this 
burden on interstate commerce. As one Senator noted, ``[t]hough only a 
few States enforce laws that threaten nonnegligent companies with 
unlimited vicarious liability, they affect consumers and businesses 
from all 50 States.'' 151 Cong Rec. S5433-03 (statement of Sen. 
Santorum), 2005 WL 1173802, at *S5433. ``Vicarious liability means 
higher consumer costs in acquiring vehicles and buying insurance and 
means higher commercial costs for the transportation of goods. Left 
unreformed, these laws could have a devastating effect on an increasing 
number of small businesses that have done nothing wrong.'' Id. As 
explained above, this reasoning is consistent with Congress's 
historical and vital role in regulating the modes of transportation and 
removing state impediments to the flow of interstate commerce.
    Finally, Congress plainly did not anticipate that states would have 
no role to play in holding motor vehicle owners accountable for harm 
caused by their vehicles. To the contrary, as noted above, states could 
still impose liability when the vehicle owner acted negligently. 
Moreover, the Graves Amendment expressly saves from preemption any 
state law that, for example, ``impos[es] financial responsibility or 
insurance standards on the owner of a motor vehicle for the privilege 
of registering and operating'' the vehicle. 49 U.S.C.  30106(b)(1). 
``Under this provision, States would continue to determine the level of 
compensation available for accident victims by setting minimum 
insurance coverage requirements for every vehicle.'' 151 Cong Rec. 
S5433-03 (statement of Sen. Santorum), 2005 WL 1173802, at *S5433. 
Thus, the Graves Amendment envisions a critical role for the states to 
play in setting minimum insurance requirements for motor vehicle owners 
to ensure that accident victims are properly compensated.
Conclusion
    In enacting the Graves Amendment, Congress acted pursuant to its 
historical authority to regulate interstate commerce, particularly the 
instrumentalities of commerce, and displace state laws in favor of 
Federal rules that are both uniform and fair. The courts have 
recognized the legitimacy of the enactment. As the Amendment's 
legislative history reveals, Congress acted with due deliberation and 
struck the appropriate balance: The law helps to protect businesses 
from unnecessary litigation and consumers from added costs, limits 
liability to cases where a motor vehicle owner is at fault, and allows 
states to continue to set insurance requirements to ensure accident 
victims are fairly compensated for their injuries.

    Senator Pryor. Thank you.
    I have a few questions, here.
    Mr. Ruby, let me start with you. And I don't want to get 
too personal, but, since you're here, let me ask you about your 
case. When you were injured, I assume you filed a lawsuit, or 
did you just settle without having to file a suit?
    Mr. Ruby. We tried to settle, numerous times. It was forced 
to a lawsuit and to go to trial.
    Senator Pryor. And did you actually go to trial?
    Mr. Ruby. Yes, we did.
    Senator Pryor. And do you recall how many defendants there 
were in that suit? Because, oftentimes, on something like that, 
you may sue the--weren't there two vehicles involved?
    Mr. Ruby. There were two vehicles involved, correct.
    Senator Pryor. So, sometimes you'll sue the driver of each 
vehicle, and maybe the--you know, the rental car company, or--
can you tell us, do you remember who got sued in that?
    Mr. Ruby. The driver of the Budget Rent A Car was the one 
who ran the red light, so they were the target. The other car 
that was involved in the accident was also injured during the 
accident by the Budget Rent A Car.
    Senator Pryor. And do you remember if you recovered from 
Budget Rent A Car or from the driver of that car, or from both? 
Do you remember?
    Mr. Ruby. There was a minimum of--the driver, who had no-
fault that--their insurance company did pay. I believe that 
covered the Tylenol from my being in intensive care. The other, 
the driver of the Budget car, was the focus of our lawsuit----
    Senator Pryor. OK.
    Mr. Ruby.--since they were the ones responsible.
    Senator Pryor. And do you know if you recovered from the 
driver and from Budget?
    Mr. Ruby. The driver of the car, as I said before, had 
warrants out for his arrest for driving--for speeding. Under 
further investigation, he had just become a legal citizen, 
although he had been living here for almost a decade. He had no 
personal resources whatsoever.
    Senator Pryor. Did he have insurance? He was uninsured?
    Mr. Ruby. Not to my knowledge, no.
    Senator Pryor. All right. Well, that's helpful, and I 
appreciate it.
    Let me--gosh, there are lots of questions here, and I know 
Senator Nelson wants to ask a few, too, but let me dive in, 
here.
    Mr. James, I know that you--sort of in your day job, you 
represent more of the truck-leasing part of the industry. And 
today we talked a lot about rental cars, and this may not be 
really your forte, but it seems to me that there's a difference 
in the truck leasing industry versus rental cars. Seems like 
there are a lot more cars rented to just the general public; 
whereas, with trucks, there--you may have a smaller volume of 
people, and, in some cases, you would have very well-trained 
drivers with CDLs, et cetera. Do you see a distinction 
between----
    Mr. James. I see--I certainly see differences in volume, 
but I also see a lot of similarities. And again, what we're 
talking about here is, we're talking about owners of rented and 
leased vehicles. That does include car rental companies, it 
includes the big car rental companies. Also on that list, we 
have the American Car Rental Association, which represents all 
of those small mom-and-pop companies. The larger companies 
don't have their own trade association.
    But, the similarities are, just as in truck leasing--a 
truck lease, an average lease is probably 5 years. We lease out 
a truck of any size to a business, business-to-business, for 
about 5 years. We're still responsible for the maintenance of 
that vehicle, for putting that vehicle on the road and keeping 
it a safe vehicle.
    Same with the car rental companies. The car rental 
companies are responsible for providing safe vehicles for use 
on our highways.
    This also affects the auto leasing. I know I lease my 
Volkswagen, rather than buy it. It affects business-to-business 
auto leasing. A lot of businesses lease their fleets.
    So, the general distinction between the owner of the 
vehicle not being--having any training or agent affiliation 
with the operator of the vehicle, I think, is the same in all 
cases. It's just a matter of--the terms of how long that 
vehicle is let out differs between the various segments of the 
industry.
    Senator Pryor. So, when your members lease vehicles to, 
say, companies that need various vehicles for various reasons--
I assumed that the standard contract might be that only certain 
drivers could drive those vehicles.
    Mr. James. Well, when we lease out a truck--if we lease out 
a truck to Wal-Mart, for instance--a lot of retailers rent 
trucks for their fleets, and they also rent trucks or lease 
trucks to make up for peak periods of demand.
    Senator Pryor. And they would require probably a CDL?
    Mr. James. Sure. It's--and that's all in a business-to-
business contract. We require that any driver of the truck meet 
that motor carrier's safety plans. So, again, the motor carrier 
is responsible for hiring their drivers, for ensuring that 
their drivers have active CDLs.
    You know, when a company comes to pick up a leased truck, 
that truck may be driven by 20 drivers. Once that truck goes 
into that motor carrier's hands, even under the FMCSA 
guidelines, that--if that truck is in their hands over 30 days, 
they are considered the owner of that vehicle for all purposes 
of operating it.
    Senator Pryor. Has the Graves Amendment caused any change 
to occur in your industry? I'm not talking about the rental-car 
part, but the truck leasing industry.
    Mr. James. Absolutely?
    Senator Pryor. In what? What----
    Mr. James. Well, insurance premiums have gone down. HARCO 
is one of the biggest commercial insurers. They're--and they've 
strongly supported the passage of the Graves law. But, 
insurance rates, their contingent liability rates dropped by 20 
percent.
    But, even more importantly than that--I can speak in 
anecdote without telling the company's name--there was a bid-
up, by the State of New York, for 500 utility trucks. That's a 
pretty big contract. And one of my member companies turned that 
contract down. That was a chance for the State of New York to 
have a leased fleet that they didn't--they could outsource the 
maintenance on, they would have a fixed transportation cost on 
that fleet, and they wouldn't have to tie up State capital in 
acquiring that fleet. New York didn't get that opportunity, and 
my member didn't get the business, because of the vicarious 
liability risk in New York State.
    Senator Pryor. Mr. Leesfield, let me follow up on something 
that Mr. James said in his opening statement, and I'm curious 
about your view on this. Mr. James said that all the vehicles 
are covered by some insurance, even under the Graves Amendment, 
because there are other applicable laws that would require 
these leasing companies to maintain their vehicles and carry 
insurance on their vehicles. And so, basically, as I understand 
Mr. James' testimony said, they're basically all insured, one 
way or the other. Do you agree with that? And, if that's so, 
or--you know, what difference does that make?
    Mr. Leesfield. Well, it's not so, Mr. Chairman, because of 
the vehicles that--many vehicles and many drivers are either 
uninsured, completely, when they purchase their rental car 
contract, or they're underinsured. Having $10,000 of insurance 
is the substantial equivalent today of having no insurance. I 
can assure you that a renter, who travels to Florida from 
Venezuela and rents a car at any of the airports or any other 
stations, does not have insurance in Venezuela, and, if they 
cause an injury here and they go back to Venezuela, or any 
other country, there is absolutely no recourse whatsoever. It 
is not like a private citizen, who lives in Florida, who you 
can have some recourse against.
    There is no enforcement of either insurance requirements or 
driving standards. What's happened--and I think the Chairman 
hinted--hit upon this at the--earlier on--if there's no 
enforcement, if there's no corporate responsibility, if we give 
anybody total immunity, safety is going to pay the price. So, 
there is no looking up the driver's record to see if the driver 
has 30 infractions for drunk driving, reckless driving. None of 
that exists today. It did exist when the corporation that was 
responsible for the vehicle--and this is not a foreign notion. 
If a trucking company employs a trucking driver, and that 
trucking driver is negligent and causes catastrophic injuries, 
the trucking company is responsible. The trucking company 
didn't drive the truck, they only hired Mr. Jones. Mr. Jones 
was negligent, and he injured somebody severely. This is not a 
foreign notion.
    The availability of insurance to the rental car industry is 
a matter, I think--I think this gentleman is correct--their 
premiums went down. There is no question that this is a profit-
motive-driven idea. Their premiums did go down, Mr. Chairman. 
But, at what cost? Who picked up the tab for their premiums 
going down? Well, it's the U.S. Government, through Medicare, 
through Medicaid, through Social Security, and it's everybody 
else, every county government, every State government, and 
individuals, who--insurance--who have to pay for their profit. 
This is a question of shifting of who can most afford, as a 
matter of policy and a matter of--in Florida, of 90 years of 
common law, and, up until Graves, 6 years of statutory law.
    Florida, Governor Bush, and the Republican legislature of 
Florida looked at the law and said, ``We don't want to have 
unlimited recovery, we want to have limited recovery.'' So, 
they passed Chapter 324. That's what the State experiments have 
to be with this issue of rental car liability.
    To pass an overall immunity, 100 percent immunity, yes, it 
saves money for the industry, but it does a horrible disservice 
to the citizens and to the governments that have to pay for it.
    Senator Pryor. Mr. Leesfield, let me ask one more question, 
and I'm going to turn it over to Senator Nelson, here, in just 
one moment. But, do you see a distinction between, you know, 
your average rental car company and then some of these truck 
leasing companies that Mr. James represents in his day job--not 
to single out any company specifically--but do you see a 
distinction there, or are they one and the same?
    Mr. Leesfield. No, sir, there's a very clear distinction. 
The rental car companies are domestic corporations who have 
domestic drivers; they don't have people coming from overseas 
who don't know the rules of the road; they're not renting to 
people from countries that drive on the other side of the road 
or with different customs. They're renting to people with long-
term leases.
    Anybody can rent a car. Anybody can rent a car. You need a 
credit card, which could be valid or invalid, and a driver's 
license, which could be valid or invalid. In our State, and 
many other States, we have people--we'll just call them 
``marginal people''--don't want to cast any aspersions here--
who go in and rent a car to do their ``marginal business,'' 
and, in the course of doing that, injure innocent people.
    There is a very clear distinction between a commercial 
truck rental and a--millions and millions of people, coming 
from all over the world, renting cars.
    Senator Pryor. Senator Nelson?
    Senator Nelson. Mr. Chairman, I want to thank you for 
having this hearing.
    And I think you all have fleshed out a lot of the things, 
here, that I wanted to get on the record.
    And, Mr. James, I want you to know that I am a big fan of 
the rental companies. And since my daughter got married this 
summer, my wife drove the largest Penske rental truck from 
Washington, D.C. to Florida, to get her set up. And so, I can't 
say enough good things about the treatment that I get, in the 
kind of bifurcated life that we live, where we live in 
Washington and we live in Florida, as well.
    Now, you heard my opening statement. And part of that was 
being repeated here by Mr. Leesfield. Mr. Ruby, a pedestrian--I 
just attended the funeral for a retired admiral, a friend of 
Jim Tooey, who's in the office--in the audience here, with us--
the son of the late great Governor Leroy Collins. And he was 
out for his morning bike ride, had stopped, and--at a traffic 
light; the traffic light turned green, and he got on his bike, 
and he went across; and the car; who had stopped, turned and 
didn't see him. And we went to his funeral. Now, he's a retired 
admiral, and his family is--all his children are grown, and his 
widow is taken care of. But, if that had been a young person 
with a big family, and there's no recourse, it puts it in a 
little different situation.
    You take--for example, I said this in my opening comments, 
that the Republican Governor of Florida, Governor Bush, with a 
Republican legislature, took on tort reform and wanted to put 
caps on things. And, with regard to this issue, they put caps 
at $500,000 for damages and $100,000, in Florida law, for pain 
and suffering.
    Now, because Florida is unique--I've described it, Mr. 
Leesfield has described it--we have these millions of visitors 
coming to Florida, and most of them are--not ``most of them''--
a good percentage of them are from out of the country. And so, 
to be able to recover from the damage that they have caused 
leaves, folks like Mr. Ruby under the present law, without 
recourse, with the ultimate result that, if they are insolvent, 
it's going to be Medicaid, which is the State taxpayer and the 
Federal taxpayer, or disabled, under the Medicare laws; then 
it's the Federal taxpayer. And it seems like that we need to 
balance this.
    Now, how did the Graves Amendment get passed? It was back 
in the early part of this decade, and there was a partisan role 
to stick it to the trial lawyers. In every opportunity, there 
was an attempt. And this was on the big highway bill. And it 
got lost in all the noise. There was a recorded vote in the 
House that was almost a party-line vote, but apparently the 
Senate receded to the House amendment--meaning the overall 
bill, with its overall amendments--at the urging of the White 
House.
    And it seems to me--and I say this sincerely, because I'm a 
great fan of the industry that you represent--it seems that we 
have to take into consideration different circumstances and 
that you can't broadbrush something like this. And then, that's 
what I come back to, that that's the genius of State 
sovereignty and State law: to adapt to their individual 
circumstances. And I underscore the fact it was a Republican 
Governor with a Republican legislature that put those limits, 
but recognized there was a reason to have that in Florida.
    So, Mr. Chairman, I just want to state that again for the 
record. Obviously, we're not getting anything done in the next 
few weeks. But, I want to thank you for having this hearing so 
that we could air this issue. And let's talk in the future.
    Mr. James. Senator, I'd be very happy to talk in the future 
about this. It's obvious--you know, with all due respect, I'd--
all vehicles are covered by insurance. Maybe some drivers 
aren't, but all vehicles are. But, just this discussion has 
shown that maybe there are some more facts that need to be 
aired, put on the table; and I'd be happy to engage in those 
discussions. I think this hearing is a very valuable one, and I 
appreciate you giving me the opportunity to testify. But, I 
think there are a lot of aspects to this issue--the broadness 
of its impact on commercial transportation, as well as consumer 
choice, car rental, the laws that car rental companies are 
under, in which they have to rent to certain individuals if a 
basic level of eligibility is met--I think those are all--I 
think it's a very unique situation, given the interstate nature 
of our fleet, and I'd be happy to engage in more discussions, 
and I appreciate this opportunity to do so.
    Senator Pryor. Right.
    Senator Nelson. Thank you.
    Senator Pryor. Thank you, Senator Nelson. It's always good 
to have you here. Good statement.
    Let me ask Mr. James and Mr. Leesfield just one, really, 
last question, and that is--I am curious about statistics--if 
you all have any sort of statistics, in terms of how frequent 
are these accidents, where, you know, maybe a rental car 
company, and someone is from overseas or someone is uninsured, 
you know, doesn't have any assets, you know, whatever that 
situation may be--and I'm just curious, if there is--if there 
are any statistics that lay out the impact of the Graves 
Amendment and, kind of, the scope of the problem. Are--do you 
have any of those type statistics, Mr. James?
    Mr. James. Well, a lot of these cases are settled; and, due 
to those settlements, there's not a lot of information. We have 
information on some of the larger cases, many of which have 
been in Florida, both under Florida courts and U.S. district 
courts. We've also gone through one heck of an economic 
recession. So, any sort of business statistics, I think would 
be heavily skewed by all the other factors that are out there. 
But, you know, we'll certainly get whatever statistics we can 
put together----
    Senator Pryor. Yes.
    Mr. James.--about the impact, and get back to the Committee 
on that.
    [The information referred to is contained in the appendix.]
    Senator Pryor. That'd be help.
    Mr. Leesfield, do you have any?
    Mr. Leesfield. Mr. Chairman, there are statistics available 
supplementing common sense. The rental car driver, unfamiliar 
with the road, unfamiliar with the rules of the road, often 
visiting, is a much more distracted and difficult driver, in 
terms of the number of accidents. Our practice, in what I've 
seen both in teaching and interacting with others, would verify 
that.
    I don't know what statistics Mr. James has, because, since 
2005, in the passage of the Graves Amendment, there have been 
zero settlements, because there's no reason for the rental car 
industry to settle a single case if they have absolute immunity 
by the Graves Amendment. So, for 5 years now, there is no--
there's an industry that has 100-percent protection, a rather 
unique situation.
    So, I don't know what the settlement statistics are. I can 
tell you, beforehand, of the rental car industry. If they were 
a solvent company, which most of them are--and I gave you the 
statistics for that, in spite of the mom-and-pop argument, 
that, in fact, it's consolidation of the industry. And--the 
only statistic I saw is when I came in and looked at a--the 
rental car agency, and I saw there was a $6 refueling charge 
per gallon for gas. And I thought that was interesting 
statistic, that the $3 profit on that could pay for all the 
insurance for all the injured people like Ethan Ruby. There's 6 
bucks to refuel your car. Seems to me there's a whole lot of 
profit in that. And I'm not against profit, either. I think 
profit is wonderful. I'm glad they're making a profit. I just 
don't think the taxpayers and the individual citizens should 
make them more profitable than they already are.
    Senator Pryor. Well, I want to thank all of you all for 
being here. It's helpful for the Subcommittee and for the full 
Committee to get your testimony. And any sort of statistics or 
studies, whatever you also want to send in, we would definitely 
review those.
    We're going to leave the record open for an additional 2 
weeks. We anticipate that some of our colleagues will have 
further follow-up questions--I have a few, myself--that we 
could follow up on.
    But, I want to thank all three of you all for being here; 
especially you, Mr. Ruby. Thank you for making the effort.
    Mr. Ruby. With permission, I'd just like to add----
    Senator Pryor. Sure.
    Mr. Ruby.--one more.
    Senator Pryor. Sure.
    Mr. Ruby. First of all, I would like to say that if the 
substance of the Graves bill did have merit, it would not have 
been snuck in at 2 o'clock in the morning, right before the 
larger bill was passed.
    And to dispel some of the myths of these numbers that we're 
talking about, $9 million or $7 million, or, in my case, a 
little bit more than that, I'd like, just briefly, to 
understand just how expensive it is to live in a wheelchair. It 
costs me $1,000 a month just to pee. Just to pee. I will never 
be able to teach my son how to play soccer, or run on the beach 
with him. And I would give a $100 million to have that ability 
back.
    If I want to travel, in order to sit in coach, I have to 
literally hold myself up, the entire flight, because I have no 
abdominal control. So, should I pay the $300 and sit and 
suffer, or should I pay the little bit of extra money to be 
able to sit in first class? That is not a luxury. I do not live 
a life of luxury. I live a life of survival.
    The amount of money it costs yearly to live--physical 
therapy, doctors, preventative care--the first person that they 
put on the stand to testify said that my life will be decreased 
by 10 years, therefore they shouldn't have to pay the full 
amount of pain and suffering of a normal life. That's the 
concession.
    My--I do--the money that I have is to be able to live my 
life on a bare level. It is not to live extravagantly. I drive 
a Volvo. My wife and I share a Volvo that's 10 years old. It is 
to survive.
    And the pain and suffering goes on another level. The money 
is to survive and to be able to live and have a chance at life. 
It is nothing more.
    Senator Pryor. Well, thank you.
    Mr. Ruby. Thank you.
    Senator Pryor. And again, thank you for being here.
    And thank all three of you for being here today, and all of 
our previous panel witnesses, as well. We appreciate your time 
and the effort it took to be here and to prepare.
    And, like I said, we'll leave the record open for 2 weeks.
    And this hearing is now adjourned.
    Thank you.
    [Whereupon, at 1:14 p.m., the hearing was adjourned.]
                            A P P E N D I X

          Prepared Statement of Hon. John D. Rockefeller IV, 
                    U.S. Senator from West Virginia
    Thank you, Senator Pryor, for holding this important hearing. A 
major focus of our Committee's work this year has been on oversight of 
the National Highway Traffic Safety Administration (NHTSA) and 
legislation to improve vehicle and highway safety.
    The Committee has so far passed two critical motor safety bills--
the Motor Vehicle Safety Act of 2010 and the Distracted Driving 
Prevention Act. Both bills will help protect drivers, and prevent 
fatalities--and I will continue to work to bring both of these bills to 
the floor.
    Today, our focus is on the Federal and state safety programs 
authorized by Congress in SAFETEA-LU and administered by NHTSA. NHTSA 
Administrator David Strickland appeared before this Committee earlier 
this year, and I'm pleased to welcome him back today to share his 
thoughts on SAFETEA-LU and its results.
    As we all know, one of the ways NHTSA makes our roads safer is by 
improving driver behavior. Every year, NHTSA distributes more than $500 
million in grants to states as an incentive to pass strict safety laws, 
and to pay for enforcement, education, and other efforts to promote 
safety.
    Congress has directed the use of these funds to push states to 
enact primary enforcement laws on seat belt usage, promote the use of 
child safety and booster seats, and create harsh sentences for repeat 
drunk driving offenders. And we've seen real results. According to the 
latest data, the vast majority of drivers now use their seat belts, 
drunk driving has declined, and our roads are getting safer. However, 
there is still more to be done.
    As we prepare for the next reauthorization of SAFETEA-LU, we need 
to carefully consider whether the programs and grants funded through 
SAFETEA-LU are being used as effectively as possible. We also need to 
ask whether there are new programs that need to be funded, or new 
safety concerns that need to be addressed.
    One emerging safety issue I have focused on during my time as 
Chairman is distracted driving. Blackberries and cell phones have 
become commonplace. In this Internet-driven decade, everyone is trying 
to do more at once. As a result, people are typing while driving, 
talking while driving, and texting while driving. This behavior isn't 
just foolish--it's dangerous and deadly.
    In 2009, approximately 5,500 people died in crashes involving 
distraction and nearly 500,000 were injured. According to NHTSA, 16 
percent of all motor vehicle crashes are caused by distracted driving.
    Teen driving is another area of increasing concern. Motor vehicle 
crashes are the leading cause of death for U.S. teens. In 2008, about 
3,500 teens were killed in motor vehicle crashes. These drivers are 
young and inexperienced, and they are too easily distracted. Several 
states have adopted graduated driver's licenses. These programs delay 
full licenses until teens have real-world experience behind the wheel, 
prohibit teens from using any electronic communication devices while 
driving, and limit the number of passengers they can have in their car. 
I expect this Committee to further explore this issue to determine if 
Federal input will continue to help save teen lives.
    While we must deal with new and emerging issues, we must also 
retain a laser-like focus on the lingering, but pressing issue of drunk 
driving. Last week I met with Margie Sadler, a West Virginian who 
volunteers with Mothers Against Drunk Driving (MADD). She works with 
families that have lost loved ones in tragic crashes. Her heartbreaking 
stories serve as a reminder to us all of the human cost of drunk 
driving. I strongly support MADD's goal of eliminating drunk driving, I 
honor their work, and will continue to do all that I can to advance 
that goal.
    The third panel before this Committee today will focus on vicarious 
liability in the rental car industry. In 2005, as part of SAFETEA-LU, 
Congress preempted all state laws that held rental car companies liable 
for damages caused by drivers in their vehicles. Today we will hear 
from a young man, Ethan Ruby, who was paralyzed at the age of 25 when 
he was hit by a reckless driver in a rental car. Mr. Ruby has relied on 
a settlement from the rental car company to pay his medical bills and 
allow him to recover. If he had been hit by that same car after the 
passage of the 2005 law, he would have been able to recover little or 
nothing to pay for his care. This is an important issue worthy of 
consideration by this Committee.
    I want to thank our witnesses for appearing today to discuss these 
important issues that affect the lives of so many Americans. Through a 
continued focus on vehicle safety and highway safety, we can reduce the 
number of deaths and injuries on our roads.
                                 ______
                                 
   Prepared Statement of the National Automobile Dealers Association
    Mr. Chairman, on behalf of the over 16,000 members of the National 
Automobile Dealers Association (NADA) and its American Truck Dealers 
(ATD) subsidiary, who employ approximately one million Americans, we 
strongly oppose any effort to overturn the Graves/Boucher law, which 
creates uniformity in interstate commerce by prohibiting states from 
imposing vicarious liability on non-negligent owners of rented or 
leased vehicles. The Graves/Boucher law does not prohibit states from 
imposing minimum financial responsibility laws for vehicle owners in 
each state, does not interfere with states' ability to impose minimum 
insurance requirements, and does not exempt rental and leasing 
companies from liability if they are negligent or otherwise at fault. 
As the Subcommittee addressed the issue of vicarious liability during a 
hearing on September 28, 2010, we respectfully request that our 
statement be included in the hearing record.
Background
    Support for passage of Federal vicarious liability reform gained 
momentum in the late 1990s and early 2000s as the costs associated with 
vehicle leasing and renting mounted in states such as New York and 
Florida because of the frequency of massive judgments, attorney fees, 
and increased supplemental insurance premiums. Members of Congress 
became increasing sympathetic as lessors were faced with outrageous 
exposure to liability when they had no control over the vehicle and did 
not contribute in any way to an accident.
    While not all states have vicarious liability laws, a Federal law 
was needed because of the interstate nature of renting and leasing. 
Companies in states without vicarious liability laws had to buy 
supplemental insurance out of concern that either a lessee would drive 
a vehicle to a state where such laws exist or that a court would apply 
its vicarious liability laws in accident that occurred in another 
state. For example, a court in New York applied New York's vicarious 
liability statute in an action by New York and Ohio passengers against 
a Pennsylvania lessor of a van and a New York employer of the lessee, 
arising out of a collision that occurred on the employer's property in 
Pennsylvania.\1\
---------------------------------------------------------------------------
    \1\ Vasquez v. Christian Herald Ass'n Inc. 588 N.Y. S. 291, 
N.Y.A.D. 1st Dept., 1992.
---------------------------------------------------------------------------
    In 2005, Congress passed the Safe, Accountable, Flexible, Efficient 
Transportation Equity Act: A Legacy for Users, which included a 
bipartisan amendment sponsored by Reps. Sam Graves (R-MO) and Rick 
Boucher (D-VA) to create Federal uniformity and eliminate vicarious 
liability laws that were adversely affecting interstate commerce.
    NADA/ATD, as part of a larger coalition, supported passage of the 
2005 vicarious liability reform law which simply requires that, in 
order for a party to be held financially responsible for the 
consequences of an accident, the party must actually be at fault. The 
law does not exempt rental and leasing companies from liability if they 
are negligent or otherwise at fault and does not exempt the company 
from the minimum financial responsibility laws that apply to vehicle 
owners in each state.
    Under the existing Graves/Boucher law, the following safeguards 
exist:

  <bullet> All renting and leasing companies are required to follow 
        state approved insurance coverage requirements.

  <bullet> Injured parties are compensated the same whether they are 
        injured by a rented or leased car, or a privately owned car.

  <bullet> Renting and leasing companies that are at fault can not 
        escape liability--the law does not excuse any lessor or rental 
        car company from liability for ``negligent entrustment'' nor 
        does it excuse any entity from responsibility for its 
        employees' negligence (under respondent superior).

  <bullet> States can still determine the level of compensation 
        available to injured parties by setting minimum financial 
        responsibility limits for all vehicles. The Graves/Boucher law 
        does not supersede any state laws that require insurance or 
        impose or allow any lower insurance requirements in any state 
        or on any class of vehicles or vehicle ownership.

  <bullet> The law does not protect renting and leasing companies that 
        are negligent in their renting and leasing practices or in 
        their maintenance or care of a vehicle.

    Based on the experience of the auto and truck industry with 
vicarious liability laws prior to enactment of the Graves/Boucher law, 
repeal of the law would have a devastating impact by:

        1. Making vehicle renting or leasing unavailable or 
        unaffordable for many consumers and small businesses not just 
        in vicarious liability states, but throughout the country.

        2. Reinstating an antiquated and unfair policy that imposes 
        liability on lessors and rental companies based on ownership, 
        not control of the vehicle, negligence or fault.

        3. Posing an immediate threat to car and truck leasing that 
        would hurt the automobile and truck industry as well as the 
        economy.

    1. Repeal of the law would make vehicle renting or leasing 
unavailable or unaffordable for many consumers and small businesses not 
just in vicarious liability states, but throughout the country.
    Vehicle leasing is popular for consumers and small businesses since 
they benefit from both a low down-payment and smaller monthly payments. 
Monthly payments on a lease are based on the lower total cost of 
``owning'' the vehicle for the lease term of the vehicle, and not the 
entire purchase price of the vehicle. Manufacturers commonly offer 
aggressive incentives to leases that make them an attractive financial 
option. Many consumers and small businesses rely on leasing as the most 
efficient, and sometimes only, way to finance vehicles. This is 
particularly true in Northeast states (especially New York), where a 
high percentage of motor vehicles are leased.
    The experience of staggeringly high vicarious liability verdicts in 
the 1990s and early 2000s against leasing companies, banks, and most 
auto manufacturers' captive financing arms resulted in these companies 
pulling out of leasing in those states where unlimited lessor vicarious 
liability existed.\2\ In addition, many small rental companies were 
forced to close in New York.\3\ When these companies completely 
withdrew from the leasing market, it left customers with few affordable 
options to lease a new car or truck.
---------------------------------------------------------------------------
    \2\ Approximately 19 lenders, such as the finance arms of General 
Motors, Ford, Honda, as well as banks such as Chase Manhattan stopped 
leasing in New York because of the increasing costs associated with 
liability.
    \3\ ``N.Y.'s Vicarious Liability Costly for Consumers and Auto 
Dealers,'' Insurance Journal, July 19, 2004.
---------------------------------------------------------------------------
    Because companies could not obtain insurance against vicarious 
liability or because it became more expensive to do so, companies that 
continued to lease cars raised their fees by several hundred dollars to 
account for their liability under vicarious liability laws.\4\ Each of 
the few brands that stayed raised acquisition fees to offset vicarious 
liability risk, making leases much more expensive. (This was especially 
true for smaller leasing companies.) In 2003 and 2004, 200,000 leasing 
consumers were estimated to pay an average additional acquisition fee 
of $524.88 each, or a total of $105 million more to lease a car in New 
York due to the vicarious liability law.\5\
---------------------------------------------------------------------------
    \4\ Bill Platt, ``Leasing a Chrysler or Mercedes Will Cost More in 
Four States,'' Wall Street Journal, April 16, 2003.
    \5\ Greater New York Automobile Dealers Association surveys.
---------------------------------------------------------------------------
    The Graves/Boucher law was needed to ensure vehicle leasing was 
maintained as an affordable option. Small business owners have 
frequently stated that leasing is vital to their competitiveness and 
ability to expand. Leasing allows businesses to avoid tying up capital 
and credit lines that they could be using to expand and grow their 
business. It allows the monthly costs for vehicles used for business 
purposes to be ``expensed,'' rather than dealing with complicated 
depreciation rules. The loss of leasing options or increased fees 
prevents customers and small businesses from driving newer, safer, more 
fuel efficient, and cleaner cars and trucks and expanding their vehicle 
fleets.
    2. Repeal of the law would reinstate an antiquated and unfair 
policy that imposes liability on lessors and rental companies based on 
ownership, not control of the vehicle, negligence or fault.
    Vicarious liability for vehicle leasing was born out of an 
antiquated law implemented when only the wealthy owned cars and most 
had chauffeurs or livery drivers. The law was designed to keep the 
wealthy from pushing liability onto their drivers. Injured parties 
would then be able to seek damages from the vehicle owner, not the 
driver. The law was not intend to impart liability on vehicle leasing 
companies, which have no control over who drives a leased vehicle.
    Lessor vicarious liability places an unjust and unjustified burden 
on entities that have not violated any law or obligation and that have 
not been negligent in any way. The lessors do not control the manner in 
which a lessee--or the lessee's family or friends--operate a vehicle. 
Also, vicarious liability does not appropriately apportion the cost of 
an accident to the party that caused the accident.
    One of the exceptions to the Graves/Boucher law is a claim under 
negligent entrustment. Thus, if a leasing company or a rental company 
``negligently entrusted'' a vehicle to the lessee, renter, or driver, 
that lessor or rental company would be liable for damages in the event 
of an accident. Claims for negligent entrustment will depend generally 
on, ``the degree of knowledge the supplier of a chattel has or should 
have had concerning the entrustee's propensity to use the chattel in an 
improper or dangerous fashion.'' \6\
---------------------------------------------------------------------------
    \6\ Muller v. Gilliard, 27 Misc.3d 1231(A), slip copy, N.Y. 
Supreme, May 26, 2010.
---------------------------------------------------------------------------
    For example, providing a vehicle to an intoxicated customer would 
likely be deemed negligent entrustment, and would thus preclude the 
application of the exemption from liability that is provided to a 
rental company under the Graves/Boucher law. Similarly, providing a 
rental vehicle to an unlicensed driver would likely result in holding 
the rental company liable in the event of an accident.
    Merely renting or leasing a vehicle to a consumer or lessee who has 
an accident or whose family member subsequently has an accident would 
not, generally, without the renter's or lessor's knowledge that the 
consumer or lessee had a propensity or likelihood to use the vehicle in 
an improper or dangerous fashion, result in liability to the lessor. 
However, the lessee (and his or her insurance company) would be liable 
for any damages or injuries he or she caused. Current law does not 
impair an accident victim's ability to sue the driver or anyone else at 
fault for their damages in any amount.
    3. Repeal of the law would pose an immediate threat to car and 
truck leasing that would hurt the automobile and truck industry as well 
as the economy.
    Repeal of vicarious liability reform would put a strain on auto and 
truck dealers, and auto and truck manufacturers, as the industry is 
just now beginning to slowly recover from the recession.
    New York's vicarious liability law led to a 36 percent decline in 
the number of vehicles leased in that state, according to the Alliance 
of Automobile Manufacturers and the Greater New York Automobile Dealers 
Association.\7\ More than 19 automakers and every major retail bank 
stopped or curtailed car leasing in New York due to its law before 
enactment of the Graves/Boucher law.
---------------------------------------------------------------------------
    \7\ ``Vicarious liability costs New York consumers and businesses 
millions,'' Business Council of New York State, June 2005.
---------------------------------------------------------------------------
    Following passage of the Graves/Boucher law, all the captive 
finance companies and almost every bank that had pulled out of leasing 
came back to New York, and nationally, auto and truck leasing 
increased, resulting in more affordable leasing terms for customers and 
small businesses. Vehicle manufacturers became more inclined to support 
and encourage service loaner car fleets, as the unfair liability issues 
were resolved. The Graves/Boucher law has also contributed to more 
dealerships operating their own service loaner car fleets for the 
benefit and convenience of their customers. In addition, after the law 
passed, dealers increased the number of ``service vehicles,'' for which 
customers may rent on a short- or long-term basis. These vehicles are 
used primarily when a customer or small business is looking to finance 
a new or used vehicle or while their primary vehicle is being serviced 
or repaired. Since passage of the Graves/Boucher law, participation in 
manufacturer-sponsored customer loaner/rental programs for dealers has 
increased 67 percent in New York and 42 percent nationally.\8\ Any 
return of vicarious liability laws will deter this popular service 
among dealers and consumers.
---------------------------------------------------------------------------
    \8\ Sean Harrigan, PDP Group Inc.
---------------------------------------------------------------------------
    The adverse impact would also be felt by the truck industry. Many 
truck dealers also operate manufacturer-sponsored truck leasing 
programs, which have been one of the few bright spots in the 
significantly depressed trucking industry. Prior to enactment of the 
Graves/Boucher law, truck renting and leasing declined because trucks 
would operate in or through New York and other states with vicarious 
liability laws. Truck dealers also were unable to secure liability 
insurance for lease and rental fleets, inhibiting the ability to secure 
financing for their lease fleets, limiting dealers' ability to serve 
customers, and restricting the flow of interstate commerce. The vehicle 
truck leasing business is one of the few bright spots in today's 
depressed economy. Repeal of the vicarious liability protection would 
squelch this economically important segment of the truck industry.
    Repeal of Graves/Boucher would have a detrimental impact on jobs, 
particularly at a time of 9.6 percent unemployment. Automobile 
dealership jobs in New York, Rhode Island and other Northeastern states 
would be especially hard hit if Graves/Boucher was repealed. 
Additionally, during debate to reform New York's vicarious liability 
law in 2004, the United Auto Workers urged vicarious liability reform 
to protect workers and jobs. Jim Duncan, New York State Director, 
Region 9, said he feared for the jobs of New Yorkers in auto parts 
plants in Syracuse, Tonawanda and throughout the state as well as in 
downstate dealerships.
Conclusion
    At a time when businesses are attempting to rebuild and grow the 
economy, Congress should reject any changes to the current vicarious 
liability reform law. Any attempt to overturn the existing Graves/
Boucher law would have dramatic negative consequences for consumers and 
small businesses.

  <bullet> Auto and truck leasing will be discouraged and will diminish 
        as leasing and rental entities ceasing doing business in those 
        jurisdictions that apply this antiquated legal theory.

  <bullet> Vehicles will be more expensive for consumers, through 
        increased lease, acquisition, and insurance costs.

  <bullet> Consumers or small businesses will have limited options for 
        rentals and loaner vehicles, especially for those waiting for a 
        vehicle to be serviced or repaired.

  <bullet> Auto and truck dealers will lose business, and governments 
        will lose needed tax revenues.

  <bullet> Auto and truck sales will be lost as a result of a lack of 
        leasing options hurts employment in certain states and the 
        national economy.

    NADA/ATD appreciates the opportunity to provide the Committee with 
our views on this important subject.
                                 ______
                                 
                              Congress of the United States
                                   Washington, DC, October 12, 2010
Hon. John D. Rockefeller IV,
Chairman,
Senate Committee on Commerce, Science, and Transportation,
Washington, DC.
Hon. Kay Bailey Hutchison,
Ranking Member,
Senate Committee on Commerce, Science, and Transportation,
Washington, DC.

RE: Hearing on ``NHTSA Oversight: An Examination of the Highway Safety 
            Provisions of SAFETEA-LU''

Dear Chairman Rockefeller and Ranking Member Hutchison:

    We write to you to respectfully request this letter be included in 
the record for the hearing on ``NHTSA Oversight: An Examination of the 
Highway Safety Provisions of SAFETEA-LU,'' which was held on September 
28, 2010, in the Senate Committee on Commerce, Science, and 
Transportation. We appreciate your consideration of this matter.
    As you know, SAFETEA-LU corrected an inequity in the car and truck 
renting and leasing industries (Sec. 10208). As co-authors of this 
provision, we strongly oppose any attempt to repeal or weaken it.
    This provision, commonly referred to as ``vicarious liability'' or 
limitless liability without fault, restored fair competition to the car 
and truck renting and leasing industry, ultimately lowering costs and 
increasing choices for all consumers. Prior to this law, a small number 
of States imposed vicarious liability on companies and their affiliates 
simply because they owned a vehicle involved in an accident. Whether or 
not the rental or leasing company or vehicle was at fault was 
completely irrelevant, and the ensuing lawsuits cost consumers 
nationwide an estimated $100 million annually.
    The vicarious liability provision does not provide, nor is it 
intended to provide, blanket immunity for car renting and leasing 
companies or car manufacturers for proven negligible business 
practices. In fact, the provision in SAFETEA-LU clearly states that 
``An owner of a motor vehicle that rents or leases the vehicle to a 
person shall not be liable under the law of any State or political 
subdivision thereof, by reason of being the owner of the vehicle, for 
harm to persons or property that results or arises out of the use, 
operation, or possession of the vehicle during the period of the rental 
or lease, if, there is no negligence or criminal wrongdoing on the part 
of the owner.'' It simply protects businesses from being held liable 
for ``user error'' of a vehicle not owned by the driver.
    Repeal of this law will increase costs for non-negligent renting 
and leasing customers to cover the actions of negligent customers. 
Further, businesses will see their costs increase for the 
transportation of goods and are certain to be at-risk of failure when 
hefty verdicts are awarded to pay for the actions of their at-fault 
renters. In an economy where many businesses, large and small, are 
fighting just to survive, it is vitally important not to add to their 
load the job-killing burdens of frivolous lawsuits, which is precisely 
what repealing or weakening our provision will do.
    Lastly, existing law already requires renting and leasing companies 
to follow State approved insurance coverage requirements. This ensures 
that injured parties are compensated the same whether they are injured 
by a rented car, a leased car, or a car that is privately owned. 
Nothing in our provision prohibits States from increasing their minimum 
coverage requirements.
    Again, we appreciate your consideration of our request. Please feel 
free to contact us directly or Mike Matousek (Rep. Graves) at 202-225-
7041 or Chris Davis (Rep. Boucher) at 202-225-3861 of our staff should 
you have any questions or require additional information.
            Sincerely,
                                               Sara Graves,
                                                Member of Congress.
                                              Rick Boucher,
                                                Member of Congress.
                                 ______
                                 
Response to Written Questions Submitted by Hon. John D. Rockefeller IV 
                      to Hon. David L. Strickland
    Question 1. The Safe, Accountable, Flexible, Transportation Equity 
Act: a Legacy for Users (SAFETEA-LU), which was passed in 2005, 
required the National Highway Traffic Safety Administration (NHTSA) to 
issue a final rule on occupant ejection mitigation. A key component of 
the law requires that the performance standards ``reduce complete and 
partial ejections.'' Each year, nearly 9,000 people are killed and 
another 20,000 injured as a result of being ejected or partially 
ejected from a vehicle during a crash. Side air curtains often leave 
small openings that may allow partial ejection of limbs or even the 
full ejection of infants and toddlers. NHTSA has recognized that 
advanced window glazing in addition to side air curtains enhances the 
safety of vehicle occupants. In issuing final rules, I encourage NHTSA 
to maximize consumer safety. What is the status of the occupant 
ejection mitigation rulemaking and can you comment on the how the 
proposed rule would mitigate partial occupant ejection?
    Answer. We are in the process of completing a final rule that is 
consistent with SAFETEA-LU and meets our January 31, 2011 target for 
publication. The December 2, 2009 notice of proposed rulemaking (NPRM) 
for ejection mitigation was aimed at reducing the partial and complete 
ejection of vehicle occupants through side windows in crashes, 
particularly rollover crashes. The NPRM anticipated that manufacturers 
would meet the standard by enlarging and making more robust existing 
side impact air bag curtains, and possibly supplementing them with 
advanced glazing. The proposed rule would restrict the amount of 
outward displacement an impactor may travel beyond the plane of the 
window to less than 100 mm in target locations distributed around the 
window opening. This requirement would help to ensure full coverage of 
the window opening and the elimination of possible small ejection 
portals, thus addressing in a very significant way both partial and 
complete occupant ejections. We believe that when this final rule is 
implemented, it will significantly reduce the number of fatalities and 
serious injuries associated with complete and partial occupant 
ejections in rollovers and other types of vehicle crashes in a cost 
effective, reasonable, and objective manner.

    Question 2. In your testimony before the Committee on September 
28th, you stated: ``We have ongoing concerns about the pedestrian 
safety and distraction, and we have initiated pilot programs in each of 
these areas in the hope to use the results to guide policy 
recommendations for the next reauthorization.'' Please provide the 
Committee with additional information concerning NHTSA's pilot program 
on pedestrian safety.
    Answer. NHTSA has pedestrian safety demonstration programs 
promoting safety education and enforcement in Chicago, Florida, North 
Carolina and New Mexico. These locations are implementing pedestrian 
education and enforcement programs and strategies to complement 
existing or planned pedestrian engineering treatments, such as 
barriers, islands, signals and markings, to improve infrastructure over 
the course of 3 to 4 years. Examples of specific initiatives being 
demonstrated in these locations include a safety education campaign 
directed at motorists about distracted driving, sharing the road, and 
vulnerable road user awareness; special law enforcement details 
assigned to crosswalks to focus on motorist observance of pedestrian 
laws and pedestrian observance of crossing laws; and enforcement 
operations focusing on speeding on neighborhood streets, rural 
roadways, and school zones with documented pedestrian safety problems.

    Question 3. Motorcycle safety remains an area of prominent concern. 
As you noted in your testimony, while other highway safety statistics 
are improving, motorcycle fatalities increased by 11 percent between 
2004 and 2009. Please provide the Committee with additional information 
on NHTSA's strategy for reducing motorcycle deaths. The Agency's 
Vehicle Safety Rulemaking and Research Priority Plan for 2009-2011 
indicated that NHTSA was assessing Anti-lock Brake Systems (ABS) for 
motorcycles and that the next Agency decision was expected in 2010. 
Please provide an update on this activity and any other activities that 
NHTSA intends to undertake to improve motorcycle safety.
    Answer. Motorcycle helmets are the most effective means for 
reducing motorcycle deaths. Efforts are underway to aid State and local 
law enforcement officials in enforcing State laws that require 
motorcyclists to use helmets meeting Federal safety standards. NHTSA is 
pursuing a comprehensive strategy to reduce motorcycle deaths that also 
includes efforts to improve rider training and licensing practices and 
strategies to improve compliance with safety laws. Specific projects 
currently planned or underway include the development of Model National 
Standards for Entry-Level Rider Training, updating the Model Motorcycle 
Operators Manual and licensing knowledge test questions for use by 
State licensing agencies, a demonstration program to reduce the number 
of improperly licensed riders, research on motorcyclists' visual 
scanning skills, and a law enforcement training program to engage 
officers in improving motorcycle safety in the community.
    As the result of a comprehensive review of several different 
sources of crash data and analysis of test results, NHTSA has decided 
to delay rulemaking on ABS for motorcycles due to the inconclusive 
results. NHTSA has placed the results of crash data study and research 
in NHTSA Docket Number 2002-11950, which can be accessed at 
www.regulations.gov. We will continue to monitor the crash data and 
work with industry to identify motorcycles equipped with ABS both here 
and abroad. In addition, we are moving forward with a crash causation 
study that, among other things, will look specifically at braking-
related crashes. This will be the first study of its kind in more than 
30 years.
                                 ______
                                 
   Response to Written Question Submitted by Hon. Roger F. Wicker to 
                        Hon. David L. Strickland
    Question. The Federal Communication Commission's (FCC) National 
Broadband Plan (NBP) was released earlier this year. The plan includes 
many recommendations that reference NHTSA's role in deploying a 
nationwide next generation 911 (NG911) system. Specifically, 
Recommendation 16.13 references the need for NHTSA to analyze estimated 
costs of deploying and operating a NG911 system, and report to Congress 
no later than the end of 2011. What actions has NHTSA performed to date 
in carrying out the NBP recommendation? How will this study be 
performed? What is NHTSA's timeline for completion of this report?
    Answer. Recommendation 16.13 of the National Broadband Plan states, 
``The National Highway Traffic Safety Administration (NHTSA) should 
prepare a report to identify the costs of deploying a nationwide NG911 
System and recommend that Congress allocate public funding.'' The Plan 
further describes the proposed contents of the report in detail. 
Completing this report would be a significant undertaking for which 
NHTSA does not have available funds. However, the agency has taken the 
initial step to develop the specifications and cost estimate for 
completing the recommended report. We expect to finish this initial 
step at the end of calendar year 2010. NHTSA would be able to develop a 
timeline for the completion of the recommended report if the necessary 
resources are available.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Claire McCaskill to 
Ethan Ruby and Responded to by David C. Cook, Marc S. Moller Kreindler 
                            & Kreindler LLP
    Question 1. How does the Graves/Boucher provision in the 
Transportation Equity Act of 2005 address an injured party suing a 
company for negligence in the renting or leasing of a vehicle?
    Answer. 1. Graves prejudices the rights of victims of rental car 
operator negligence by insulating the rental car companies from 
liability for damages.
    2. The immunization of rental car companies from liability for the 
negligence of those who rent their cars and cause accidents will 
embolden the rental car companies to be even less careful than they are 
now in renting their vehicles because there is no economic 
responsibility that attaches for that act, except when it can be proved 
that the leasing itself was negligent. Negligent entrustment, for 
example, may be difficult to prove even when the entrustment is 
negligent. If rental car companies believe that they should have no 
liability in a given circumstance they can always bring their own 
action against the negligent driver. The burden of litigation and 
protecting the rental car companies should not be borne by the victims.
    3. With rental car companies insulated from economic responsibility 
for negligence of its drivers, the state and local governments will be 
required as a matter of law to bear the economic burden of medical care 
and rehabilitation of victims. That makes no sense when state and local 
governments are struggling to meet their own burdens of providing 
service to their citizens.
    4. Persons who lease cars or trucks from rental car or truck 
leasing companies most often cannot be located or when located carry 
minimal insurance. Thus the argument that the drivers of rental car 
companies' cars can still be sued for their negligence offers little 
protection for the victim. Renters who live in foreign countries, for 
example, will be virtually impossible to hold accountable.
    5. Purchasing third party liability insurance is a cost of doing 
business for rental car and truck companies which are capable of being 
spread among all renters of cars and trucks and thus would impose a 
modest burden, if it be considered a burden at all, upon the rental 
agencies themselves.

    Question 2. Since passage of the Graves/Boucher provision in the 
Transportation Equity Act, what recovery options exist for a party 
injured by a rental car driven by an uninsured driver?
    Answer. 1. The issue of whether rental car companies should be 
insulated from liability for the negligence of its drivers should 
properly be resolved on a state-by-state basis and not by Federal 
legislation. Federalization of insulating rental car companies fails to 
allow a distinction between states which have a large transient car and 
truck renter population and those states in which rental car and truck 
leasing activity has no such aspect. E.g. Florida and New York vs. 
North Dakota. The state legislatures are the proper fora in which the 
distinctions and issues should be mediated and resolved.
    2. Preemption of state laws is especially inappropriate in these 
circumstances since the extraordinary burden and risk placed upon the 
victims and states is not counterbalanced by appropriate safeguards in 
the rental process and business to insure that victims have adequate 
protection. Minimum insurance standards embodied in state law are 
insufficient for the profit-making companies Few industries, if any, 
enjoy the extraordinary protection rental car companies obtained 
through Boucher. The rationale of low mandatory limits of coverage in 
some state laws which may be required to accommodate the non-business 
and small business driver population has no application or 
justification for the highly profitable car and truck rental business. 
If those companies cannot buy or afford adequate and meaningful 
insurance coverage they should not be in the business. Victims do not 
have to subsidize them.
    3. Ethan Ruby received fair compensation for his catastrophic 
injuries as his action was pre-Graves, however, by contrast a recent 
post-Graves New York Second Department Appellate Division Decision 
(attached) established the near futility of pursuing negligent 
entrustment. In Byrne v. Budget et. al. The operator, holding a 
restricted license (originally Suspended for DUI and reinstated as 
Restricted enabling travel to and from work and during the course of 
his employment) with a lengthy history of illegal drug abuse, 
alcoholism, DUI, multiple criminal convictions and incarceration ran 
over and killed a young female bicyclist. The case was dismissed 
against the rental company as a restricted license was ruled a valid 
license and there is no legal duty imposed upon the rental company 
(even on notice of a Restricted License) to investigate the renter's/
operator's driving and/or criminal record.
                                 ______
                                 
                               Attachment
                            Byrne v. Collins
                         2010 NY Slip Op 07507
                      Decided on October 19, 2010
                 Appellate Division, Second Department
    Published by New York State Law Reporting Bureau pursuant to 
Judiciary Law  431.
    This opinion is uncorrected and subject to revision before 
publication in the Official Reports.
Decided on October 19, 2010
                 Supreme Court of the State of New York
Appellate Division : Second Judicial Department
    Mark C. Dillon, J.P.
    Anita R. Florio
    John M. Leventhal
    Cheryl E. Chambers, JJ.

    2010-00431
    (Index No. 38029/06)

                  [*l] David Byrne, etc., respondent,
                                   v.
  James Collins, et al., defendants, Budget Truck Trust I Wilmington 
                     Trust Co., et al., appellants.

    Reardon & Sclafani, P.C., Tarrytown, N.Y. (Michael V. Sclafani
    of counsel), for appellants.
    Kreindler & Kreindler, LLP, New York, N.Y. (Megan W. Benett
    of counsel), for respondent.

Decision & Order
    In an action, inter alia, to recover damages for personal injuries, 
the defendants Budget Truck Trust I Wilmington Trust Co. and Budget 
Rent-A-Car System, Inc., appeal, as limited by their brief, from so 
much of an order of the Supreme Court, Kings County (F. Rivera, J.), 
dated November 24, 2009, as denied that branch of their motion, made 
jointly with the defendants Perfect Car Rental, doing business as 
Budget Truck Rental, and Budget Truck Rental, LLC, which was for 
summary judgment dismissing the complaint insofar as asserted against 
them.
    ORDERED that the order is reversed insofar as appealed from, on the 
law, with costs, and that branch of the motion which was for summary 
judgment dismissing the complaint insofar as asserted against the 
defendants Budget Truck Trust I Wilmington Trust Co. and Budget Rent-A-
Car System, Inc., is granted.
    The plaintiffs decedent was fatally injured when, while riding a 
bicycle, she was struck by a truck. At the time of the accident, the 
defendant Budget Truck Trust I Wilmington Trust Co. (hereinafter Budget 
Truck Trust) was the titled owner of the truck and the defendant Budget 
Rent-A-Car System, Inc. (hereinafter Budget Rent-A-Car, together the 
appellants), was the registered owner. On the morning of the day of the 
accident, Michael James, a person employed as an assistant supervisor 
for the defendant JBG Trucking (hereinafter JBG), had rented the truck 
involved in the accident from Perfect Car Rental, doing business as 
Budget Truck Rental (hereinafter Perfect Rental), a company that 
operated as a dealer for the defendant Budget Truck Rental, LLC 
(hereinafter Budget, LLC). At the time of the accident, the truck was 
being driven by the defendant James Collins, a part-time employee of 
JBG.
    The decedent's brother, on behalf of himself and the decedent's 
estate, commenced this action against the appellants, among others, to 
recover damages for wrongful death and personal injuries, alleging, 
inter alia, negligent entrustment. The second cause of action, which 
alleged negligent entrustment, asserted, in effect, that Perfect 
Rental's counter agent Saul Friedman [*2] negligently entrusted the 
truck to Collins by failing to thoroughly review the driving and 
criminal history which led to the restriction of Collins' license to a 
class C driver's license and, further, that there was readily 
observable evidence of Collins' drug use on the day of the rental and 
accident.
    To establish a cause of action under a theory of negligent 
entrustment, ``the defendant must either have some special knowledge 
concerning a characteristic or condition peculiar to the [person to 
whom a particular chattel is given] which renders [that person's] use 
of the chattel unreasonably dangerous . . . or some special knowledge 
as to a characteristic or defect peculiar to the chattel which renders 
it unreasonably dangerous'' (Cook v. Schapiro, 58 AD3d 664, 666, Zara 
v. Perzan, 185 AD2d 236, 237).
    The appellants made a prima facie showing of entitlement to 
judgment as a matter of law on the second cause of action insofar as 
asserted against them by demonstrating that the rental truck they owned 
was not negligently entrusted to Collins. They submitted, inter alia, 
transcripts of deposition testimony of Collins, Michael James, and 
Friedman, as well as Budget, LLC's dealer manager Natalie Brown, which 
collectively established, prima facie, that, although not required to 
do so by any internal policies when dealing with business accounts such 
as JBG's, Perfect Rental's counter agent Friedman nonetheless verified 
that Collins had a restricted, yet valid, driver's license on the 
morning of the rental and accident. Furthermore, the testimony of 
Collins and of Michael James established, prima facie, that Collins had 
not used drugs the day of the accident.
    In opposition thereto, the plaintiff submitted, inter alia, an 
abstract of Collins' driving record, which showed that he indeed had a 
restricted, yet valid, Class C driver's license on the day of the 
rental and accident. The plaintiff also included excerpts of deposition 
transcripts of Collins and Michael James, which failed to support his 
conclusory and speculative assertion that Collins may have been under 
the influence of drugs on the day of the rental and accident. These 
submissions were insufficient to raise a triable issue of fact as to 
whether or not the appellants possessed special knowledge concerning a 
characteristic or condition peculiar to Collins that rendered his use 
of the truck unreasonably dangerous. Thus, the negligent entrustment 
cause of action should have been dismissed insofar as asserted against 
the appellants (see generally Alvarez v. Prospect Hospital, 68 NY2d 
320, 324).
    Contrary to the plaintiffs contention, the appellants' failure to 
provide copies of any internal policies as to investigation of 
potential renters with restricted licenses constitutes an insufficient 
basis upon which to deny their motion for summary judgment. Even if 
such a policy had been violated, under the circumstances of this case, 
such violation would not constitute actionable negligence (see Lambert 
v. Bracco, 18 AD3d 619, 620; Newsome v. Cservak, 130 AD2d 637, 638).
    The first cause of action, which was based on the alleged vicarious 
liability of the appellants, was barred under the Graves Amendment (49 
U.S.C.  30106), as the appellants showed they are ``owner[s] . . . 
engaged in the trade or business of renting or leasing motor vehicles'' 
(49 U.S.C.  30106; see Gluck v. Nebgen, 72 AD3d 1023), and should also 
have been dismissed.
    The plaintiffs remaining contentions either are without merit or 
have been rendered academic in light of this determination.
    Accordingly, that branch of the motion which was for summary 
judgment dismissing the complaint insofar as asserted against the 
appellants should have been granted. Dillon, J.P., Florio, Leventhal 
and Chambers, JJ., concur.
    ENTER: [*3]
                                        Matthew G. Kiernan,
                                                Clerk of the Court.
                                 ______
                                 
    Response to Written Question Submitted by Hon. Byron Dorgan to 
                            Ira H. Leesfield
    Question. The Transportation Equity Act of 2005 (Sec. 30106) 
provides that owners of rental and leasing vehicles are not liable for 
harm related to those vehicles, provided there is no negligence or 
criminal wrongdoing on the part of the owner. This provision ensures 
that there is no absolute immunity for vehicle owners when they are 
negligent. If a consumer rents a car and there are faulty brakes, and 
he suffers an injury, would the consumer be able to sue the company for 
negligence in Florida and other states across the country?
    Answer. The rental company could be liable under narrow 
circumstances. However, if the rental car driver noticed that the 
brakes are faulty, and not operating correctly, and continued to drive 
the car, the operator would be negligent for which there is no recourse 
by the injured party.
    In Florida, as in most states, we have ``shared'' liability and the 
rental car company could greatly diminish or eliminate their 
responsibility by blaming the renting driver, who has returned to his 
home state or home country. I hope this helps answer your inquiry.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Claire McCaskill to 
                            Thomas M. James
    Question 1. How does the Graves/Boucher provision in the 
Transportation Equity Act of 2005 address an injured party suing a 
company for negligence in the renting or leasing of a vehicle?
    Answer. The Graves/Boucher provision does not impact an injured 
party suing a company for negligence in the renting or leasing of a 
vehicle. In fact, the law is very clear that protection from liability 
only exists when ``there is no negligence or criminal wrongdoing on the 
part of the owner.'' In other words, the Graves/Boucher provision 
provides no protection from liability for renting and leasing companies 
whose negligence contributes to an accident and claim. If a rental 
company's actions are found to be negligent, such as renting to a 
visibly intoxicated driver, then the Graves/Boucher provision would not 
apply. The Graves/Boucher provision merely prevents these companies 
from being held liable without fault for actions that are outside of 
their control.

    Question 2. Since passage of the Graves/Boucher provision in the 
Transportation Equity Act, what recovery options exist for a party 
injured by a rental car driven by an uninsured driver?
    Answer. Owners of rental cars are required to fulfill state 
requirements for liability insurance just as owners of all other cars 
on the road in a given state. In the event a rental car is driven by an 
uninsured driver, the injured party at a minimum can recover up to the 
state financial responsibility limits. Beyond that, the injured party 
may pursue the negligent party, which depending upon the circumstances 
could be either the renter or the rental car company. In either case, 
the Graves/Boucher provision would not foreclose an injured party from 
seeking recovery from a negligent party as well as seeking recovery 
against the rental car company in the amount of the state-mandated 
minimum level of financial responsibility.
                                 ______
                                 
    Response to Written Question Submitted by Hon. Byron Dorgan to 
                            Thomas M. James
    Question. It is my understanding that the Graves/Boucher provision 
included in the 2005 Highway Safety Reauthorization (TEA-LU) eliminates 
liability without fault judgments against vehicle renting and leasing 
companies. Does the Graves/Boucher provision also specifically exempt 
from coverage any negligence on the part of the owner? Under the 
Graves/Boucher provision would a company which rents a car to an 
intoxicated person and he causes an accident still be appropriately 
subject to liability based on negligence?
    Answer. The Graves/Boucher provision provides absolutely no 
protection from liability for renting and leasing companies whose 
negligence contributes to an accident and claim. If a rental company's 
actions are found to be negligent, such as renting to a visibly 
intoxicated driver, then the Graves/Boucher provision would not apply. 
The Graves/Boucher provision merely prevents these companies from being 
held liable without fault for actions that are outside of their 
control.
                                 ______
                                 
                     Truck Renting and Leasing Association,
                                   Alexandria, VA, October 12, 2010
Chairman John D. Rockefeller IV,
Ranking Member Kay Bailey Hutchison,
Subcommittee Chairman Mark Pryor,
Subcommittee Ranking Member Roger Wicker,
Committee on Commerce, Science, and Transportation,
Washington, DC.

Re: Additional Submission for Record of September 28, 2010 NHTSA 
            Hearing

Dear Chairman Rockefeller, Ranking Member Hutchison, Chairman Pryor, 
            and Ranking Member Wicker:

    I would like to once again thank you for the opportunity to testify 
before the Committee on the issue of the impact of the Graves/Boucher 
amendment. I believe that my testimony provided you and the members of 
the Committee with a sense of how important this law has become to the 
rental, leasing, and automobile manufacturing industries, and 
ultimately to protecting consumer choices in the rental and leasing 
marketplaces.
    I would like to also take this opportunity to clarify a few points 
that were raised during the hearing.
Foreign Renters No More Likely To Cause Damage than U.S. Born
    During the hearing, Chairman Pryor asked for additional data as it 
relates to the issue of foreign drivers and the frequency in which they 
are engaged in auto accidents while using rented or leased vehicles. 
There is no aggregate data for the industry on this issue, but in 
speaking with individual rental car companies, the rate of incident on 
foreign renters is almost identical to domestic rental customers. As it 
relates to foreign renters and insurance, at a minimum all foreign 
renters are provided (by rental car companies) the liability protection 
that meets a state's minimum final responsibility limits. In addition, 
many foreign drivers have supplemental insurance through full value 
vouchers or tour programs that provide primary liability protection. In 
addition to this insurance coverage, foreign drivers are offered and 
many elect to purchase, supplemental liability coverage from individual 
companies; this insurance product provides up to $1 million of 
coverage. According to some company statistics, foreign renters on 
average purchase the supplemental liability coverage 79 percent of the 
time.
2005 Graves Amendment Not a Case of First Impression for Congress
    First, the issue of vicarious liability reform has been debated and 
discussed extensively in both the House of Representatives and the 
Senate for well over a decade. In 1996, during the 104th Congress, the 
House and Senate easily passed H.R. 956: Product Liability Fairness Act 
of 1995, a comprehensive product liability reform bill. The measure 
contained a vicarious liability reform provision offered by 
Representative Pete Geren (D-TX). This provision was approved by voice 
vote as an amendment. In May 1996, President Clinton vetoed the bill, 
thereby ending chances to secure passage of product liability reform in 
the 104th Congress.
    On January 21, 1997 during the 105th Congress, Senator Ashcroft 
introduced S. 5: Product Liability Reform Act of 1997, a comprehensive 
product liability reform bill identical to H.R. 956 that contained a 
vicarious liability reform provision. In May 1997, the Senate Committee 
on Commerce, Science, and Transportation approved a modified version of 
Sen. Ashcroft's proposal, S. 648: The Product Liability Reform Act of 
1997, which also contained a vicarious liability reform measure. In 
1998, S. 648 was replaced by S. 2236: The Product Liability reform Act 
of 1998, a bipartisan compromise bill negotiated between Senator Slade 
Gorton, the Clinton Administration, and Chairman Rockefeller. This bill 
contained a vicarious liability reform provision, but the Senate failed 
to invoke cloture on the bill, thereby ending prospects of passing a 
product liability reform measure in the 105th Congress.
    During the 106th Congress, Representative Ed Bryant (R-TN) and 
Senator John McCain (R-AZ) introduced H.R. 1954: The Rental Fairness 
Act and S. 1130: The Motor Vehicle Rental Fairness, to reform liability 
of motor vehicle rental and leasing companies. In addition, Senator 
Spencer Abraham introduced S. 1185: The Small Business Reform Act and 
Representative James Rogan introduced H.R. 2366, a companion bill; both 
contained vicarious liability reform provisions. On September 29, 1999 
the House Judiciary Committee held a hearing on the Rogan bill and on 
September 30, and the Consumer Affairs Subcommittee of the Senate 
Commerce Committee held a hearing on the McCain reform bill (S. 1130). 
Senator McCain's bill was later approved by voice vote and sent to the 
full Senate Commerce Committee. Throughout the 106th Congress, the 
House Judiciary and Commerce Committees held several hearings and mark-
up sessions on H.R. 1954 and H.R. 2366. On February 16, 2000, the House 
approved H.R. 2366 by a vote of 221-193. The approved bill contained 
vicarious liability reform language for product sellers, lessors, and 
renters.
    Vicarious liability reform was also debated in the 108th Congress. 
On April 1, 2004 during the debate on H.R. 3550, the Safe, Accountable, 
Flexible and Efficient Transportation Act of 2004, Representative Sam 
Graves (R-MO) offered an amendment to reform vicarious liability laws 
for rented or leased motor vehicles. After the debate, the amendment 
failed on a voice vote.
    It was in the 109th Congress in which vicarious liability reforms 
became law. On March 9, 2005, Representative Sam Graves and 
Representative Rick Boucher (D-VA) attempted to again amend the 
Transportation Reauthorization bill (H.R. 3) with a provision to reform 
vicarious liability laws for rented or leased motor vehicles. After a 
debate on the House Floor, the bipartisan amendment passed the House of 
Representatives with a vote of 218-201. The next day, H.R. 3 passed the 
House of Representatives with a vote of 417-9. H.R. 3 was conferenced 
between the chambers, where House and Senate Conferees retained the 
vicarious liability language and included it in the final conference 
product. On July 29, 2005, the House passed the conference bill by 412-
8 and the legislation was passed in the Senate 91-4. Vicarious 
liability reform was signed into law by President George W. Bush on 
August 10, 2005.
Elimination of Vicarious Liability Does not Eliminate Liability--
        Companies Always Provide MFR and Continue to Be Liable for 
        Negligence
    Secondly, there seems to be some confusion regarding the scope of 
the Graves/Boucher provision. The Graves/Boucher provision does not 
provide complete immunity for the rental car and leasing industries; 
these industries are liable for any accidents in which they have acted 
negligently. Through negligent entrustment, rental car and leasing 
companies can be held accountable for their actions. These actions 
include renting to a customer who is visibly intoxicated. Furthermore, 
even in cases in which a rental or leasing company is not at fault, the 
Graves/Boucher provision does not alleviate responsibility of rental 
car and leasing companies of the minimum financial responsibility for 
each state. Every rental or leased car has the minimum level of 
insurance as required by the state in which it is rented or leased.
Hague Service Convention Prescribes Rules for Serving Negligent Foreign 
        Renters
    During the hearing it was asserted that negligent rental car 
customers can ``drive off scot free'' from their actions. This is 
incorrect. Under the Hague Service Convention, a central authority 
accepts incoming requests for service and arranges for service in a 
manner permitted within the receiving state, typically through a local 
court to the defendant's residence. This system has been in place since 
1965 and applies to 60 countries--largely encompassing the developed 
world in which the overwhelming majority of foreign renters reside.
    Thank you again for the opportunity to discuss this important 
matter with the Committee.
            Sincerely,
                                           Thomas M. James,
                                                 President and CEO,
                                 Truck Renting and Leasing Association.

                                  <all>

</pre></body></html>
